<html>
<title> - BUILDING BACK BETTER: THE URGENT NEED FOR INVESTMENT IN AMERICA'S WASTEWATER INFRASTRUCTURE</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]




 
   BUILDING BACK BETTER: THE URGENT NEED FOR INVESTMENT IN AMERICA'S 
                       WASTEWATER INFRASTRUCTURE

=======================================================================

                                (117-3)

                             REMOTE HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 23, 2021

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                            ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
43-953 PDF           WASHINGTON : 2021                              
                             
                             
                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
JOHN KATKO, New York                 HENRY C. ``HANK'' JOHNSON, Jr., 
BRIAN BABIN, Texas                   Georgia
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DAVID ROUZER, North Carolina         DINA TITUS, Nevada
MIKE BOST, Illinois                  SEAN PATRICK MALONEY, New York
RANDY K. WEBER, Sr., Texas           JARED HUFFMAN, California
DOUG LaMALFA, California             JULIA BROWNLEY, California
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
BRIAN J. MAST, Florida               DONALD M. PAYNE, Jr., New Jersey
MIKE GALLAGHER, Wisconsin            ALAN S. LOWENTHAL, California
BRIAN K. FITZPATRICK, Pennsylvania   MARK DeSAULNIER, California
JENNIFFER GONZALEZ-COLON,            STEPHEN F. LYNCH, Massachusetts
  Puerto Rico                        SALUD O. CARBAJAL, California
TROY BALDERSON, Ohio                 ANTHONY G. BROWN, Maryland
PETE STAUBER, Minnesota              TOM MALINOWSKI, New Jersey
TIM BURCHETT, Tennessee              GREG STANTON, Arizona
DUSTY JOHNSON, South Dakota          COLIN Z. ALLRED, Texas
JEFFERSON VAN DREW, New Jersey       SHARICE DAVIDS, Kansas, Vice Chair
MICHAEL GUEST, Mississippi           JESUS G. ``CHUY'' GARCIA, Illinois
TROY E. NEHLS, Texas                 ANTONIO DELGADO, New York
NANCY MACE, South Carolina           CHRIS PAPPAS, New Hampshire
NICOLE MALLIOTAKIS, New York         CONOR LAMB, Pennsylvania
BETH VAN DUYNE, Texas                SETH MOULTON, Massachusetts
CARLOS A. GIMENEZ, Florida           JAKE AUCHINCLOSS, Massachusetts
MICHELLE STEEL, California           CAROLYN BOURDEAUX, Georgia
                                     KAIALI`I KAHELE, Hawaii
                                     MARILYN STRICKLAND, Washington
                                     NIKEMA WILLIAMS, Georgia
                                     MARIE NEWMAN, Illinois
                                     Vacancy

            Subcommittee on Water Resources and Environment

 GRACE F. NAPOLITANO, California, 
               Chair
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
DANIEL WEBSTER, Florida              EDDIE BERNICE JOHNSON, Texas
JOHN KATKO, New York                 JOHN GARAMENDI, California
BRIAN BABIN, Texas                   ALAN S. LOWENTHAL, California
GARRET GRAVES, Louisiana             TOM MALINOWSKI, New Jersey
MIKE BOST, Illinois                  ANTONIO DELGADO, New York
RANDY K. WEBER, Sr., Texas           CHRIS PAPPAS, New Hampshire
DOUG LaMALFA, California             CAROLYN BOURDEAUX, Georgia
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
BRIAN J. MAST, Florida               SALUD O. CARBAJAL, California
JENNIFFER GONZALEZ-COLON,            GREG STANTON, Arizona
  Puerto Rico                        ELEANOR HOLMES NORTON,
NANCY MACE, South Carolina             District of Columbia
SAM GRAVES, Missouri (Ex Officio)    STEVE COHEN, Tennessee
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, and Chair, Subcommittee on Water Resources 
  and Environment:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. David Rouzer, a Representative in Congress from the State of 
  North Carolina, and Ranking Member, Subcommittee on Water 
  Resources and Environment:

    Opening statement............................................     5
    Prepared statement...........................................     6
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     7
    Prepared statement...........................................     8
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    77
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................    77

                               WITNESSES

Hon. David J. Berger, Mayor of the City of Lima, Ohio, on behalf 
  of the United States Conference of Mayors:

    Oral statement...............................................    22
    Prepared statement...........................................    23
Bill Sterud, Chairman, Puyallup Tribe of Indians:

    Oral statement...............................................    26
    Prepared statement...........................................    28
Oluwole McFoy, General Manager, Buffalo Sewer Authority, on 
  behalf of the National Association of Clean Water Agencies:

    Oral statement...............................................    30
    Prepared statement...........................................    31
Tom Teske, Vice President and General Manager, EJ Americas:

    Oral statement...............................................    33
    Prepared statement...........................................    34
Brenda Coley, Co-Executive Director, Milwaukee Water Commons:

    Oral statement...............................................    38
    Prepared statement...........................................    40
David Mallino, Legislative Director, Laborers' International 
  Union of North America:

    Oral statement...............................................    47
    Prepared statement...........................................    49

                       SUBMISSIONS FOR THE RECORD

Submissions for the Record by Hon. Grace F. Napolitano:

    Statement of Hon. Marilyn Strickland, a Representative in 
      Congress from the State of Washington, in Support of the 
      Testimony of Puyallup Tribe Chairman Bill Sterud...........    10
    Letter of February 19, 2021, from Lisa Cylar Barrett, 
      Director of Policy, and Coty Montag, Senior Counsel and TMI 
      Researcher, NAACP Legal Defense and Educational Fund, Inc..    11
    Statement of the National Utility Contractors Association....    12
    Letter of February 19, 2021, from the Clean Water for All 
      Coalition..................................................    13
    Letter of February 22, 2021, from Pete Bucher, Managing 
      Director of Water Policy, Ohio Environmental Council.......    16
    Statement of Patricia Sinicropi, Executive Director, 
      WateReuse Association......................................    18
    Statement of the American Society of Civil Engineers.........    19
    Letter of February 24, 2021, from Adam D. Link, Executive 
      Director, California Association of Sanitation Agencies....    78
Letter of February 22, 2021, from Noah Valenstein, Secretary, 
  Florida Department of Environmental Protection, Submitted for 
  the Record by Hon. Brian J. Mast...............................    60
Report, ``City of Pleasantville Sanitary Sewer System 
  Evaluation,'' April 22, 2019, Prepared by CME Associates, 
  Submitted for the Record by Hon. David Rouzer on behalf of Hon. 
  Jefferson Van Drew.............................................    66

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           February 18, 2021

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Water Resources and 
Environment
    FROM:  LStaff, Subcommittee on Water Resources and 
Environment
    RE:      LSubcommittee Hearing on ``Building Back Better: 
The Urgent Need for Investment in America's Wastewater 
Infrastructure''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Water Resources and Environment will 
meet in open session on Tuesday, February 23, 2021, at 11:00 
a.m. in the Rayburn House Office Building, Room 2167, and by 
video conferencing via Cisco Webex, to receive testimony on 
``Building Back Better: The Urgent Need for Investment in 
America's Wastewater Infrastructure.'' The purpose of this 
hearing is to examine the current state of our clean water 
systems and receive testimony on the backlog of clean water 
infrastructure needs, current and future challenges, and the 
infrastructure affordability challenges facing communities and 
American households. The Subcommittee will hear from 
representatives of utilities, rural and tribal communities 
impacted by inadequate clean water infrastructure and 
affordability challenges, and the manufacturing and labor 
sectors who may offer recommendations for the Environmental 
Protection Agency (EPA) to address water infrastructure needs.

                               BACKGROUND

CLEAN WATER INFRASTRUCTURE NEEDS

    America's water infrastructure is in need of further 
financial investment. According to the American Society of 
Civil Engineers (ASCE) Failure to Act Report, America's 
wastewater treatment infrastructure receives a grade of D+, 
which was included in ASCE's 2017 Infrastructure Report 
Card.\1\
---------------------------------------------------------------------------
    \1\ American Society of Civil Engineers. 2017 Infrastructure Report 
Card. https://www.infrastructurereportcard.org.
---------------------------------------------------------------------------
    According to EPA's most recent (2012) needs survey, 
communities have documented at least $271 billion of investment 
over the next 20 years to bring their systems to a state of 
good repair.\2\ As this assessment is almost a decade old, the 
current need may be higher. Given the current level of Federal 
investment to address these needs, States and local governments 
are covering more than 95 percent of the cost of clean water 
projects.\3\
---------------------------------------------------------------------------
    \2\ https://www.epa.gov/cwns/clean-watersheds-needs-survey-cwns-
2012-report-and-data.
    \3\ Congressional Budget Office. Public Spending on Transportation 
and Water Infrastructure, 1956 to 2017. October 2018. https://
www.cbo.gov/publication/54539.
---------------------------------------------------------------------------
    These statistics indicate a need for increased investment 
in our Nation's water infrastructure, and the benefits are 
numerous. Investing in clean water creates thousands of 
domestic jobs in the construction industry and reduces the 
overall costs of operating and maintaining that infrastructure. 
According to the National Utility Contractors Association, 
every $1 billion invested in our Nation's water infrastructure 
creates or sustains nearly 28,000 jobs in communities across 
America, while improving public health and the environment at 
the same time.\4\ In addition, clean water infrastructure helps 
prevent contamination of our Nation's waters that are relied 
upon by the recreational industry. People spend approximately 
$70 billion per year on recreational boating and fishing; that 
industry employs more than 150,000 people.\5\
---------------------------------------------------------------------------
    \4\ Statement of Doug Carlson, CEO, National Utility Contractors 
Association, before the Senate Committee on Environment and Public 
Works hearing, entitled ``Information Gathering-Process on Draft 
Legislation'' (April 27, 2020) (https://www.nuca.com/files/
Gov%20Relations/
EPW%20Water%20Infrastructure%20Legislation_NUCA%20Statement_April%2027%2
02020_
FINAL.pdf)
    \5\ EPA 2012. The importance of Water to the US Economy, Part 1: 
Background Report. Office of Water, US Environmental Protection Agency. 
September 2012.
---------------------------------------------------------------------------

IMPACTS OF COVID-19 ON WASTEWATER INFRASTRUCTURE INDUSTRY

    As a result of the pandemic, many households and 
communities across the nation are under financial strain. 
Accordingly, wastewater utilities are facing a decrease in 
revenue. The National Association of Clean Water Agencies 
(NACWA) estimates that the resulting financial impact on 
wastewater utilities will be around $16.8 billion, including a 
20 percent drop in sewer revenues.\6\ These challenges are on 
top of existing long-term insufficient investment in the 
Nation's water infrastructure.
---------------------------------------------------------------------------
    \6\ National Association of Clean Water Agencies (NACWA), 
Recovering from Coronavirus (NACWA), https://www.nacwa.org/docs/
default-source/resources---public/water-sector-covid-19-
financial-impacts.pdf?sfvrsn=98f9ff61_2.
---------------------------------------------------------------------------
    To help address these challenges, Congress included $638 
million in the Consolidated Appropriations Act of 2021 (P. L. 
116-260) for the Department of Health and Human Services 
(Administration for Children and Families--Children and 
Families Services Programs) to prevent, prepare for, and 
respond to coronavirus, and for necessary expenses for grants 
to carry out a low-income household drinking water and 
wastewater emergency assistance program.\7\
---------------------------------------------------------------------------
    \7\ The appropriation for this low-income household grants 
provision in the Consolidated Appropriations Act of 2021 went to the 
Department of Health and Human Services, and therefore is not under the 
jurisdiction of the House Committee on Transportation and 
Infrastructure. However, the provision is expected to benefit municipal 
wastewater utilities, which are under the Transportation and 
Infrastructure Committee's jurisdiction, by helping utilities make up 
some of the sewer revenues they have lost.
---------------------------------------------------------------------------

WASTEWATER INFRASTRUCTURE NEEDS OF TRIBAL COMMUNITIES

    While the majority of people living in the United States 
have access to high-quality drinking water and wastewater 
services, more than two million do not have access to adequate 
drinking water and sanitation.\8\ A report from the U.S. Water 
Alliance and Dig Deep found that Native Americans are 19 times 
more likely than white households to lack indoor plumbing.\9\ 
According to the Indian Health Service, in fiscal year (FY) 
2018, the agency-identified sanitation deficiencies included 
1,837 projects with a total estimated cost of $2.78 
billion.\10\
---------------------------------------------------------------------------
    \8\ US Water Alliance and DigDeep, Closing the Water Access Gap: A 
National Briefing Paper (DigDeep Right to Water Project and US Water 
Alliance, 2019), http://uswateralliance.org/sites/
uswateralliance.org/files/publications/
Closing%20the%20Water%20Access%20Gap%20in%20the
%20United%20States_DIGITAL.pdf.
    \9\ Id.
    \10\ Annual Report to Congress of the United States on Sanitation 
Deficiency Levels for Indian Homes and Communities. Fiscal Year 2018. 
Indian Health Service Office of Environmental Health and Engineering 
Division of Sanitation Facilities Construction.
---------------------------------------------------------------------------
    The Clean Water Indian Set-Aside (CWISA) program was 
established by the 1987 Amendments to the Clean Water Act (P.L. 
100-4) to provide funding for wastewater infrastructure to 
American Indian Tribes and Alaska Native Villages. CWISA funds 
may be used for planning, design, and construction of 
wastewater collection and treatment systems. The EPA 
administers CWISA in cooperation with the Indian Health Service 
Sanitation Facilities Construction program.
    Section 518(c)(2) of the Clean Water Act authorizes between 
0.5 and 2 percent of the overall appropriations for the Clean 
Water State Revolving Fund (Clean Water SRF) for the CWISA 
program. Since FY 2016, Congress has appropriated either two 
percent of the Clean Water SRF or $30 million, whichever is 
greater, for the CWISA program.

CLEAN WATER ACT AFFORDABILITY

    Communities and governments at all levels face growing 
challenges in effectively managing the water resources 
necessary to support growing and shifting populations, thriving 
residential, commercial, industrial, and agricultural sectors, 
and healthy and productive natural environments. Many local 
governments also face complex affordability challenges--with 
some communities addressing shrinking rate bases, while others 
with growing populations facing increasing segments of their 
rate base that are unable to afford the rising costs of clean 
water. In short, local infrastructure needs can 
disproportionately impact those communities across the country 
least able to afford necessary repairs, replacements, and 
upgrades. Nationwide, water utilities and communities of all 
sizes seek to ensure clean, safe, accessible, and affordable 
water, all the while dealing with the challenges of extreme 
weather events and mounting concerns regarding water quality 
and quantity.
    In 2017, the National Academy of Public Administration 
issued a report that examined the challenges local communities 
face in providing clean, safe, and affordable water and 
wastewater services.\11\ This report concluded that the 
governmental responsibility to assure clean water that is also 
affordable to both communities and individuals has become an 
increasing challenge.\12\
---------------------------------------------------------------------------
    \11\ National Academy of Public Administration. Developing a New 
Framework for Community Affordability of Clean Water Services. October 
2017. https://www.napawash.org/studies/academy-
studies/developing-a-new-framework-for-community-affordability-of-
clean-water-servi.
    \12\ Id.
---------------------------------------------------------------------------
    First, the report recognized that water infrastructure in 
the United States is aging, imposing additional costs on 
communities to both upgrade and maintain deteriorating 
infrastructure from deferred maintenance.\13\ Second, the 
report recognized the costs to communities to come into 
compliance with the Clean Water Act as an additional factor, 
and highlighted the importance of more cost-effective and 
innovative solutions, such as increased use of green-
infrastructure approaches, stormwater recapture and reuse, and 
integrated planning, to address these challenges.\14\ Finally, 
the report highlighted how affordability is an especially 
critical issue for low-income customers throughout the United 
States, noting that, while average annual expenditures for 
water are generally low relative to other utilities, they 
represent a higher share of income for those with the lowest 20 
percent of income.\15\
---------------------------------------------------------------------------
    \13\ Id.
    \14\ Id.
    \15\ Id.
---------------------------------------------------------------------------
    In the 115th Congress, Congress approved two bills to 
address some of the challenges highlighted in the NAPA report. 
First, Congress approved the America's Water Infrastructure Act 
of 2018 (P. L. 115-270), which, among other things, expanded 
the eligibility for Clean Water Act grants to address sewer 
overflows and to capture, treat, and reuse wastewater and 
stormwater runoff. In addition, Congress passed the Water 
Infrastructure Improvement Act (P. L. 115-436), which codified 
the ``integrated planning'' concept that helps communities by 
providing them greater flexibility in meeting their 
requirements under the Clean Water Act while maintaining their 
obligation to achieve improvements in local water quality, as 
well as incorporating the use of green infrastructure 
approaches into the permitting and enforcement provisions of 
the Clean Water Act.
    In addition, several bills to address wastewater 
affordability concerns have been proposed and debated in the 
115th and 116th Congresses. One approach would amend the Clean 
Water Act to address the issue of water affordability at the 
household level by providing Federal assistance directly to 
utilities who would then apply those resources to cover the 
individual household costs for water and wastewater service 
rates.\16\ This is similar to the approach taken in the 
Consolidated Appropriations Act of 2021 (P. L. 116-260) to 
address water and wastewater rate assistance in response to the 
COVID-19 outbreak. A second approach, such as that included in 
H.R. 1497 (as reported) and H.R. 2 (as passed the House) from 
the 116th Congress, would utilize existing Clean Water Act 
infrastructure investment authorities, such as the Clean Water 
SRF (title VI of the Clean Water Act), the Sewer Overflow and 
Stormwater Reuse Municipal Grants program (section 221 of the 
Clean Water Act), and other grant programs to provide 
communities with a greater share of Federal financial 
assistance in the form of a grant rather than a traditional 
Clean Water SRF loan.
---------------------------------------------------------------------------
    \16\ H.R. 2328, the Low-Income Sewer and Water Assistance Program 
Act of 2017 (115th Congress); H.R. 4832, the Low-Income Sewer and Water 
Customer Assistance Program Act of 2019 (116th Congress).
---------------------------------------------------------------------------

FEDERAL CLEAN WATER INVESTMENT: CLEAN WATER STATE REVOLVING FUND

    For close to 80 years, Congress has provided Federal funds 
to municipalities to address local water quality challenges, 
including sewage treatment needs. Initially, this assistance 
was provided as direct grants to municipalities (covering 55 to 
75 percent of the total costs of the projects). However, in 
1987, Congress converted the direct grant program to a Clean 
Water SRF authority that provides funding directly to States 
which, in-turn, provide below-market rate loans to communities 
to finance local wastewater infrastructure needs (required to 
be fully repaid over a 30-year term).
    The authorization of appropriations for the Clean Water SRF 
expired after 1994. Yet, Congress continues to fund this 
critical investment in our Nation's wastewater infrastructure 
through annual appropriations bills--providing more than $46 
billion in Federal capitalization assistance to States since 
1987--including an appropriation of $1.638 billion for the 
Clean Water SRF in the Consolidated Appropriations Act of 2021. 
In turn, according to the EPA this infusion of Federal capital 
to State revolving funds has leveraged over $138 billion in 
direct assistance to communities over this period.\17\
---------------------------------------------------------------------------
    \17\ https://www.epa.gov/newsreleases/epa-highlights-increased-
investment-water-infrastructure-
through-state-revolving-funds
---------------------------------------------------------------------------
    In 2014, Congress enacted amendments to the Clean Water Act 
which authorized States that provide assistance to communities 
under the Clean Water SRF program, to provide additional 
subsidization, including forgiveness of principal and negative 
interest loans to benefit a municipality that meets the 
affordability criteria of the State; or that seeks additional 
subsidization to benefit individual ratepayers in the 
municipality's residential user rate class that will experience 
a significant hardship from the increase in rates necessary to 
finance the project or activity for which assistance is 
sought.\18\ In addition, in recent years, the annual 
appropriations bill for the EPA has included additional 
provisions to require States to use a portion of Clean Water 
SRF funding to provide communities with ``additional subsidy to 
eligible recipients in the form of forgiveness of principal, 
negative interest loans, or grants'' as well as to reserve an 
additional portion of Clean Water SRF funding for ``projects to 
address green infrastructure, water or energy efficiency 
improvements, or other environmentally innovative activities.'' 
\19\
---------------------------------------------------------------------------
    \18\ Section 5003 of Pub. L. 113-121.
    \19\ The Consolidated Appropriations Act of 2021 requires States to 
utilize 10 percent of their Clean Water SRF capitalization grant for 
this subsidy/grant component, and 10 percent of their capitalization 
grant for green infrastructure and water and energy efficiency 
projects.
---------------------------------------------------------------------------
    In the 116th Congress, the Committee on Transportation and 
Infrastructure approved H.R. 1497, the Water Quality Protection 
and Job Creation Act of 2019, by voice vote, and similar 
legislation was approved by the House as part of H.R. 2, the 
Moving Forward Act. This legislation would have reauthorized 
and increased the authorized level of Federal appropriations 
for the Clean Water SRF program at levels more commensurate 
with local water infrastructure needs, as well as reauthorized 
several existing Clean Water Act grant authorities. In 
addition, this legislation would have extended the existing 
green infrastructure reserve,\20\ established set-asides of 
Federal resources for rural and small communities, codified 
set-asides for Indian Tribes and U.S. Territories, and included 
several provisions to address the cost of wastewater service to 
low-income customers and households. H.R. 1497 would also have 
made changes to the Clean Water Act regulatory program to allow 
National Pollutant Discharge Elimination System (NPDES) permits 
for certain municipalities of up to 10 years, as well as 
established a process to prevent States from 
``administratively'' extending permits beyond their 
statutorily-defined duration (typically five years) without 
review and updating. These regulatory provisions were not 
included in H.R. 2. No further action was taken on these 
proposals in the 116th Congress.
---------------------------------------------------------------------------
    \20\ This provision requires States, to the extent that there are 
sufficient projects or activities eligible for assistance, to utilize 
not less than 15 percent of their Clean Water SRF capitalization grant 
for projects to address green infrastructure, water or energy 
efficiency improvements, or other environmentally innovative 
activities.
---------------------------------------------------------------------------

                               WITNESSES

    <bullet> LDavid J. Berger, Mayor, City of Lima, Ohio, on 
behalf of the U.S. Conference of Mayors
    <bullet> LBill Sterud, Chairman, Puyallup Tribal Council, 
Tacoma, Washington
    <bullet> LOJ McFoy, General Manager, Buffalo Sewer 
Authority, on behalf of the National Association of Clean Water 
Agencies
    <bullet> LTom Teske, Vice President and General Manager, EJ 
Americas, East Jordan, Michigan
    <bullet> LBrenda Coley, Co-Executive Director, Milwaukee 
Water Commons, Milwaukee, Wisconsin
    <bullet> LDavid Mallino, Legislative and Political 
Director, Laborers' International Union of North America


   BUILDING BACK BETTER: THE URGENT NEED FOR INVESTMENT IN AMERICA'S 
                       WASTEWATER INFRASTRUCTURE

                              ----------                              


                       TUESDAY, FEBRUARY 23, 2021

             U.S. House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:01 a.m., in 
room 2167 Rayburn House Office Building and via Cisco Webex, 
Hon. Grace F. Napolitano (Chair of the subcommittee) presiding.
    Present in person: Representatives Garamendi, Carbajal, 
Stanton, Rouzer, Babin, Mast, and Mace.
    Present remotely: Representatives Napolitano, DeFazio, 
Huffman, Johnson of Texas, Lowenthal, Malinowski, Pappas, 
Bourdeaux, Wilson of Florida, Delegate Norton, Webster, Katko, 
Weber, and Resident Commissioner Gonzalez-Colon.
    Mrs. Napolitano. Welcome to the first hearing of the 
Subcommittee on Water Resources and Environment for the 117th 
Congress. I call this hearing to order and ask unanimous 
consent that the chair be authorized to declare a recess at any 
time during today's hearing. And without objection, so ordered.
    [Audio lost briefly.]
    Mrs. Napolitano. Today's hearing focuses on the tremendous 
clean water infrastructure needs facing our country, and on the 
challenges facing both our communities--large and small, urban, 
rural and Tribal--as well as our American families, in 
addressing these needs. It is a privilege to serve as the 
chairwoman of this subcommittee. I am pleased to be joined by 
my colleague and ranking member, Congressman Rouzer from 
Wilmington, North Carolina. We had a great meeting a few weeks 
ago, and I look forward to working with him.
    I also welcome the new Members to the subcommittee: Carolyn 
Bourdeaux of Georgia; Eleanor Holmes Norton from the District 
of Columbia; Greg Stanton of Arizona; Steve Cohen of Tennessee; 
John Katko, my friend and cochair of the Mental Health Caucus 
of New York; and Nancy Mace of South Carolina.
    The subcommittee will have a busy agenda in the 117th 
Congress, and I pledge to continue the longstanding tradition 
of this subcommittee to work in a bipartisan fashion trying to 
address the priorities of all Members, and being respectful 
when we disagree.
    We have an ambitious but achievable agenda this Congress. 
We will hold hearings on WRDA 2020 implementation and lay the 
groundwork for the enactment of the new WRDA bill in 2022. We 
will want to hear from stakeholders about the implementation of 
Congress' changes to the Harbor Maintenance Trust Fund. We will 
look at ways to make our communities more resilient and learn 
about how we can use natural infrastructure, water recycling, 
my favorite subject, and other tools.
    We also plan to look at ways to ensure Tribal communities 
and disadvantaged communities are included in the planning 
process for all water infrastructure projects in their 
communities. We will strive to present a water infrastructure 
financing bill that not only reauthorizes the Clean Water State 
Revolving Fund, or the SRF, but also seeks to provide greater 
assistance to rural and Tribal communities, to address the 
affordability challenges facing all our communities, and to 
encourage innovative energy efficiency and green infrastructure 
projects.
    Last Congress, the House passed H.R. 2 that would have 
reauthorized the SRF. It would also have addressed a number of 
the issues we will be discussing today, including the need to 
help rural and Tribal communities, and the need to invest in 
water reuse and recycling projects. The SRF did not pass the 
Senate last year, but we will try again soon.
    Finally, we will renew our constitutional obligation to 
exercise congressional oversight over implementation of the 
laws within our subcommittee's jurisdiction.
    And before we begin, a few reminders, since we are 
participating remotely. As chair of today's hearing, I will 
make a good-faith effort to provide every Member experiencing 
connectivity issues an opportunity to fully participate in the 
proceedings. If a Member is experiencing any connectivity 
issues or other technical problems, please inform committee 
staff as soon as possible so you can receive assistance. A chat 
function is available for Members on the Cisco Webex platform 
for this purpose, and they can also call the committee's main 
phone line at (202) 225-4472--again, (202) 225-4472--for 
technical assistance by phone.
    And finally, to insert a document into the record, please 
have your staff email it to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0a4e65697f676f647e795e2c434a676b63662462657f796f246d657c24">[email&#160;protected]</a>
    Now for my opening statement on the topic of this hearing.
    Today, our Nation's network of sewers, stormwater 
conveyances, and treatment facilities is aging, often outdated, 
and in many places, not meeting the needs of our communities or 
water quality standards. The American Society of Civil 
Engineers gave America's wastewater infrastructure a grade of 
D-plus--D-plus--in its 2017 Infrastructure Report Card. A new 
ASCE Report Card is expected soon, but we expect another poor, 
low grade.
    According to the EPA, communities report a need of $271 
billion of investment over the next 20 years to bring their 
wastewater treatment systems up to date in a state of good 
repair. The need for sanitation infrastructure on Tribal lands 
totals $2.78 billion. Yet these statistics only tell half the 
story.
    As noted by our witnesses here today, many communities also 
face the challenge of ensuring that water and sewer utilities 
remain affordable to those living in their community. As 
communities of all sizes seek to improve the quality, safety, 
and reliability of their water utilities, we must give them a 
voice as they often struggle to also address the challenges of 
declining rate bases, lower income households, and other 
competing local needs. All of these factors compel us to find 
ways to make water quality improvements more affordable to all 
our communities.
    Congress has already taken significant steps to help meet 
this challenge. Through enactment of integrated planning 
legislation and the promotion of nature-based or green 
infrastructure alternatives to addressing local water quality 
challenges, we have provided tools to all communities to 
develop more cost-effective, long-term plans to meeting local 
water challenges.
    Getting the message directly to those involved is also a 
challenge. However, more needs to be done. We have to find ways 
to make sure the cost of Federal financing is affordable to all 
communities and get them to the table to access this financing.
    One significant step that is long overdue is to reauthorize 
the Clean Water State Revolving Fund, SRF, a goal that has 
eluded this Congress for almost 30 years. As witnesses note, 
this program is universally important to providing affordable 
financing to urban and rural communities alike, and its 
successes are typically limited only by a lack of available 
funding sources. We are planning to soon reintroduce the Water 
Quality Protection and Job Creation Act to reauthorize the 
Clean Water SRF, and I urge all our Members to support this 
effort to address local water quality challenges.
    However, for those communities where a State Revolving Fund 
is still not enough to address local affordability needs, we 
need to ensure other tools are available. We need to fund 
targeted clean water grants, such as those authorized for 
combined and sanitary sewer overflows, and stormwater capture 
and reuse in the 2018 Water Resources Development Act.
    Rural communities face a unique set of challenges. They 
tend to be small and do not have a rate base large enough to 
shoulder expensive, major infrastructure projects while 
maintaining affordable rates. Often, rural communities do not 
have the technical expertise necessary to design wastewater 
projects or to even complete the technical documents necessary 
to apply for funding.
    In addition, rural communities may have to apply to 
multiple State or Federal programs to obtain the assistance 
they need, and the duplicative application requirements can 
make it costly and time consuming to complete. I urge all of 
our Members to pay very close attention. Listen to the stories 
and reflect on the real challenges all our American families 
face every day in obtaining safe and affordable water and 
wastewater services.
    [Mrs. Napolitano's prepared statement follows:]

                                 <F-dash>

  Prepared Statement of Hon. Grace F. Napolitano, a Representative in 
Congress from the State of California, and Chair, Subcommittee on Water 
                       Resources and Environment

    Today, our nation's network of sewers, stormwater conveyances, and 
treatment facilities is aging, often outdated, and, in many places, not 
meeting the needs of our communities or water quality standards.
    The American Society of Civil Engineers recently gave America's 
wastewater infrastructure a grade of a D+ in its 2017 Infrastructure 
Report Card. According to the Environmental Protection Agency, 
communities report a need of $271 billion of investment over the next 
20 years to bring their wastewater treatment systems to a state of good 
repair. The need for sanitation infrastructure on tribal lands totals 
$2.78 billion.
    Yet, these statistics only tell half the story.
    As noted by our witnesses here today, many communities also face 
the challenge of ensuring that water and sewer utilities remain 
affordable to those living in the community.
    As communities of all sizes seek to continuously improve the 
quality, safety, and reliability of their water utilities, we must give 
them a voice as they often struggle to also address challenges of 
declining rate bases, lower-income households, and other competing 
local needs.
    All of these factors compel us to find ways to make water quality 
improvements more affordable to all our communities.
    Congress has already taken significant steps to help meet this 
challenge. Through enactment of integrated planning legislation and the 
promotion of nature-based or green infrastructure alternatives to 
addressing local water quality challenges, we have provided tools to 
all communities to develop more cost-effective, long-term plans to 
meeting local water quality challenges. Getting the message directly to 
those involved is also a challenge.
    However, more needs to be done.
    We have to find ways to make sure the cost of Federal financing is 
affordable to all of our communities and get them to the table to 
access this financing.
    One significant step that is long overdue is to reauthorize the 
Clean Water State Revolving Fund--a goal that has eluded this Congress 
for almost 30 years.
    As witnesses note, this program is universally important to 
providing affordable financing to urban and rural communities alike, 
and its successes are typically limited only by a lack of available 
funding resources.
    We are planning to soon re-introduce the Water Quality Protection 
and Job Creation Act to reauthorize the Clean Water SRF, and I urge all 
our members to support this effort to address local water quality 
challenges.
    However, for those communities where a State Revolving Fund loan is 
still not enough to address local affordability needs, we need to 
ensure other tools are available. We need to fund targeted clean water 
grants, such as those authorized for combined, and, sanitary sewer 
overflows and stormwater capture, and reuse in the 2018 Water Resources 
Development Act.
    Rural communities face a unique set of challenges. They tend to be 
small and do not have a rate base large enough to shoulder expensive, 
major infrastructure projects while maintaining affordable rates. 
Often, rural communities do not have the technical expertise necessary 
to design wastewater projects or even to complete the technical 
documents necessary to apply for funding.
    In addition, rural communities may have to apply to multiple state 
or federal programs to obtain the assistance they need, and the 
duplicative application requirements can make it costly and time 
consuming to complete the application process. Last Congress, one of 
our witnesses told us about the unique challenges her rural community 
in Lowndes, Alabama faced--and still face today. We need to look at new 
and innovative ways to make progress on addressing the needs of our 
rural communities.
    We also need explore whether the Federal government can play a 
long-term role in helping subsidize the cost of clean water for 
households in poverty, as we do today for household heating and cooling 
costs through the Low Income Home Energy Assistance Program, or LIHEAP. 
In the COVID relief package passed at the end of last Congress, we 
included $638 million in ratepayer assistance funds for families 
struggling to pay their water bills. We should look at whether or not 
this program should be continued on a permanent basis.
    In addition, we should look at how we can improve upon existing 
water reuse and recycling programs to help those communities where 
water is a sparse commodity.
    Before us, we have a distinguished panel of witnesses that can talk 
about real-world examples of where our network of clean water 
infrastructure works, where it does not, and where we can do better.
    I urge all of our members to pay attention, listen to their stories 
and to reflect on the real challenges American families face, every 
day, in obtaining clean, safe, and affordable water and wastewater 
services.

    Mrs. Napolitano. At this time, I am pleased to yield to my 
colleague, the ranking member of the subcommittee, Mr. Rouzer, 
for any thoughts he may have. Mr. Rouzer?
    Mr. Rouzer. Thank you, Madam Chair. And I, too, enjoyed our 
visit the other week, enjoyed it a great deal, in fact.
    I want to thank our witnesses for participating in this 
hearing today. I am happy we have such a diverse panel so that 
we can gain your perspectives on the issues facing local 
communities in addressing the Nation's water and wastewater 
infrastructure needs.
    These needs, as we all know, are substantial and they 
continue to grow. In many communities, water and wastewater 
infrastructure is long past its design life and in need of 
urgent repair, replacement, and upgrading. As a result, leaks 
and blockages are all too common across the Nation and 
represent a massive waste of a vital and sometimes scarce 
resource.
    Additionally, the needs are especially urgent for hundreds 
of communities trying to remedy the problem of combined sewer 
overflows, CSOs, and sanitary sewer overflows, also known as 
SSOs. Shrinking municipal budgets, insufficient independent 
financing capabilities, and increasingly burdensome regulations 
without the necessary Federal support have strained 
communities' efforts to address these critical needs.
    This is especially the case for many of our small and rural 
communities that many of us all around the country represent. 
According to EPA, the total documented needs for sustainable 
water infrastructure, CSO and SSO correction, and stormwater 
management across our great country total at least $270 billion 
over the course of the next 20 years. The needs for drinking 
water infrastructure drive this figure to more than $600 
billion--and these are considered fairly conservative 
estimates. In my home State of North Carolina alone, $11 
billion will be needed for clean water needs such as wastewater 
treatment systems and sanitary sewers over the next 20 years.
    So with talk of a major infrastructure package, today we 
need to ask the not-so-simple questions: What funding level is 
both appropriate and realistic? And how are we going to pay for 
it? Talk of authorizing enormous dollar amounts is not going to 
address these needs since unrealistically high dollar numbers 
that will never get funded create a false hope and ultimately 
solve nothing.
    I believe it is going to take an all-hands-on-deck approach 
to reverse the decline of our Nation's water infrastructure. 
Federal, State, and local investment will be necessary, but 
cannot be relied upon to solve all of the problems. Instead, we 
need to move away from business as usual and utilize every tool 
available. This means searching for new sources of funding, 
increasing collaboration between the public and private 
sectors, and improving how Federal regulations are implemented, 
or deciding that they are not needed at all.
    We need smarter asset management, increased efficiencies in 
our water systems, and to achieve that, we need to incentivize 
the adoption of new and innovative technologies that will cut 
costs and improve water quality. In addition, communities, 
particularly those that are struggling to address their needs 
and reduce the financial burdens on households, need to be 
giving greater regulatory flexibility, including through the 
implementation of a vibrant integrated planning and permitting 
approach in addressing the compliance mandates that have been 
imposed upon them.
    It has been 10 years since EPA developed its first guidance 
for implementing integrated planning, but the agency has been 
slow to work with States and communities to develop the most 
effective and cost-efficient approaches for meeting clean water 
objectives. Two years ago, legislation that codified EPA's 
integrated planning initiative was enacted. EPA now needs to 
work with the States and effectively implement the initiative 
to help communities meet their needs in a more cost-efficient 
manner.
    We need to carefully prioritize our investments in water 
infrastructure to ensure that we are adequately protecting the 
public health, promoting the economic growth of our 
communities, and preventing the degradation of the environment.
    I look forward to hearing the thoughts from our witnesses 
today on these very important and pressing issues. Madam Chair, 
I yield back.
    [Mr. Rouzer's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. David Rouzer, a Representative in Congress 
 from the State of North Carolina, and Ranking Member, Subcommittee on 
                    Water Resources and Environment
    Thank you, Chair Napolitano, and thank you to our witnesses for 
participating in this hearing today. I'm happy we have such a diverse 
panel here so that we can gain your perspectives on the issues facing 
local communities in addressing the Nation's water and wastewater 
infrastructure needs. These needs are substantial, and they continue to 
grow.
    In many communities, water and wastewater infrastructure is long 
past its design life and in need of urgent repair, replacement, and 
upgrading. As a result, leaks and blockages are all too common across 
the Nation and represent a massive waste of a vital, and sometimes 
scarce, resource.
    Additionally, the needs are especially urgent for hundreds of 
communities trying to remedy the problem of combined sewer overflows 
(or CSOs) and sanitary sewer overflows (or SSOs). Shrinking municipal 
budgets, insufficient independent financing capabilities, and 
increasingly burdensome regulations without the necessary Federal 
support have strained communities' efforts to address these critical 
needs. This is especially the case for many of our small and rural 
communities.
    According to EPA, the total documented needs for sustainable 
wastewater infrastructure, CSO and SSO correction, and stormwater 
management in our Nation are at least $270 billion over the next 20 
years. The needs for drinking water infrastructure drive this figure to 
more than $600 billion--and these are considered conservative 
estimates.
    In North Carolina alone, $11 billion will be needed for clean water 
needs such as wastewater treatment systems and sanitary sewers over the 
next 20 years.
    So with talk of a major infrastructure package, today we need to 
ask the not-so-simple questions: What funding level is both appropriate 
and realistic? And how are we going to pay for it?
    Talking about authorizing enormous dollar amounts is not going to 
address these needs, since unrealistically high dollar numbers that 
will never get funded create a false hope and solve nothing. I believe 
it is going to take an all-hands-on-deck approach to reverse the 
decline of our Nation's water infrastructure.
    Federal, state, and local investment will be necessary, but cannot 
be relied upon to solve all our problems.
    Instead, we need to move away from ``business as usual'' and 
utilize every tool available.
    This means searching for new sources of funding, increasing 
collaboration between the public and private sectors, and improving how 
Federal regulations are implemented.
    We need smarter asset management and increased efficiencies in our 
water systems, and to achieve that, we need to incentivize the adoption 
of new and innovative technologies that will cut costs and improve 
water quality.
    In addition, communities--particularly those that are struggling to 
address their needs and reduce the financial burdens on households--
need to be given greater regulatory flexibility, including through the 
implementation of a vibrant integrated planning and permitting 
approach, in addressing the compliance mandates that have been imposed 
on them.
    It's been ten years since EPA developed its first guidance for 
implementing integrated planning, but EPA has been slow to work with 
states and communities to develop the most effective and cost-efficient 
approaches for meeting clean water objectives. Two years ago, 
legislation that codified EPA's integrated planning initiative was 
enacted. EPA now needs to work with the states and effectively 
implement the initiative to help communities meet their needs in a more 
cost-efficient manner.
    We need to carefully prioritize our investments in water 
infrastructure to ensure that we are adequately protecting the public 
health, promoting the economic growth of our communities, and 
preventing the degradation of the environment.
    I look forward to hearing the thoughts from our witnesses today on 
these issues.

    Mrs. Napolitano. Thank you, Mr. Rouzer.
    Mr. DeFazio, you are recognized.
    Mr. DeFazio. Thank you, Madam Chair. And thanks to the 
ranking member for his thoughts.
    We are setting a very ambitious number, or want to, for the 
SRF reauthorization. The estimates by the National Utility 
Contractors Association is $1 billion invested creates 28,000 
good-paying jobs.
    There has been a lot of carrying on about the President 
canceling the XL pipeline. Well, that would have created, one 
time, 10,000 jobs, but would have also destroyed the boreal 
forests of Canada, dramatically accelerated climate change with 
the dirtiest fuel possible, et cetera. How about we do 
something that actually helps the environment and makes this a 
healthier country to live in? Let's invest in our wastewater 
infrastructure.
    It is a realistic number. We can get there very easily. For 
instance, my transaction tax to drive out the parasite 
speculators on Wall Street who front-run the market with 
supercomputers would raise $77 billion a year. Now, is it 
better to let them become billionaires, providing a useless 
product and driving up stock prices for everybody else? Or 
would it be better to say, hey, let's rebuild the Nation's 
wastewater infrastructure. Wow, and if we invested $5 billion a 
year, that would be 140,000 jobs a year, good jobs, Davis-Bacon 
jobs, jobs that provide for a very good living wage and also 
for benefits like healthcare and other things.
    We have new challenges. As has been noted both by the chair 
and the ranking member, systems are aging out. They are being 
overwhelmed by population growth. They are being overwhelmed by 
severe weather events due to climate change. These are real 
problems, and we have to get ahead of this. We have to plan for 
the future.
    Systems go underwater in hurricanes; that has happened in 
the ranking member's district and in other districts around the 
country. I have a system in my district that is at a very 
severe risk of flooding and contaminating two very large lakes. 
And also I have a beach area in Oregon, Sunset Bay, which is 
one of the most polluted beaches in the country because of the 
combined sewer overflows.
    We cannot afford not to make these investments, and we 
cannot put all of the burden on the cities and counties and the 
individual ratepayers to do this. We need to spread that a 
little more widely because water does not observe State 
boundaries, city lines, State lines, county lines, or anything. 
This is an investment for all Americans. We did this 50 years 
ago and we cannot do it now? That is just extraordinary to me. 
How puny do you think we have become? We are better than that.
    We can meet these challenges today. When I was a county 
commissioner, we had a 75-percent Federal match to build our 
system. And we have since continually upgraded it. The 
population of the area has tripled. And we have still got 
capacity in that system.
    So these investments will yield huge benefits--economic 
benefits, returns to cities, counties, States, and the Federal 
Government in terms of taxes and economic activity, with good, 
safe growth that does not jeopardize the environment.
    So I am going to push for a very ambitious number, and then 
we are going to find ways to pay for it. We are not going to be 
puny and say, sorry, we cannot help you. At the current level 
of investment, it would take 171 years to bring the existing 
systems up to a state of good repair, and that does not even 
include areas that do not have systems, like Tribal Territories 
and others. So that is not acceptable. And I believe this 
administration, as part of their package, will adopt very 
ambitious goals in their infrastructure bill.
    And then the one other thing that I want to add into this 
is, as much as possible, we want to use natural systems. I have 
something called the--oh, I have got to remember it--but it 
made the list that McCain used to put out because it was 
supposedly--oh, Falling Waters, because--they actually use a 
very large natural area to do their tertiary treatment, and it 
is actually a pleasant park area because it is tertiary 
treatment.
    And so we want to look at incorporating natural systems 
wherever we can. And we also want to incentivize the wastewater 
districts to capture their methane, 26 times as potent as CO2 
in causing climate change. We can. And I was inspired by 
testimony 2 years ago from a sewer district in New Jersey that 
rebuilt their system, captured their methane, generated their 
own electricity, and sold electricity onto the grid, had a new 
system, and did not have to substantially raise their rates, 
and helped the environment.
    So there are better ways to do this, innovative and 
interesting ways to do this, using 21st-century technology. And 
I look forward to hearing from the witnesses today about their 
ideas on how we can accomplish these goals. Thank you, Madam 
Chair.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Thank you, Madam Chairwoman, and congratulations on holding the 
first hearing of the Subcommittee on Water Resources and Environment 
for the 117th Congress.
    Today's hearing will highlight the tremendous infrastructure needs 
facing this nation, as well as the consequences to everyday Americans 
from Congress's failure to invest in our water-related infrastructure 
systems.
    As I have mentioned many times before, in the days before enactment 
of the Clean Water Act, our nation's waters were so polluted that they 
typically were unsafe for swimming, were unable to support life, or 
they literally caught fire.
    Recognizing that we needed to do things differently and that 
pollution does not respect political or state boundaries, Congress 
enacted a comprehensive, national water pollution control program and 
provided states and communities with substantial funding to help 
address local water quality challenges.
    In the years immediately following the Clean Water Act, significant 
progress was made in cleaning up our waters. Yet, in recent years, the 
importance of safe, reliable, and affordable water systems has, again, 
become front page news all across the country.
    Cities, like Flint, Detroit, and Toledo, are now more well-known 
for water contamination than likely any other issue. Just a quick 
internet search for the term ``sewer overflow'' will produce hundreds 
of other American cities--large and small--that are operating in a 21st 
century economy with antiquated, undersized, or crumbling water-related 
infrastructure. Even in my own district, the Sunset Bay State Park near 
Coos Bay was listed as one of America's Dirtiest Beaches because of 
local sewer overflows and stormwater runoff.
    All these stories remind us of what we already should know--that 
our nation's network of water infrastructure is aging, outdated, and in 
desperate need of repair. In addition, our water-related infrastructure 
is woefully inadequate to adapt to a changing climate, and to the 
extreme weather events and coastal storms that have become the norm.
    Numerous studies and reports have documented the poor national 
condition of our water infrastructure and the growing financial gap 
between infrastructure needs and available resources.
    According to the most recent U.S. Environmental Protection Agency 
(EPA) Clean Water Needs Survey, States have documented a need for $271 
billion in investment over the next 20 years--that's almost $14 billion 
needed annually for wastewater infrastructure--and it is likely this 
estimate, which is now almost a decade old, significantly 
underestimates the REAL need.
    And yet, do you know how much the Federal government is ACTUALLY 
investing in wastewater infrastructure annually? About $1.6 billion in 
the fiscal year 2021 appropriations bill.
    At our current rate of federal investment, it will take us almost 
170 years just to address existing wastewater infrastructure needs, and 
that doesn't include investments to address the challenges posed by 
climate change, extreme weather events, and the resilience of our water 
utilities.
    Last Congress, this Committee and the House passed multiple 
proposals to restore the federal commitment to investing in our 
Nation's wastewater infrastructure. H.R. 2, the Moving Forward Act, 
included $40 billion in federal investment in the Clean Water State 
Revolving Fund to help address the $271 billion backlog in clean water 
needs. It also established minimum allocations for rural and small 
communities for water infrastructure investment.
    The legislation attempted to address affordability concerns by 
ensuring a minimum of 10 percent of annual Clean Water SRF funding 
would be in the form of grants or other financial assistance to help 
communities ensure the affordability of wastewater service to 
households that may have difficulty making ends meet.
    H.R. 2 would have boosted resilience and green infrastructure 
investments by requiring states to use a minimum of 15 percent of their 
annual SRF capitalization grants for natural or nature-based approaches 
to addressing local water quality challenges. The legislation 
encouraged the use of technologies that recapture and reuse energy 
produced from the treatment of wastewater, such as methane recapture.
    To address concerns with resiliency of wastewater treatment works, 
the legislation established a new clean water grant authority for 
communities to assess and address vulnerabilities of wastewater 
utilities to manmade or natural disasters.
    The legislation attempted to address the concerns of inequity on 
tribal lands, by establishing a statutory allocation formula for the 
distribution of funds among the states and codified the allocation for 
tribes and the U.S. territories.
    H.R. 2 also would have helped prevent the discharge of industrial 
chemicals and put $1 billion in new Federal assistance towards helping 
communities address ongoing contamination of waterways by 
polyfluoroalkyl substances (PFAS) or ``forever chemicals.''
    Clean, safe, and reliable water is a basic human right and we 
should all fight against efforts to weaken those protections.
    Communities throughout the country are generally trying to do the 
right thing--to ensure clean, safe, and reliable water services to 
their citizens.
    However, Congress must do its part as well to ensure that we meet 
the Clean Water Act's ``fishable and swimmable'' goals established 
almost 50 years ago and do so in a manner that is affordable for all 
hard-working American families.
    Thank you, Madam Chairwoman.

    Mrs. Napolitano. Thank you, Mr. DeFazio.
    And now I would like to yield some time to the ranking 
member of the committee, Mr. Graves, if he is available. Mr. 
Graves?
    [No response.]
    Mrs. Napolitano. I guess he is not there yet. So I will go 
on to the next item. Before we proceed, I ask unanimous consent 
to insert into the record the following statements: a statement 
from committee member Representative Strickland; a statement by 
the NAACP Legal Defense and Educational Fund; a statement by 
the National Utility Contractors Association; a statement by 
the Clean Water for All Coalition; a statement by the Ohio 
Environmental Council; a statement by the WateReuse 
Association; and a statement by the American Society of Civil 
Engineers.
    Without objection, it is so ordered.
    [The identified statements follow:]

                                 <F-dash>
Statement of Hon. Marilyn Strickland, a Representative in Congress from 
the State of Washington, in Support of the Testimony of Puyallup Tribe 
    Chairman Bill Sterud, Submitted for the Record by Hon. Grace F. 
                               Napolitano
    Distinguished members of the subcommittee--it is an honor to have 
the opportunity to discuss these important issues. First and foremost, 
I extend my sincere thanks to Chairwoman Napolitano and Chairman 
DeFazio for working with my office to extend an invitation to the 
Puyallup Tribe to testify at today's hearing.
    Any conversation on wastewater infrastructure and the dire need for 
investment must include Tribal voices at the table. Chairwoman 
Napolitano and Chairman DeFazio understand that fundamental truth, and 
I am heartened that the Puget Sound, Washington's 10th Congressional 
District, and the needs of the Puyallup Tribe are well-represented 
through the testimony of Chairman Bill Sterud. I thank him for his 
participation and leadership.
    As reflected in Chairman Sterud's testimony, it is clear that the 
Congress must renew our investment in the Clean Water State Revolving 
Fund (SRF), a key tool for our Tribes and communities. The 
Environmental Protection Agency projected that at least $271 billion in 
investment over 20 years is required to sufficiently repair our 
wastewater treatment infrastructure.
    I echo Chairman Sterud's testimony in highlighting both the health 
and infrastructure disparities for Tribal communities. The Indian 
Health Service estimates that the current water infrastructure 
sanitation needs for Native American homes and communities is $2.78 
billion. Approximately 30 percent of homes across our nation's Tribes 
require sanitation facility improvements. I stand with the Puyallup 
Tribe and the Chairman in supporting an increase to the Clean Water 
Indian Set-Aside (CWISA) program, because our Tribes' health and 
wellbeing depend on it. I look forward to working with the Chairwoman 
this Congress on this, and other issues to support our water 
infrastructure.
    I want to close by emphasizing that in the wake of a global 
pandemic, our Tribal communities need federal investment now more than 
ever. I am looking forward to working with the distinguished members on 
this committee to ensure that ``building back better'' is not just a 
slogan, but a mandate to improve our communities. Thank you very much 
for your time.

                                 <F-dash>
   Letter of February 19, 2021, from Lisa Cylar Barrett, Director of 
Policy, and Coty Montag, Senior Counsel and TMI Researcher, NAACP Legal 
 Defense and Educational Fund, Inc., Submitted for the Record by Hon. 
                          Grace F. Napolitano
                                                 February 19, 2021.
Hon. Peter A. DeFazio,
Hon. Sam Graves,
U.S. House of Representatives,
Committee on Transportation and Infrastructure, 2165 Rayburn House 
        Office Building, Washington, DC.

Re:  Written Testimony for Hearing Entitled ``Building Back Better: The 
Urgent Need for Investment in America's Wastewater Infrastructure''

    Dear Chairman DeFazio and Ranking Member Graves:
    The NAACP Legal Defense and Educational Fund, Inc. (LDF) 
appreciates the opportunity to submit written testimony for the 
February 23, 2021 hearing that will be held by the United States House 
of Representatives' Subcommittee on Water Resources and Environment, 
entitled ``Building Back Better: The Urgent Need for Investment in 
America's Wastewater Infrastructure.'' The price of water and 
wastewater has greatly increased in recent decades, and scores of 
communities across the nation that cannot afford to pay drastically 
higher rates have been plagued by service shutoffs and lien sales, 
leading to home foreclosures and evictions. These practices have been 
shown to disproportionately impact Black communities. Increased federal 
funding for water and sewer systems targeted to communities that have 
been historically overlooked is essential to combating the nation's 
water affordability crisis, and we urge the Subcommittee to consider 
the demonstrated impact of rising rates on Black communities as you 
evaluate solutions to this crisis.
    LDF was founded in 1940 by Thurgood Marshall.\1\ Throughout our 
history, we have consistently worked to address inequities in the 
provision of water services. In the late 1960s, LDF litigated Hawkins 
v. Shaw, the first lawsuit seeking to redress racial disparities in the 
provision of certain municipal services, including water and sewer 
services, under the 14th Amendment to the U.S. Constitution.\2\ In 
Hawkins, the Fifth Circuit Court of Appeals determined that the town of 
Shaw, Mississippi, violated the constitutional guarantee of equal 
protection by failing to provide the same level of water, sewer, and 
other municipal services in its Black neighborhoods as were provided in 
Shaw's white neighborhoods.\3\ In the years since the Hawkins case was 
litigated, LDF advocated for a moratorium on water shutoffs in Detroit 
\4\ and to an end to the placement of water liens on homes in Flint.\5\
---------------------------------------------------------------------------
    \1\ It has been an entirely separate organization from the NAACP 
since 1957.
    \2\ 303 F. Supp. 1162 (N.D. Miss. 1969).
    \3\ Hawkins v. Shaw, 437 F.2d 1286, 1290 (5th Cir. 1971), aff'd, 
461 F.2d 1171, 1173 (5th Cir. 1972).
    \4\ NAACP Legal Def. & Educ. Fund, Inc., Detroit Water Shutoff 
Crisis, https://www.naacpldf.org/case-issue/detroit-water-shutoff-
crisis/.
    \5\ NAACP Legal Defense Fund & ACLU of Michigan, Moratorium on 
Placement of Liens on Homes for Unpaid Water Bills (May 16, 2017), 
https://www.naacpldf.org/files/about-us/
Letter_to_Flint_City_Council_RE_Moratorium_on_Property_Liens.pdf.
---------------------------------------------------------------------------
    In June 2019, LDF and its Thurgood Marshall Institute (TMI) 
released a report entitled Water/Color: A Study of Race and the Water 
Affordability Crisis in America's Cities.\6\ We have attached a copy of 
our report to submit into the record for your consideration. Our report 
makes an explicit link between race and water affordability and 
explains the current water affordability crisis impacting Black 
communities across the nation.
---------------------------------------------------------------------------
    \6\ Coty Montag, NAACP Legal Def. & Educ. Fund, Inc., Water/Color: 
A Study of Race and the Water Affordability Crisis in America's Cities 
(2019), https://tminstituteldf.org/publications/2383/.
---------------------------------------------------------------------------
    LDF's report begins with a historical overview of the construction 
of urban water systems in the U.S. and the development of water policy 
from the late 18th century to the present, including a discussion of 
Black access (or lack thereof) to water systems and services over time. 
Our report also explains the current water affordability crisis 
impacting Black communities and identifies failing infrastructure as 
the biggest contributor to rising costs. Cities have struggled to 
afford needed infrastructure repairs and have passed rising costs on to 
residents through frequent rate increases. These rising costs have been 
exacerbated by the lack of federal investment in local water and 
wastewater systems, which has been on a steady decline since the late 
1970s.
    To demonstrate the disproportionate impact of rising water bills on 
Black communities, LDF's report includes a review of the affordability 
crises in Baltimore and Cleveland. Our research demonstrates how water 
services are allocated in both metropolitan areas, documents the spike 
in water costs in recent years, and analyzes each jurisdiction's use of 
water liens for unpaid bills. The report concludes by providing a 
framework for potential litigation and policy solutions to challenge 
water lien sales and service shutoffs that have a disproportionate 
impact on Black communities.
    Following the publication of LDF's report, we have advocated for 
increased water infrastructure funding at the federal level and have 
supported local legislation seeking to make water more affordable for 
residents. We have also recently pursued litigation against 
municipalities to end discriminatory and unfair water practices.\7\ 
Additionally, LDF has repeatedly urged federal and state officials to 
enact shutoff moratoriums during the COVID-19 pandemic.\8\
---------------------------------------------------------------------------
    \7\ Complaint, Taylor v. City of Detroit, No. 20-cv-11860 (E.D. 
Mich. July 9, 2020); Complaint, Pickett v. City of Cleveland, No. 19-
cv-2911 (N.D. Ohio Dec. 18, 2019).
    \8\ See, e.g., NAACP Legal Def. & Educ. Fund, Inc., LDF Sends 
Letter to National Governors Association Requesting a Moratorium on 
Foreclosures, Evictions, and Water and Utility Shut Offs (Apr. 3, 
2020), https://www.naacpldf.org/press-release/ldf-sends-letter-to-
national-governors-association-requesting-a-moratorium-on-foreclosures-
evictions-and-water-and-utility-shut-offs/.
---------------------------------------------------------------------------
    Given the demonstrated impact of rising water and wastewater bills 
on Black communities across the nation, it is critical that any 
investment solutions to the nation's water affordability crisis 
consider the racial impact of rising water and sewer bills. We 
appreciate the opportunity to submit this written testimony and welcome 
the opportunity for further discussions with the Subcommittee on this 
important issue.
        Very truly yours,
                    Lisa Cylar Barrett, Director of Policy.
            Coty Montag, Senior Counsel and TMI Researcher.
                     NAACP Legal Defense and Educational Fund, Inc.
cc:  Honorable Grace F. Napolitano
    Honorable David Rouzer

                                 <F-dash>
 Statement of the National Utility Contractors Association, Submitted 
               for the Record by Hon. Grace F. Napolitano
    The National Utility Contractors Association (NUCA) represents 
construction contractors, manufacturers, and distributors who build and 
maintain a wide range of our nation's infrastructure. Member companies 
provide the manpower and equipment needed to build, repair, and 
maintain the infrastructure needed for water and wastewater, gas 
distribution, broadband, electric as well as the nation's surface 
transportation system. NUCA appreciates the opportunity to provide a 
statement for the record as the Subcommittee on Water Resources and 
Environment.
    Our nation's underground water and sewer infrastructure ensures 
that Americans have access to clean drinking water and safe sanitary 
wastewater systems, provides businesses with the resources they need to 
keep our economy moving, and protects our nation's waterways, beaches, 
and a range of recreational opportunities. Taken together, well-
functioning infrastructure is indispensable to the health of our 
country.
    However, as wastewater systems continue to age and are tested by 
extreme weather events, communities face increasing difficulties in 
paying for needed infrastructure improvements. Recent events in Texas, 
where winter weather has left thousands without access to clean water, 
underscore the vulnerability of our nation's water infrastructure and 
the dire need for additional investment. At the same time, federal 
spending accounted for just four percent of all spending on wastewater 
utility infrastructure in recent years. Given that the Environmental 
Protection Agency's (EPA) most recent assessment found that $271 
billion will be needed to maintain and replace wastewater and 
stormwater treatment systems over the next twenty years, Congress must 
act this year.
    While investment in water and wastewater infrastructure enhances 
public health and environmental protection, it also creates high-paying 
jobs, generates significant economic activity and expands the local tax 
base. Industry studies have indicated that every $1 billion invested in 
water and wastewater infrastructure creates up to some 28,000 new jobs 
with average annual earnings of more than $50,000 and increases demand 
for products and services in other industries by more than $3 billion.
    Due to the economic ripple effect that construction employment 
offers, investment in water infrastructure generates measurable 
employment in hundreds of standard industry classifications recognized 
by the U.S. Census Bureau. Moreover, a $1 billion investment also 
results in tens of millions of dollars in state and local tax revenue 
at a time when they unarguably need it most.
    To that end, NUCA strongly supports measures that would ensure a 
steady level of federal investment in water infrastructure, and 
particularly a major reauthorization of the Clean Water State Revolving 
Fund (CW SRF). Likewise, NUCA would strongly support a significant 
increase in funding for the Water Infrastructure and Innovation Act 
(WIFIA) program, which provides long-term, low-cost credit assistance 
for regionally and nationally significant water and wastewater 
projects. Both the WIFIA and the CW SRF programs have proven highly 
efficient and successful since their establishment, but continue to 
suffer from a lack of reliable funding.
    In addition to traditional public funding, NUCA continues to 
support innovative solutions to the funding shortfall facing America's 
clean water infrastructure. Congress should consider measures that 
would open the door for more private sector investment through 
innovative financing such as lifting the cap on exempt facility bonds 
(private activity bonds) for water and wastewater infrastructure 
projects.
    NUCA's water infrastructure experts are available to your committee 
staff to discuss these issues and others solutions which have the 
promise to deliver what the American people want and deserve: reliable 
clean water and wastewater infrastructure systems to keep their 
communities safe and healthy.
    We appreciate your leadership in examining this critical issue at a 
time when our nation's wastewater infrastructure is more in need of 
overhaul than ever. Thank you for your consideration.

                                 <F-dash>
 Letter of February 19, 2021, from the Clean Water for All Coalition, 
          Submitted for the Record by Hon. Grace F. Napolitano
                                                 February 19, 2021.
    Dear Committee Chair DeFazio, Subcommittee Chair Napolitano, 
Representative Graves, and Representative Rouzer:
    The undersigned members and partners of the Clean Water for All 
Coalition appreciate this opportunity to express our strong support for 
robust increases in funding to the Clean Water State Revolving Fund and 
other wastewater and stormwater infrastructure programs.
    All people in America should have access to water infrastructure 
systems that provide safe, clean, and affordable water--systems that 
protect people's health, sustain thriving ecosystems, and support a 
robust and diverse workforce. Wastewater and stormwater infrastructure 
should meet the needs of all communities, equitably and sustainably, no 
matter where they are located. It must also work in tandem with nature 
and be resilient to the effects of climate change, now and in the 
future.
    In many areas, our nation's infrastructure is no longer up to the 
task of meeting these goals. Pipes, septic tanks, and treatment 
facilities have exceeded their intended lifespans and are breaking 
down, with the most severe impacts often falling on low-income 
communities and communities of color. The American Society of Civil 
Engineers gave the nation's wastewater infrastructure a D+ grade in its 
2017 infrastructure report card. Critically, climate change is already 
adding further stress to these systems.
    In 2012, the EPA estimated that we need to invest $271 billion in 
maintaining and repairing our wastewater infrastructure over the next 
twenty years just to meet current environmental and health standards--a 
figure that is now outdated and is almost certainly an underestimate. 
Infrastructure costs have continued to rise in recent years as 
communities have worked to implement important water pollution control 
projects. Yet according to Congressional Budget Office data, federal 
funding for water and wastewater utilities has decreased fourfold since 
1980, leaving state and local governments to pick up the tab. These 
costs are becoming increasingly difficult for communities to afford. 
The passing on of infrastructure repair costs to consumers has created 
an affordability crisis for many across the country, with wastewater 
prices more than doubling over the last twenty years.
    The global COVID-19 pandemic has magnified and exacerbated the 
existing challenges facing our water systems and the inequities 
blocking access to clean, safe water. Too many communities, especially 
low income and communities of color, suffer from failing water 
infrastructure, polluted water supplies, unaffordable water rates, and 
many other water issues that make it even more difficult to survive in 
this time of chaos and crisis. The pandemic has also caused serious 
financial harm to water and wastewater utilities; the National 
Association of Clean Water Agencies estimates that the financial cost 
on wastewater utilities will be approximately $16.8 billion, including 
a 20 percent drop in sewer revenues. Without federal funding to help 
make up the loss, utilities may end up raising rates, worsening 
existing affordability challenges.
    Significantly increasing federal funding for water infrastructure 
would support public health and the environment, yielding cleaner 
water, fewer toxic algal blooms, and more efficient infrastructure that 
produces less harmful climate pollution. It would also generate much-
needed economic activity and create hundreds of thousands of jobs. 
Research by BlueGreen Alliance has found that by investing 105 billion 
dollars over ten years, we could improve our drinking and clean water 
systems to a ``B'' grade and create 654,000 job-years across the U.S. 
economy.
    As the Committee develops legislation to establish and authorize 
infrastructure funding programs, we urge you to make the following 
investments in our nation's clean water systems:
    <bullet>  $10 billion per year for the Clean Water State Revolving 
Fund (CWSRF).
    <bullet>  $400 million per year for the Sewer Overflow and 
Stormwater Reuse Municipal Grants Program.
    <bullet>  $200 million per year for grants to publicly owned 
treatment works to implement a pretreatment standard or effluent 
limitation for per- or polyfluoroalkyl (PFAS) developed by the EPA.
    <bullet>  $50 million per year for a new Low-Income Decentralized 
Wastewater Grant Program.
    <bullet>  $20 million per year for a new Clean Water Infrastructure 
Resiliency and Sustainability Program, which would help increase the 
resilience of publicly owned treatment works to natural disasters and 
climate change.
    <bullet>  $10 million per year for a new Small Publicly Owned 
Treatment Works Water and Energy Efficiency Grant Program.
    <bullet>  $5 million per year for the Water Infrastructure 
Workforce Development Program.
    <bullet>  $50 million per year for technical support to help 
utilities in rural, small, tribal, and economically disadvantaged 
communities access available federal infrastructure funding.

    It is also critical that any legislation the Committee develops 
must go beyond funding alone and incorporate necessary policy reforms 
to the CWSRF and other key infrastructure programs. The Committee 
should also:
    <bullet>  Require states to provide at least 20 percent of the 
annual Clean Water State Revolving Fund capitalization grant to 
disadvantaged communities in the form of grants rather than loans 
(``additional subsidization''), and raise the current cap on additional 
subsidization beyond the current 30 percent maximum.
    <bullet>  Direct states to provide at least 20 percent of the 
annual CWSRF capitalization grant to projects that incorporate green 
infrastructure and other nature-based solutions that provide social, 
economic, and environmental benefits to communities.
    <bullet>  Require and fund a study analyzing the historical 
distribution of federal funds to low income, rural, and minority 
communities, as well as communities of indigenous peoples, under Clean 
Water Act infrastructure programs.
    <bullet>  Adopt measures designed to ensure that infrastructure 
investments are affordable, including incentives for states and 
wastewater utilities to adopt low-income customer assistance programs, 
equitable rate structures, and strategies that reduce system-wide 
costs.
    <bullet>  Incentivize inclusive workforce development and 
procurement through requirements for apprenticeships; inclusion of 
local disadvantaged workers; and preferences for minority-owned, women-
owned, and disadvantaged firms.
    <bullet>  Clarify that PFAS dischargers are subject to limits under 
the Clean Water Act and set deadlines for EPA to establish pretreatment 
standards, effluent limitation guidelines, and water quality criteria.

    Finally, we urge the Committee to reject any legislative proposals 
to roll back clean water laws, such as provisions weakening pollution 
discharge permit requirements for wastewater treatment plants.
    Thank you for considering our views. We look forward to working 
with the Committee to achieve our shared goal of wastewater and 
stormwater infrastructure that provides clean water for all.
        Sincerely,
Benjamin Swanson,
  Executive Director, Central Florida Advocates for Clean & Clear 
Waterways;
Jack West,
  Policy and Advocacy Director, Alabama Rivers Alliance;
Molly M. Flanagan,
  COO and Vice President, Programs, Alliance for the Great Lakes;
Katie Huffling,
  Executive Director, Alliance of Nurses for Healthy Environments;
Ted Illston,
  Senior Director of Policy and Government Relations, American Rivers;
Rachel Conn,
  Amigos Bravos;
Harriet Festing,
  Executive Director, Anthropocene Alliance;
Mariana Del Valle Prieto,
  Clean Water and Ocean Advocate, GreenLatinos;
Tracy Kolian,
  Health Policy Consultant, Children's Environmental Health Network;
Jennifer Peters,
  National Water Programs Director, Clean Water Action;
Julian Gonzalez,
  Legislative Counsel, Earthjustice;
Dan Silver,
  Executive Director, Endangered Habitats League;
Laura Miller,
  Clean Water Advocate, Environment America;
Colin O'Neil,
  Legislative Director, Environmental Working Group;
Liz Kirkwood,
  Executive Director, For Love of Water (FLOW);
Kristy Meyer,
  Associate Director, Freshwater Future;
Cynthia Sarthou,
  Executive Director, Healthy Gulf;
Edward L. Michael,
  Government Affairs Chair, Illinois Council Trout Unlimited;
Madeleine Foote,
  Deputy Legislative Director, League of Conservation Voters;
Katharine Lange,
  Policy Specialist, Massachusetts River Alliance;
Albert Ettinger,
  Counsel, Mississippi River Collaborative;
George S. Hawkins,
  Founder and President, Moonshot Missions;
Caitlin Wall,
  Water Policy Manager, National Audubon Society;
Alexis Lopez-Cepero,
  Senior Legislative Analyst, National Parks Conservation Association;
Glenn Watkins,
  Policy Specialist, Water Resources, National Wildlife Federation;
Rebecca Hammer,
  Deputy Director of Federal Water Policy, Natural Resources Defense 
Council;
Rev. Sandra L. Strauss,
  Director of Advocacy and Ecumenical Outreach, Pennsylvania Council of 
Churches;
Katherine Baer,
  Director of Science and Policy, River Network;
Lorette Picciano,
  Executive Director, Rural Coalition;
Dalal Aboulhosn,
  Deputy Director of Policy, Advocacy and Legal, Sierra Club;
Geoff Gisler,
  Senior Attorney, Southern Environmental Law Center;
Katie Day,
  Staff Scientist, Surfrider Foundation;
Kathy Hawes,
  Executive Director, Tennessee Clean Water Network.

                                 <F-dash>
  Letter of February 22, 2021, from Pete Bucher, Managing Director of 
 Water Policy, Ohio Environmental Council, Submitted for the Record by 
                        Hon. Grace F. Napolitano
                                                 February 22, 2021.
Hon. Grace F. Napolitano,
Chairwoman,
Subcommittee on Water Resources and Environment, House Transportation 
        and Infrastructure Committee, Rayburn House Office Building, 
        Washington, DC.
Hon. David Rouzer,
Ranking Member,
Subcommittee on Water Resources and Environment, House Transportation 
        and Infrastructure Committee, Rayburn House Office Building, 
        Washington, DC.

    Dear Chairwoman Napolitano and Ranking Member Rouzer:
    On behalf of thousands of Ohioans members, I write to offer our 
appreciation and support for the Subcommittee's work today examining 
the Clean Water State Revolving Fund. Today's hearing should highlight 
the pressing need for a federal response to the nationwide water 
infrastructure crisis and reinforce the call to quickly take up 
comprehensive legislation to invest in clean water, particularly during 
this public health crisis. The OEC and our partners look forward to 
working with the Subcommittee to strengthen its recent legislative 
proposal, the Water Quality Protection and Job Creation Act of 2021, to 
meet our regional and nationwide needs while prioritizing resilience 
and investments in our most vulnerable communities.
    Despite being a water rich state, we face many water challenges in 
Ohio. These challenges include both legacy and emerging water 
contamination threats, such as lead in our pipes, agricultural 
pollution, and emerging contaminants like PFAS and microplastic 
pollution, in addition to aging and crumbling water infrastructure.
    In 2014, nearly half a million Toledoans were left without safe 
drinking water because the toxin produced by a harmful algal bloom got 
into the drinking water supply. In 2016, the community of Sebring, Ohio 
had lead contamination in their water for 5 months due to lead leaching 
from the pipes into the water supply after a change to the water 
treatment system. The state of Ohio does not yet know the scope of our 
PFAS problem, widespread testing for these harmful chemicals throughout 
Ohio's drinking water systems began just this year.
    In the face of all of these drinking water pollutants Ohio, like 
the Great Lakes region, is facing a water infrastructure crisis. Ohio 
has a $27 billion need for water infrastructure upgrades over the next 
20 years.\1\ Without federal investment, this cost will ultimately fall 
on communities and consumers, at a time when water rates are rapidly 
increasing across the nation.
---------------------------------------------------------------------------
    \1\ https://www.greaterohio.org/publications/strengthening-ohios-
water-infrastructure-financing-and-policy
---------------------------------------------------------------------------
    This work is increasingly unaffordable as the federal contribution 
has declined precipitously over the last 4 decades, falling from 63 
percent of water infrastructure spending to 9 percent today. Too often 
these costs are being passed on to those who can least afford it, 
disproportionately impacting communities that have historically borne 
the brunt of environmental injustice with water utility bills doubling 
or tripling over the last decade in many cities.\2\
---------------------------------------------------------------------------
    \2\ https://www.apmreports.org/story/2019/02/07/great-lakes-water-
shutoffs
---------------------------------------------------------------------------
    Prioritizing funding for our water infrastructure results in a 
triple win: a win for workers, a win for clean drinking water, and a 
win for Ohio's communities. In Ohio, Governor DeWine led the charge to 
secure an unprecedented $172 million investment in our water quality 
through H2Ohio.\3\ Nationally, Congress has steadily invested in clean 
water through the Farm Bill, the Great Lakes Restoration Initiative, 
and the Land and Water Conservation Fund in recent years. Congress now 
must build upon this good record by increasing its investment in clean 
water and infrastructure amid growing challenges.
---------------------------------------------------------------------------
    \3\ http://h2.ohio.gov/governor-dewine-outlines-h2ohios-first-year-
accomplishments/
---------------------------------------------------------------------------
    These challenges are only expected to get worse as a changing 
climate leads to more rainstorms that overwhelm sewer systems and 
contaminate drinking water sources, pushing our current infrastructure 
past its limits. Investing in our region's water infrastructure would 
not only protect public health but allow for important infrastructure 
upgrades improving the resiliency of our communities, reducing 
maintenance and operational costs, and creating good paying local jobs 
during this economic crisis. We urge Congress act quickly and lead a 
comprehensive federal response to the nation's water infrastructure 
crisis by:
    <bullet>  Supporting reauthorization of the EPA's Clean Water State 
Revolving Fund at a minimum of $10 billion annually.
      <bullet>  Requiring a minimum 20 percent set-aside for additional 
subsidization, raising the 30 percent cap, and expanding grant options 
instead of loans targeted at small and disadvantaged communities to 
address the affordability crisis our most vulnerable and under 
resourced communities face.
      <bullet>  Codifying the Green Project Reserve at no less than 20 
percent, providing technical support and incentivizing the use of 
natural infrastructure that supports communities trying to end 
stormwater runoff and build resilience in the face of climate change.
      <bullet>  Requiring states to give priority to projects in 
disadvantaged communities when developing annual project prioritization 
lists; use SRF funds for technical assistance to help these communities 
submit project proposals.
      <bullet>  Promoting economic development in these communities 
through local hiring and job training opportunities for local workforce 
development in SRF funded projects.
    <bullet>  Supporting the reauthorization of the EPA's Sec. 221 
Sewer Overflow and Storm Reuse Municipal Grants at a minimum of $400 
million annually.
      <bullet>  Reducing the non-federal cost share for financially 
distressed communities to a maximum of 25 percent and creating a 20 
percent set-aside to help address the needs of small communities.
    <bullet>  Supporting state water quality protection through the 
reauthorizations of the Sec. 106 State Water Pollution Control Grants 
and the Sec. 319 Nonpoint Source Pollution Management Programs at a 
minimum of $500 million and $200 million annually.
      <bullet>  Preserving and strengthening source water protections 
that also help reduce runoff, support fish and wildlife, and provide 
recreational opportunities.
    <bullet>  Supporting funding to address the growing threat of 
emerging contaminants, providing at least $300 million annually to 
implement wastewater standards and remediation of PFAS chemicals and 
other contaminants such as pharmaceuticals and microplastics/
microfibers.
    <bullet>  Dedicating resources through the EPA and other relevant 
agencies to address the growing water affordability crisis.
      <bullet>  Incorporating measures to ensure people can afford 
their water, such as providing more flexible financing options like 
grants for disadvantaged communities; supporting and creating programs 
like those in last year's Low Income Sewer and Water Assistance Program 
Act that help low-income households pay their water bills; providing 
incentives for utilities to adopt more equitable water and sewer rate 
structures; and ensuring funding is invested in communities in ways 
that empower and build those communities through job training and long-
term employment.
    <bullet>  Ensuring that infrastructure legislation does not 
undermine or weaken environmental protections.

    The Coalition looks forward to working with the Subcommittee to 
strengthen its recent legislative proposal, the Water Quality 
Protection and Job Creation Act of 2021, and supporting its quick 
passage. It is critical we begin to address this infrastructure crisis 
that has hamstrung communities and left too many low-income and 
minority households facing unsafe and unaffordable water. Fixing our 
region's failing infrastructure can put people to work, set the stage 
for economic revitalization in our towns and cities, and ensure safe, 
clean, and affordable water is available to all. Our communities stand 
ready to get to work, delaying action will only make the problems worse 
and costlier to solve.
    We are pleased to offer our support for much-needed legislation. If 
you have any questions, please contact me.
        Sincerely,
                                               Pete Bucher,
     Managing Director of Water Policy, Ohio Environmental Council.

cc:  The Honorable Peter DeFazio
    The Honorable Sam Graves
   The Honorable John Katko

                                 <F-dash>
    Statement of Patricia Sinicropi, Executive Director, WateReuse 
 Association, Submitted for the the Record by Hon. Grace F. Napolitano
    Thank you for providing the opportunity to submit written testimony 
on Building Back Better: The Urgent Need for Investment in America's 
Wastewater Infrastructure. I submit this testimony today on behalf of 
the WateReuse Association and its members to highlight the importance 
of water reuse and recycling in building resiliency and strengthening 
America's infrastructure.
    WateReuse is a not-for-profit trade association for water 
utilities, businesses, industrial and commercial enterprises, non-
profit organizations, and research entities that advocate for water 
recycling. WateReuse and its state and regional sections represent 
nearly 250 water utilities serving over 60 million customers, and over 
200 businesses and organizations across the country. The WateReuse 
Association's mission is to engage its members in a movement for safe 
and sustainable water supplies, to promote acceptance and support of 
recycled water, and to advocate for policies and funding that increase 
water reuse.
    Water reuse, also known as water recycling, is the process of 
intentionally capturing wastewater, stormwater, saltwater or graywater 
and cleaning it as needed for a designated beneficial freshwater 
purpose, such as drinking, industrial processes, irrigation, 
groundwater replenishment, and watershed restoration. The fundamental 
principle of water reuse is using the right water for the right 
purpose, everywhere and all the time. By advancing water reuse, we 
protect and enhance the environment while helping communities build 
resilience to drought, flooding, and other impacts of climate change.
    Across the country, water, wastewater, and stormwater managers have 
shown that water recycling is often a central feature in innovative, 
integrated approaches to solving water management challenges, including 
challenges brought on by climate change. In the West and South, the 
integration of water recycling has often been driven by water supply 
challenges and the need for drought-resilient supplies. Elsewhere in 
the country, in the Pacific Northwest, and in cities such as Chicago, 
Atlanta, and New York, water recycling has been used to help manage 
stormwater, address water quality challenges, and relieve overburdened 
combined sewer-stormwater management systems. Water reuse is also 
helping communities along our coasts manage the threat of sea level 
rise and saltwater intrusion through replenishing depleted coastal 
aquifers.
    Some important examples of how communities and businesses are 
increasingly turning to water reuse to stabilize their water management 
systems and ensure stronger and more resilient supplies include:
    <bullet>  By 2035, the City of Los Angeles expects to recycle 100% 
of its water supplies and reduce its reliance on costly imported water 
from the Colorado River.
    <bullet>  Truckee Meadows Water Authority in Reno is planning 13-
mile pipeline to provide 1.3 billion gallons of recycled water annually 
to the Tahoe-Reno Industrial Center, home to Tesla, Switch and Google, 
and ensure 20,000 jobs remain in Nevada.
    <bullet>  The Hampton Roads region of Virginia, home to the largest 
concentration of military and naval installations, plans to recycle 
100% of its effluent through an aquifer recovery system to prevent 
rising sea levels from threatening inundating the entire region.

    These are just some of the countless examples of how water 
recycling is becoming an essential ingredient in efforts to preserve 
American jobs, businesses and communities as the country adapts and 
builds resilience to fight climate change.
    In order to Build Back Better and Stronger, WateReuse strongly 
urges Congress to substantially increase investments in each of the 
following programs in FY 2022, through both the annual appropriations 
process and through an infrastructure package:
    <bullet>  Pilot Program for Alternative Water Source Grants;
    <bullet>  Title XVI-WIIN Water Reclamation and Reuse Competitive 
Grants Program;
    <bullet>  Sewer Overflow and Stormwater Reuse Municipal Grants 
Program; and
    <bullet>  Clean Water State Revolving Fund Program.

    Investment in water reuse builds communities that are modern, 
sustainable and stable--ready for families to flourish and businesses 
to grow. We urge Congress to act swiftly to provide communities the 
tools and resources they need to modernize their infrastructure, build 
resilience, and protect the environment and public health.
    Thank you for considering our testimony. Please do not hesitate to 
reach out to the WateReuse Association's Policy Director, Greg Fogel, 
with any questions.

                                 <F-dash>
Statement of the American Society of Civil Engineers, Submitted for the 
                   Record by Hon. Grace F. Napolitano
                              Introduction
    The American Society of Civil Engineers (ASCE) appreciates the 
opportunity to submit our position on the importance of long-term, 
strategic investment in our nation's water infrastructure systems. ASCE 
also thanks the U.S. House of Representatives Transportation and 
Infrastructure Subcommittee on Water Resources and Environment for 
holding a hearing on this critical issue. ASCE is eager to work with 
the Subcommittee in the 117th Congress to reauthorize the Clean Water 
State Revolving Fund. With millions of new users expected to be 
connected to centralized wastewater treatment centers in the coming 
years, our nation's wastewater systems will continue to be tested.
    As we prepare for the year ahead, ASCE urges Congress to prioritize 
our nation's water infrastructure by developing legislation that not 
only makes critical investments, but creates jobs, protects public 
safety and acts as an economic recovery tool. Investment in our 
nation's wastewater systems should be included in any broad 
infrastructure package that is considered.
                 ASCE's 2017 Infrastructure Report Card
    Infrastructure is the foundation that connects the nation's 
businesses, communities, and people, serves as the backbone to the U.S. 
economy, and is vital to the nation's public health and welfare. Every 
four years, ASCE publishes the Infrastructure Report Card, which grades 
the nation's major infrastructure categories using a simple A to F 
school report card format. The Report Card examines the current 
infrastructure needs and conditions, assigning grades and making 
recommendations to raise them.
    ASCE's 2017 Infrastructure Report Card rated the overall condition 
of the nation's infrastructure a cumulative grade of ``D+'' across 
sixteen categories, with an investment gap of $2 trillion. The Report 
Card gave our nation's wastewater infrastructure category a grade of 
``D+,'' while our nation's drinking water infrastructure category 
received a grade of ``D.'' On March 3, 2021 ASCE will release the 2021 
Report Card for America's Infrastructure. The 2021 Report Card will 
grade 17 categories of the nation's infrastructure, with stormwater 
being added for the first time.
    Nearly 240 million Americans--76% of the population--rely on the 
nation's 14,748 treatment plants for wastewater sanitation. There are 
over 800,000 miles of public sewers and 500,000 miles of private 
lateral sewers connecting private property to public sewer lines. Each 
of these conveyance systems is susceptible to failure, blockages, and 
overflows.
    As cities continue to experience population growth and rural 
households switch from septic systems to public sewers, pressure on 
existing centralized systems will require billions of dollars in 
investment to meet federal regulatory requirements. Over the next two 
decades, it is estimated that more than 56 million new users will be 
connected to centralized wastewater systems, which will require the 
construction of 532 new systems by 2032 to meet future demand. The U.S. 
Environmental Protection Agency (EPA) \1\ estimates that over the 
course of the next 20 years, $271 billion will be needed for wastewater 
infrastructure.
---------------------------------------------------------------------------
    \1\ Environmental Protection Agency, Clean Water Needs Survey, 2012 
Report to Congress, December 2016.
---------------------------------------------------------------------------
    Unfortunately, the COVID-19 pandemic has made a difficult situation 
worse. A sizable portion of our existing infrastructure systems are 
supported with user-generated revenue streams. With the onset of the 
pandemic, commercial water use is down and municipal and state budgets 
are buckling under unprecedented demands, meaning less support is 
available for parks, schools, and other publicly-owned infrastructure, 
precisely at the time we should be investing.
    Therefore, ASCE believes that Congress should make infrastructure 
investment a centerpiece of its immediate response and long-term 
economic recovery strategy. Now is the time to renew, modernize, and 
invest in our infrastructure to maintain our international 
competitiveness.
            Investment Shortfalls Total Billions of Dollars
    A well-maintained public drinking water and wastewater 
infrastructure is critical for public health, strong businesses, and 
clean waters and aquifers. However, funding both capital projects and 
operations and maintenance (O&M) is difficult because the public often 
does not appreciate the modern convenience of wastewater and drinking 
water treatment, making it difficult to convey the need for water rate 
increases. Furthermore, capital spending has not kept pace with needs. 
If these trends continue, the funding gap will only widen, resulting in 
leaking pipes, source water pollution, and increases in the cost of 
O&M.
    Despite increased efficiency methods and sustainable practices, 
there is a growing gap between the capital needed to maintain drinking 
water and wastewater infrastructure and the actual investments made. To 
estimate this gap and quantify the failure to invest in our water 
infrastructure, last year ASCE, in conjunction with the Value of Water, 
released The Economic Benefits of Investing in Water Infrastructure: 
How Failure to Act would Affect the U.S. Economic Recovery.
    This economic study analyzed the impact of current water 
infrastructure investment trends on America's GDP, jobs, personal 
income, and businesses and found that the U.S. had an investment gap of 
$81 billion in 2019 alone, with $129 billion in capital needs but only 
$48 billion in investments. Furthermore, despite the growing need for 
water infrastructure, the federal government's share of capital 
investment has fallen from 31 percent in 1997 to a mere four percent in 
2017. This underinvestment, will cause our infrastructure to further 
degrade, resulting in a loss of 636,000 jobs annually and $2.9 trillion 
in GDP by 2039.
    If as a nation we invested an additional $964 billion over the next 
10 years or approximately $96 billion annually across all levels of 
government and the private sector to our water infrastructure needs, 
the benefits would be immense and include:
    <bullet>  $732 billion in business sales would be protected. The 
economic gains from more reliable and efficient water systems would 
build over time; most would accrue in the second decade as households 
and businesses reap the benefits of improved water reliability.
    <bullet>  The investment would protect 333,000 jobs and household 
disposable income would rise by more than $2,000 per household.
    <bullet>  Of these new jobs protected, 26 percent would be in 
manufacturing and professional services stimulated by the boost in 
infrastructure spending.
                               Solutions
    Fortunately, Congress has provided some federal funding options 
that could help close the funding gap needed for drinking water and 
wastewater infrastructure if appropriated. Certainly, federal funding 
is not the only answer; since the mid-1970s, money from local and state 
governments has represented an increasing percentage--nearly 95%--of 
public drinking water and wastewater investment. However, cities and 
towns across the country report that complying with federal wastewater 
and stormwater regulations represent some of their costliest capital 
infrastructure projects.
    As some water systems have become privatized, private capital has 
become another financing mechanism. Regardless of whether a water 
system is publicly or privately owned or managed, households and 
businesses still ultimately foot the bill. Therefore, care must be 
taken to ensure that rates are set at levels sufficient to maintain and 
upgrade infrastructure while not increased so much that low-income 
residents would face financial hardship. ASCE was pleased to see the 
creation of the Low-Income Household Drinking Water and Wastewater 
Emergency Assistance Program under the fiscal year 2021 appropriations 
package. Providing $638 million to the Department of Health and Human 
Services for grants to states in order to assist low-income households 
pay for their drinking water and wastewater utilities will prove vital 
to families that struggle to pay their water bill. We look forward to 
working with Congress to ensure that this program continues to receive 
sufficient funding going forward.
    Next, the federal government funds many infrastructure categories, 
and of all of these, water services receive less than 5%. However, the 
Clean Water State Revolving Fund (CWSRF) and the Drinking Water State 
Revolving Fund (DWSRF)--both authorized by Congress several decades 
ago--play a vital role in providing much-needed support for investments 
in state and local drinking and wastewater infrastructure.
    In the past 30 years, the federal government has loaned $42 billion 
to all 50 states, the District of Columbia, and Puerto Rico through the 
CWSRF, which has given states the ability to fund over $126 billion in 
wastewater infrastructure system improvements--all through low-interest 
financing. Every dollar provided by the federal government is matched 
at 20 percent by the state.
    Likewise, the DWSRF program provides low-interest loans to state 
and local infrastructure projects. The EPA provides an allotment of 
funding for each state, and like the CWSRF, each state provides a 20 
percent match. Since the program's inception, $35.4 billion of low-
interest loans have been allocated. ASCE was pleased that the DWSRF was 
reauthorized at increasing funding levels in the America's Water 
Infrastructure Act of 2018 (P.L. 115-270, Sec. 2023) and urges Congress 
to reauthorize the CWSRF at increasing funding levels, as well.
    ASCE believes that our nation's elected leaders need to act quickly 
to address the growing gap in wastewater infrastructure investment. We 
urge Congress to:
    1.  Renew the federal commitment to water infrastructure by 
reinvigorating the CWSRF program through permanent reauthorization and 
tripling the amount of annual authorization and appropriations.
    2.  Fully fund the WIFIA program at no less than the FY21 enacted 
level of $65 million.
    3.  Eliminate the state cap on private activity bonds for water 
infrastructure projects to bring an estimated $6 billion to $7 billion 
annually in new private financing to bear on the problem.
    4.  Create legislation to allow Public Private Partnerships (P3) as 
one of many methods of financing water infrastructure improvements. 
ASCE supports the use of P3 project delivery methods to enhance 
federal, state and local resources when the public interest is 
protected.
    5.  Create legislation to establish a dedicated source of revenue 
for drinking water and wastewater infrastructure projects that would 
provide a stable, long-term basis for financing for these critical 
systems.
    6.  Preserve tax exempt municipal bond financing, which provides 
communities with low-cost access to capital for drinking water and 
wastewater infrastructure upgrades.
    7.  Support green infrastructure solutions, which provide co-
benefits such as water and quality improvement, aesthetic value to 
communities, and cost competitiveness.

    Finally, ASCE believes our nation must prioritize the investment 
needs of our wastewater and drinking water infrastructure to ensure 
public health, a strong economy, and clean and safe water sources. 
Strategic, robust, and sustained investments in these water 
infrastructure systems from a variety of mechanisms must be made 
quickly if we hope to close the growing funding gap. ASCE thanks the 
Subcommittee for holding this hearing and bringing attention to this 
critical matter. We look forward to working with you to find solutions 
to our nation's wastewater infrastructure investment needs.

    Mrs. Napolitano. OK. We will proceed to the witnesses, and 
I will start with Mr. Berger. Hold on just a second. OK.
    We thank you. We will proceed to hear from our witnesses 
testifying today. Thank you for being here, and welcome. We 
have Mr. David J. Berger, mayor of the city of Lima, Ohio; Bill 
Sterud, chairman of the Puyallup Tribe of Indians in Tacoma, 
Washington; Oluwole McFoy, general manager of the Buffalo Sewer 
Authority in Buffalo, New York; Tom Teske, vice president and 
general manager of EJ Americas in East Jordan, Michigan; Brenda 
Coley, co-executive director of Milwaukee Water Commons; and 
David Mallino, legislative and political director of Laborers' 
International Union of North America. Welcome, all of you.
    And without objection, your prepared statements will be 
entered into the record, and all witnesses are asked to limit 
their remarks to 5 minutes. And I ask everybody to please mute 
their mics until you have a chance to ask questions.
    I will address Mr. Berger because you have been an 
excellent witness for the subcommittee before, and I remember 
that.
    I am told you are retiring in November, having served as 
mayor of Lima, Ohio, for 32 years. That is quite a record. 
Thank you for your many years of service to your community, and 
congratulations on your well-deserved retirement.
    You may proceed with your testimony, sir. Mr. Berger, you 
are on.

 TESTIMONY OF HON. DAVID J. BERGER, MAYOR OF THE CITY OF LIMA, 
OHIO, ON BEHALF OF THE UNITED STATES CONFERENCE OF MAYORS; BILL 
  STERUD, CHAIRMAN, PUYALLUP TRIBE OF INDIANS; OLUWOLE McFOY, 
  GENERAL MANAGER, BUFFALO SEWER AUTHORITY, ON BEHALF OF THE 
 NATIONAL ASSOCIATION OF CLEAN WATER AGENCIES; TOM TESKE, VICE 
 PRESIDENT AND GENERAL MANAGER, EJ AMERICAS; BRENDA COLEY, CO-
EXECUTIVE DIRECTOR, MILWAUKEE WATER COMMONS; AND DAVID MALLINO, 
 LEGISLATIVE DIRECTOR, LABORERS' INTERNATIONAL UNION OF NORTH 
                            AMERICA

    Mr. Berger. Thank you and good morning, Chair Napolitano, 
Ranking Member Rouzer, and other members of the committee. I 
serve as not only the mayor of Lima for the last 32 years, I am 
also the chair of the Mayors Water Council of the U.S. 
Conference of Mayors. I thank you for the invitation to give 
the Conference of Mayors' perspective regarding the urgent need 
for investment as well as a new approach to address America's 
wastewater infrastructure needs.
    As mayor, I spent over 15 years in negotiations with Ohio 
EPA and U.S. EPA over long-term control plans to solve a set of 
combined and sanitary sewer overflow problems. I also 
participated in a decade of discussions with EPA headquarters 
and regional offices on integrated planning, green 
infrastructure, and affordability. So a significant portion of 
my professional life has been spent on this, which makes me a 
reluctant expert.
    And my message is this: We are on an unsustainable path 
when it comes to providing water and wastewater services in an 
affordable manner. Local governments are stuck on an 
unsustainable financial treadmill. Decisions made by the 
Federal Government to reduce financial assistance without 
restricting costly mandates have placed a severe financial 
burden on us.
    The combination of consequences from Federal water policy 
mandates that force aggressive and oftentimes unachievable 
goals, coupled with the high cost of building and operating the 
necessary infrastructure to provide core services that comply 
with Federal mandates, is now beyond the means of half the 
Nation's population.
    The net effect: Mandates, and the lack of Federal 
infrastructure investments, put cities in increasingly higher 
long-term debt, with accompanying rate hikes that have the 
effect of raising basic service levels that are unaffordable to 
a growing percentage of Americans.
    I want to thank this subcommittee for drafting the Water 
Quality Protection and Job Creation Act, a bill without any 
additional mandates included. We are already struggling with 
the burden placed on us, and we ask that you recognize that we 
cannot do more without a substantial influx of new money from 
the Federal Government and a change in the way that we handle 
mandates.
    Local governments are doing their part. The 2018 census 
estimates that cities spent $130 billion for municipal water 
and sewer utilities. And from 1993 to 2018, we cumulatively 
spent $2\1/4\ trillion: $1.23 trillion on water supply and $997 
billion on sewer and wastewater. That means that 98 percent of 
annual spending on water and sewer utilities is by local 
governments.
    During that same timeframe, with the exception of 2018, the 
amount of money appropriated to the Clean Water and Drinking 
Water SRFs never exceeded $3 billion annually in the form of 
grants to States who in turn give us loans that we have to pay 
back with interest. Our investment has been additionally 
challenged by other economic factors.
    Take, for example, the impacts of the great recession on 
water and sewer utilities. When recessions hit and revenues 
decline, utilities must pare budgets and shift resources to 
continue service for public health protection and regulatory 
compliance. The result was to ultimately stifle up to $105 
billion in infrastructure investment over more than a decade, 
and thereby stress our systems even more.
    Further, it has been decades that we have seen anything but 
level funding from Congress. Higher authorization levels 
without increases in appropriations is frustrating at best. We 
need the Federal Government to step up.
    The Conference of Mayors developed the Mayors 2020 Vision 
document, where we call for additional Federal funding in the 
area of water and wastewater infrastructure, as well as 
additional flexibility in order to maintain affordability for 
our citizens and our cities. Our recommendations include: 
promoting integrated planning, implementing the 2021 
affordability guidelines, investing in smart technologies, and 
developing efficiencies in the water/energy nexus.
    By thinking more broadly and creatively, we can better 
tackle our infrastructure needs and provide cost savings 
solutions. We also recommend taking a critical look at what our 
infrastructure and compliance priorities should be. If a 
mandate costs millions of dollars but has modest environmental 
benefits, would that money not be better spent on other more 
pressing infrastructure, environmental, and public health 
priorities?
    Related to this, I would like to thank this committee for 
passing integrated planning legislation, which my own community 
has utilized. Integrated planning can provide the flexibility 
to begin to realign requirements with local priorities and 
local financial capabilities. It is a huge step in the right 
direction.
    We need more tools like this to maintain and rebuild our 
infrastructure while addressing resiliency and cybersecurity. 
On behalf of the Conference of Mayors, we stand ready to work 
with you to help develop these necessary solutions.
    Thank you for inviting me to participate.
    [Mr. Berger's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. David J. Berger, Mayor of the City of Lima, 
       Ohio, on behalf of the United States Conference of Mayors
                              Introduction
    Good morning Chairman Napolitano, Ranking Member Rouzer, and 
members of the Committee. My name is Dave Berger, I have served as the 
Mayor of Lima, Ohio for 32 years and currently serve as the Chair of 
the Conference of Mayors Water Council and Vice-Chair for the 
Conference's Environment Committee.
    I thank you for this invitation to give the Conference of Mayors' 
and my perspective regarding the urgent need for investment in 
America's Wastewater Infrastructure with a particular focus on the 
federal role in local infrastructure investment.
    I am speaking before you today to provide you with some real-world 
experience of what is going on in the field of wastewater 
infrastructure to illustrate the current problems that face many 
communities throughout the United States.
    In the 32 years as mayor of my city, I spent over a decade and a 
half in negotiations with Ohio EPA and USEPA over Long-Term Control 
Plans to solve a combined and sanitary sewer overflow problem. And as a 
member of the Conference's Water Council, I also participated in over 
10 years of discussions with EPA Headquarters and Regional offices on 
the issues of Integrated Planning, green infrastructure and 
affordability. So, a significant portion of my professional life has 
been spent on this and related matters which makes me a reluctant 
expert in this field.
    And my message to you is this--we are on an unsustainable path when 
it comes to providing water and wastewater services in an affordable 
manner.
    <bullet>  Local governments are stuck on an unsustainable financial 
treadmill when it comes to providing water and wastewater services; 
decisions made by Congress and the Administration to eliminate or 
reduce financial assistance without restricting costly mandates have 
placed a severe financial burden on our nation's cities and the public.
    <bullet>  The combination of consequences from federal water policy 
mandates that force aggressive, and in many cases unachievable, goals, 
coupled with the high cost of building, maintaining and operating the 
necessary infrastructure to provide core city services that comply with 
federal mandates is now beyond the means of half the nation's 
population. This is an artifact of federal policy that forces the lower 
half of the income strata to afford the same rates as the upper half of 
household incomes.
    <bullet>  The net effect of mandates and lack of federal 
infrastructure investment (both capital and operations) puts cities in 
increasingly higher long-term debt with accompanying rate hikes that 
has the effect of raising basic service rates to levels that are 
unaffordable to a growing percent of the 80% of Americans served by 
these systems.

    I do want to thank this subcommittee for introducing the Water 
Quality Protection and Job Creation Act of 2021 that will begin to 
address one of these issues--additional federal investment. The 
nation's cities need Congress to provide more resources so local 
governments can continue to provide these utility services to our 
citizens and afford the ever growing compliance costs of regulations. 
And we are grateful that you have introduced a straightforward 
reauthorization bill without any additional mandates or requirements 
included. We are already struggling with the burden placed on us and we 
ask that you recognize that we cannot do more without a substantial 
influx of new money.
    Please note that our needs at the local level could better be 
served by Congressional support to place emphasis on infrastructure 
renewal and technological upgrades, cybersecurity needs, as well as 
resiliency needs in a changing environment. We ask ourselves at the 
local level--``are we looking at and putting resources to real and 
priority problems?'' I refer you to the section below entitled, 
Solutions--Mayors 2020 Vision Document, to see the list of priorities 
the Conference of Mayors is asking Congress to consider.
    The Conference of Mayors supports this legislation because it 
focuses on the level and categories of federal financial assistance 
primarily to States, and some local governments who are beneficiaries 
of intergovernmental transfers when they obtain loans from the State 
Revolving Fund (SRF) program. Some local governments rely on SRF loans 
to finance capital projects, but many cities do not access the SRF, 
relying instead on exempt facility revenue bonds, pay-go, and other 
financial instruments.
    We support this legislation because it continues to authorize 
federal money targeting financial assistance to low-income 
neighborhoods, options for loan repayment by cities with SRF loans, 
(e.g., no interest loans, capital forgiveness, etc.), and it remains a 
program aimed at helping utility infrastructure investment including 
green infrastructure projects. All of these are related to important 
local needs: the poor in our communities and how financial resources 
from Congress can help us address their needs; the SRF stays (and 
should stay) the program to provide federal financial assistance to the 
nation's cities and counties and their water and sewer utilities 
infrastructure investment. We applaud the Committee's support to local 
government. Our hope is that Congress actually appropriates the needed 
resources over the next decade to prepare the nation for the 
anticipated emergence of natural disasters on a grand scale, triggered 
by climate change.
Local Utility Infrastructure Investment is Stuttering When it Needs to 
                                  Grow
    Local governments are charging and taxing customers with the 
highest rates ever seen--year after year double digit rate increases to 
maintain service and comply with regulations. But, local governments 
are doing their financial part. A recent analysis of the 2018 Census 
estimates local governments spending $130 billion for municipal water 
and sewer utilities--a historically high annual investment. From 1993 
to 2018, local governments cumulatively spent on water and sewer 
utilities exceeded $2.251 Trillion: $1.225 Trillion on Water Supply 
Utilities; $997 Billion on Sewer and Wastewater Utilities. In the 
United States, 98% of annual spending on water and sewer utilities is 
by local government.
    I just want to emphasize that again--local governments have spent 
$2.251 Trillion since 1993. In the past, the federal government funded 
about 75% of the infrastructure that brought most cities into 
compliance with secondary treatment standards. This federal cost share 
made the federal government a partner in upgrading treatment plants and 
improving water quality. And, because the federal government was 
spending its own money as well as city money, the federal government 
paid close attention to ensuring that improvements were cost effective.
    Unfortunately, that same commitment is no longer there. During that 
same 1993-2018 timeframe, with the exception of the year when money was 
allocated under ARRA, the amount of money appropriated to the Clean 
Water and Drinking Water State Revolving Funds never exceeded $3 
billion annually or less than 3% of what local governments spent 
annually. And again, this money is given as grants to states, that in 
turn, give the money to us in the form of loans that we have to pay 
back.
    This investment has not been enough and has been additionally 
challenged by other factors. One of the reasons why local governments 
are challenged with making needed infrastructure investment in water 
and wastewater utilities is disruption from national economic 
recessions. A familiar pattern is easily described.
    Take, for example, The United States Conference of Mayors research 
report on the impacts of the Great Recession (December 2007-June 2009) 
on municipal water and sewer utilities. An analysis of Census data that 
compared local spending on 10 different water utility construction 
categories indicates that when recessions hit, utilities tend to pare 
budgets, shift resources to continue service for public health 
protection and regulatory compliance. The result was to ultimately 
stifle up to $105 billion in utility infrastructure investment over 
more than a decade.
    The recessionary period ended in 2009 and the recovery years 
reached pre-Recession levels of investment in 2019. In 2019 local 
governments spent $41 billion on utility capital construction, but this 
was the same level of construction investment in 2007 at the height of 
an economic expansion that turned down rapidly. The purchase power of 
$41 billion invested in utility infrastructure in 2019, due to 
inflation, may really be closer to the purchase power in 2005-2006 
between $30 billion to $35 billion.
    Construction spending was growing at 11% annually before the Great 
Recession. Post Great Recession growth in construction spending was 
between 1% and 1.5%
    The Great Recession recovery period for utility construction 
spending lasted from 10 to 15 years. If it didn't happen, utility 
infrastructure capital investments would have been $105 billion higher 
from 2010 to 2019. What was lost? Sewer line-pump--$34 billion; 
Wastewater plant--$25 billion; Water line--$25 billion; Water plant--
$21 billion.
    Do these factors need to be taken into account by Congress when 
considering policy in this arena? We urge the Committee to consider 
these factors when authorizing resources.
                 Solutions--Mayors 2020 Vision Document
    We need to rethink the issue of infrastructure investment as we 
move forward--one that balances investment, costs, and determining 
priorities.
    Last year, the Mayors created a bipartisan call for action, called 
The Mayors' 2020 Vision: An American Breakthrough which highlighted 10 
priority issue areas that the Mayors of this nation are calling on the 
President and Congress to address that, we believe, will make our 
country stronger, more economically competitive, and improve the lives 
of all Americans, including our most vulnerable citizens.
    Included in our 2020 Vision document was an infrastructure section 
entitled, Build Modern, Resilient Infrastructure to Address Climate 
Change, Promote Environmental Justice, and Enhance Opportunity and 
Productivity: Transportation, Water, Green Energy, and Technology 
Systems.
    In this document, mayors call on the President and Congress to:
    <bullet>  Raise existing federal funding commitments substantially, 
particularly in the form of grant funding, to support the modernization 
and expansion of our Nation's drinking water, wastewater treatment, 
stormwater, and flood protection systems. This includes addressing 
public health threats from lead contamination in older, legacy water 
systems as well as helping mitigate the impact of unfunded federal 
mandates on communities where user fee increases to comply with these 
mandates are making water rates unaffordable for more and more local 
residents. The federal government should assist localities in meeting 
Clean Water Act obligations including (but not limited to) TMDLs for 
stormwater as it did in the past by funding upgrades of treatment 
plants to secondary treatment.
    <bullet>  Implement the Integrated Planning Permit law to ensure 
cities and their customers are not overly financially burdened and to 
allow cities maximum flexibility to address specific challenges in a 
smart, prioritized manner.
    <bullet>  Change the current clean water act law to allow cities to 
have 10-year, rather than five-year, treatment works permit terms.
    <bullet>  Continue to advocate for better ``Affordability'' 
assessments involving compliance with unfunded federal mandates, 
including the elimination of costly penalties.
    <bullet>  Direct new resources funding to support local government 
efforts to study, evaluate, and undertake capital investments to combat 
cybersecurity threats and improve water system resiliency from natural 
disasters.
    <bullet>  Assist in providing funding or federal credits for 
premise plumbing upgrades on private property to prevent and reduce 
contamination from pipes.
    <bullet>  Fund the Corps of Engineers' authority to allow for water 
and wastewater infrastructure investment which would allow for 
additional grant funding for the Nation's water and wastewater 
infrastructure.
    <bullet>  Increase funding for newly established programs including 
the water workforce development grant, CSO and stormwater 
infrastructure needs, increasing system resiliency, and accelerating 
innovative technologies in the water sector.

    As you can see from this list, we call for additional federal 
funding which your legislation authorizes. Besides additional funding, 
our 2020 Vision document also addresses the need for making the 
solutions more affordable which included promoting integrated planning, 
developing better affordability guidelines, allowing for 10-year 
permits, additional investment in smart technologies (including smart 
pipes), and improvements in the water-energy nexus. By thinking more 
broadly, we can better tackle our infrastructure needs and provide 
cost-saving solutions.
    We also recommend taking a critical look at what our infrastructure 
and compliance priorities should be. We need to be more mindful that if 
something costs hundreds of millions of dollars to have a modest 
environmental benefit, would that money be better spent on other, more 
pressing infrastructure, environmental, and public health priorities.
    Related to this last point, I would like to thank this committee 
for your work in passing Integrated Planning legislation which my own 
community has utilized. Integrated planning can, if implemented 
properly, provide the flexibility to begin to realign standards and 
requirements with local priorities and local financial capability. It 
is a huge step in the right direction, and I encourage you to work with 
us to develop additional solutions and approaches as we rethink our 
approach to infrastructure investment that is more sustainable. We need 
a combination of additional investment, financing tools, determining 
and prioritizing critical needs, and minimizing or eliminating unfunded 
federal mandates as part of a comprehensive solution.
    On behalf of the Conference of Mayors, we stand ready to work with 
you to help develop these necessary solutions. Thank you again for this 
opportunity to speak with you today.

    Mrs. Napolitano. Thank you very much, sir.
    And now we will hear from Mr. Bill Sterud. You may proceed, 
Mr. Sterud.
    Mr. Sterud. Good morning. My name is Bill Sterud. I am the 
chairman of the Puyallup Tribe of Indians in Tacoma, 
Washington. I would like to thank Chairman DeFazio, Chairwoman 
Napolitano, and our congresswoman, Congresswoman Strickland, 
for the opportunity to present testimony on this important 
topic of the need for greater investments in America's 
wastewater infrastructure.
    The Puyallup Tribe is a federally recognized Tribe located 
in Pierce County, Washington, along the shores of Commencement 
Bay, a large inlet of Puget Sound. The reservation consists of 
approximately 28 square miles in Pierce County, Washington, and 
includes the city of Fife and portions of the city of Tacoma. 
Today, the Tribe has more than 5,461 members. In addition to 
serving our members, we serve more than 29,000 Native Americans 
from our 200 federally recognized Tribes in Alaskan Villages.
    The pandemic has brought into focus the massive health 
disparities that exist between Indian Country and the rest of 
America. In many cases, this health disparity exists because 
there is a lack of water and sanitation infrastructure in 
Indian Country. The Indian Health Service estimates almost 30 
percent of the homes of Indian Country lack proper sanitation 
infrastructure. Thus, the simple act of washing your hands for 
20 seconds is something that too many people in Indian Country 
cannot do.
    The lack of waste sanitation infrastructure results in 
higher incidences of cancer, obesity, diabetes, and other 
chronic diseases. Beyond the direct health impacts that Indian 
Country experiences because of poor sanitation, there is the 
impact to our natural environment.
    Numerous reports have documented the impact that outdated 
and failing septic and sewage treatment facilities are having 
on the health of the Puget Sound. Failing septic and sewage 
treatment facilities are a direct threat to all life in the 
Puget Sound.
    Wastewater treatment plants account for about 70 percent of 
Puget Sound's over-nutrients. The increased nutrients in the 
Puget Sound deplete the oxygen levels in the water, causing a 
condition called hypoxia, creating dead zones in the water. 
Essentially, when a creature enters a hypoxic water area, it 
dies from the lack of oxygen before it can get out.
    Today, the Indian Health Service estimates that there is a 
$2.57 billion backlog in sanitation infrastructure in Tribal 
communities. We know it is far greater as the Indian Health 
Service only considers Indian homes, and does not consider the 
sanitation needs of our government facilities, schools, 
businesses, or non-Indian homes in our communities. The EPA's 
Clean Water Indian set-aside is an important partner in 
addressing this need. The current $30 million that is provided, 
while appreciated, is insufficient. We need a substantial 
investment now to address this critical backlog.
    Thus, we support the proposed Water Quality Protection and 
Job Creation Act and the proposed $2.5 billion wastewater 
infrastructure assistance for Indian communities. With this 
increase in funding, some important changes could be made to 
the program.
    We think that a portion of this increased funding should be 
dedicated to improving environmental water quality, with an 
impasse on protecting treaty resources. In this regard, we 
think the program should encourage Tribes and other governments 
to work together to address this issue. We want to work with 
municipal systems to address combined sewer overflows. The 
Puyallup Tribe receives notices about CSOs almost every day. 
This means that every day, raw sewage flows into Puget Sound.
    We think the program can be adapted to encourage more 
partnerships between governments to work cooperatively to 
address these environmental threats. We also think the program 
must be modified to allow Tribes to use this funding to address 
the sanitation needs of the entire reservation community. It 
does not matter if the waste is from a home or a Tribal school; 
it presents the same health and environmental threat. Thus, 
Tribes need the resources to address these sanitation 
deficiencies associated with our community facilities and our 
businesses.
    We appreciate the opportunity to testify and highlight the 
needs of Indian Country on this critical topic. Thank you.
    [Mr. Sterud's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Bill Sterud, Chairman, Puyallup Tribe of Indians
    Good morning my name is Bill Sterud. I am the Chairman of the 
Puyallup Tribe of Indians. I would like to thank Chairman DeFazio, 
Chairwoman Napolitano and our Congresswoman, Congresswoman Strickland 
for the opportunity to present testimony on this important topic of the 
need for greater investment in America's wastewater infrastructure and 
the need to better support infrastructure in Indian country.
    I want to begin by telling you about my Tribe. The Puyallup Tribe 
is a federally recognized Tribe located in Pierce County, Washington 
along the shores of Commencement Bay, a large inlet of Puget Sound. The 
history of relations between the United States and our Tribe is 
spotted, but in recent decades we have made great strides forward 
achieving recognition of our Treaty rights, restoring our Tribal land 
base, and developing programs to better serve our members.
    The Reservation consists of approximately 28 square miles in Pierce 
County, WA and includes the city of Fife and portions of the city of 
Tacoma. Today, the Tribe has more than 5,461 members. Further, in 
addition to serving our members, we serve more than 29,000 Native 
Americans from over 200 federally recognized tribes and Alaskan 
villages, who, due to the federal Indian relocation program of the 
1940s and 1950s, now call the area on and around the Puyallup 
Reservation home. The services we provide to our members and those 
Indian people living in our territory include housing, natural 
resources protection, law enforcement services, elder services, health 
care services, transportation, and educational services.
    Foundational to the Tribe are our natural resources, the fish, 
wildlife and fauna, water, land and air in our territory. We depend on 
these resources for our economic, cultural, and spiritual health and 
well-being. Thus, the protection and preservation of these resources is 
a priority for the Puyallup Tribe. However, there is no greater 
resource for the Puyallup Tribe than our people and protecting and 
preserving the health and well-being of our members is our top 
priority. The Clean Water Act Revolving fund and the Indian set-aside 
that is a part of it, is an important tool for all tribes to protect 
the health of their members and protect the health of their natural 
environment.
    The pandemic has brought into critical focus the massive health 
disparities that exist between Indian country and the rest of America. 
In many cases this health disparity exists because there is a lack of 
water and sanitation infrastructure in Indian country. In its most 
recent FY 2021 Budget Justification, the IHS estimated that 1.6% of all 
American Indian/Alaska Native (AI/AN) homes lacked water supply or 
wastewater disposal facilities; and that approximately 27% of AI/AN 
homes needed some form of sanitation facilities improvements--
essentially 30% of the homes in Indian county lack proper sanitation 
infrastructure. Thus, the simple act of washing your hands for twenty 
seconds is something that too many people in Indian country cannot do.
    Beyond the pandemic, one critical metric that demonstrates the 
impact of inferior sanitation on health is the rate of Helicobacter 
pylori (H. pylori) infection. H. pylori is a bacteria found in fecal 
matter that enters a community's water supply because of a lack of 
proper sanitation waste disposal systems. One report estimates the 
prevalence of H. pylori in tribal communities to be 64-81%. See, 
Disparities in Cancer Incidence and Trends among American Indians and 
Alaska Natives in the United States, https://cebp.aacrjournals.org/
content/28/10/1604 ``Disparities''. This is a prevalence rate that is 
seen in third world countries.
    The significance of this is that approximately 89% of stomach 
cancers are estimated to be attributable to chronic H. pylori 
infection. See, Helicobacter pylori and Stomach Cancer Among Native 
Americans in Northern Arizona, https://in.nau.edu/nacp/helicobacter-
pylori-and-stomach-cancer-among-native-americans-in-northern-arizona. 
Thus, it is not surprising that the rate of stomach cancer among Indian 
people is almost double that of the non-Indian community. Disparities. 
Most of these deaths could have been prevented if people had not been 
exposed to poor sanitation. Other health indicators like obesity and 
diabetes can also be directly tied to a lack of access to clean water 
to drink.
    Beyond the direct health impacts that Indian country experiences 
because of poor sanitation, there is the impact to our natural 
environment because of poor sanitation facilities. Numerous reports 
have documented the impact that outdated and failing septic and sewage 
treatment facilities are having on the health of the Puget Sound. When 
septic and sewage treatment facilities fail, bacteria enters our 
waterways threatening our valuable shellfish industry. But failing 
septic and sewage treatment facilities are not just a direct threat to 
the shellfish, they are an existential threat to all life in the Puget 
Sound.
    It is well documented that excessive levels of nutrients, like 
nitrogen, negatively impact the Puget Sound. According to a 2019 report 
from the Salish Sea model, wastewater treatment plants account for 
about 70% of the Puget Sound's over nutrients during warmer months. 
See, https://www.invw.org/2020/12/07/outdated-sewage-treatment-is-
suffocating-fish-in-puget-sound/ Specifically, the increased nutrients 
in the Puget Sound deplete the oxygen levels in the water, causing a 
condition called hypoxia, creating dead zones in the water. 
Essentially, when a living creature enters a hypoxic water area it dies 
from the lack of oxygen before it can get out. These dead zones can be 
as big as six miles in diameter.
    The Supreme Court affirmed that states have an obligation to 
address aging infrastructure's impact on Treaty protected fisheries and 
wildlife habitat. U.S. v. Washington, 853 F.3rd 946 (9th Cir. 2017), 
affirmed per curium, 584 U.S._(2018). While this case involved road 
culverts, the threat to treaty protected fisheries resources is equally 
as great from failing sewer and sanitation facilities. This obligation 
is not only shared by the states, it's shared by the federal trustee as 
well. Thus, the federal government has a trust responsibility to 
address the impact of failing sanitation facilities on our treaty 
protected trust resources.
    In 1976, as part of the groundbreaking Indian Health Care 
Improvement Act, Congress required the Indian Health Service to report 
the sanitation deficiencies in Indian country. 25 U.S.C. 1632(g). This 
list has documented for more than 40 years a growing sanitation backlog 
in Indian country. Today, the Indian Health Service estimates that 
there is a $2.57 billion backlog in sanitation infrastructure in tribal 
communities. We know it is far greater as the Indian Health Service 
only considers Indian homes and does not consider the sanitation needs 
of our governmental facilities, schools, businesses, or non-Indian 
homes in our communities. Unfortunately, notwithstanding this level of 
need, the Indian Health Service only requested $190 million in FY 2021 
for both drinking water and sanitation facilities in Indian country. 
This will address only about 7% of the total need.
    While the EPA's Clean Water Indian set-aside (CWISA) is an 
important partner with IHS in addressing this backlog, the $30 million 
now provided is woefully insufficient. We need a substantial investment 
now to address this critical backlog. Thus, we support the proposed 
Water Quality Protection and Job Creation Act and the proposed $2.5 
billion in wastewater infrastructure assistance for Indian communities.
    With this increase in funding some important changes could be made 
to the program. We think that a portion of this increased funding 
should be dedicated to improving environmental water quality with an 
emphasis on protecting treaty resources. In this regard, we think the 
program should encourage tribes and other governments to work together 
to address this issue. At Puyallup, we want to work with municipal 
systems to address combined sewer overflows (CSOs). The Puyallup Tribe 
receives notices that a CSOs occurs almost every day. This means that 
every day raw sewage flows into the Puget Sound. We think the program 
can be adapted to encourage partnerships between governments to work 
collaboratively to address these environmental threats.
    We also think the program must be modified to allow tribes to use 
this funding to address the sanitation needs of the entire Reservation 
community. It does not matter if the waste is from a home or a tribal 
school, it presents the same health and environmental threat. Thus, 
tribes need the resources to address these sanitation deficiencies 
associated with our community facilities and our businesses.
    We appreciate the opportunity to testify and highlight the needs of 
Indian country on this critical topic.

    Mrs. Napolitano. Thank you very much for your testimony.
    We will proceed with Mr. McFoy. You may proceed.
    Mr. McFoy. I would like to begin by thanking the House 
Committee on Transportation and Infrastructure chair, Peter 
DeFazio, and the Subcommittee on Water Resources and 
Environment chair, Grace Napolitano, as well as the respective 
ranking members Congressman Sam Graves and Congressman David 
Rouzer, along with the other members of the subcommittee who 
are present, for this opportunity to talk with you today about 
the importance of Federal investment in water infrastructure.
    My name is Oluwole McFoy, and I am the general manager of 
the Buffalo Sewer Authority. I am an active member of the New 
York Water and Environment Association and board member of U.S. 
Water Alliance, and I serve on the board of directors for the 
National Association of Clean Water Agencies, or NACWA, and I 
am testifying on behalf of that association today.
    NACWA represents hundreds of public wastewater and 
stormwater agencies nationwide that are on the front lines of 
public health and environmental protection. While I am here 
today to share my experiences from Buffalo, many of the 
challenges facing my city are shared by other utilities and 
communities nationwide.
    Buffalo is a northeastern city that has seen its share of 
ups and downs. It is a city with a proud record of innovation, 
fortitude, and perseverance, while also having a pretty good 
football team as of late. Historically, cities like Buffalo had 
a partner in the Federal Government when it came to building 
critical infrastructure like water and sewer systems.
    From the WPA funding that allowed the ribbon-cutting of our 
primary treatment plant to the construction grants program that 
ushered in our secondary plant expansion, this partnership was 
vital to helping Buffalo and other communities around the 
United States provide working-class families the opportunity to 
have good jobs, good wages, and stable neighborhoods.
    However, over the last decades, the nature of that 
partnership has changed as the Federal Government's investment 
grew smaller and smaller, now estimated below 5 percent, and 
localities like Buffalo had to take on greater shares of the 
infrastructure cost.
    That shift to a greater local cost share had unintended 
consequences because it came at a time when local governments 
were losing their ability to raise revenue sufficient to cover 
the high costs of these types of capital projects. As a result, 
our infrastructure deteriorated, with the work being done on it 
relegated to mostly maintenance, repairs, and necessary 
replacements.
    This has proven to be an unsustainable approach. Currently, 
the costs of capital infrastructure are being borne by a 
segment of ratepayers who, as in Buffalo, a city with a 30-
percent poverty rate, simply cannot afford to pay it. The key 
to ending this cycle and restoring a sense of equity to our 
water utility system is having a reengaged Federal partner that 
is willing to help fund the infrastructure work that will allow 
cities to modernize their systems.
    The recent commitment by Congress of $638 million towards 
low-income water assistance is a critical stopgap policy that 
will help meet the immediate needs of residents for whom water 
is becoming increasingly inaccessible. However, only long-term 
and sustained infrastructure investment by and in partnership 
with the Federal Government will ever achieve the necessary 
water affordability that we all need to see become a reality.
    This can be accomplished through significant increased 
funding to existing programs like the Clean Water SRF, WIFIA 
loan program, the Water Workforce grant program, and the Sewer 
Overflow/Stormwater grant program. This can also be 
accomplished by establishing a permanent Federal low-income 
water assistance program as well as through a strong jobs and 
infrastructure-based stimulus package. NACWA is pleased to 
strongly support all of these approaches through our new 
``Affordable Water, Resilient Cities'' campaign.
    Water is not only a requisite for life, but also an 
important contributor to our public health, economic 
development, and the revitalization of our neighborhoods. We 
cannot consistently deliver innovative green infrastructure and 
smart water projects to protect the environment without our 
Federal partner.
    We are not asking for just an infusion of funding, but 
instead for a recommitment to the idea that people who live in 
cities like Buffalo have a future where they can raise a 
family, find a good job, and live a healthier life.
    Finally, it is important that local policymakers have the 
ability to use the Federal funds in the manner that will result 
in the greatest good in their respective cities. In Buffalo, we 
are committed to balancing the imperative calls for racial 
equity, environmental justice, climate change, and economic 
development in every policy and program we undertake.
    I hope that the subcommittee will consider these factors as 
it continues its work to develop legislation that will help 
improve water infrastructure system funding in Buffalo and 
other cities and communities across the Nation.
    I would like to thank the members of the subcommittee for 
their time and the opportunity to present my thoughts on the 
critical need for increased Federal investment in water 
infrastructure. I will be happy to answer any questions that 
you may have.
    [Mr. McFoy's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Oluwole McFoy, General Manager, Buffalo Sewer 
    Authority, on behalf of the National Association of Clean Water 
                                Agencies
    I would like to begin by thanking the House Committee on 
Transportation and Infrastructure chair Peter DeFazio and the 
Subcommittee on Water and the Environment chair Grace Napolitano, as 
well as the respective ranking members; Congressman Sam Graves and 
Congressman David Rouzer, along with the other members of the 
subcommittee who are present, for this opportunity to talk with you 
today about the importance of federal investment in water 
infrastructure across the United States and how that investment will 
play a critical role in making clean, healthy water more accessible to 
the residents of our cities and communities.
    My name is Oluwole McFoy and I am the General Manager of the 
Buffalo Sewer Authority and Chair of the City of Buffalo Water 
Authority. I also serve on the Board of Directors for the National 
Association of Clean Water Agencies, or NACWA, and am testifying on 
behalf of the Association today. NACWA represents hundreds of public 
wastewater and stormwater agencies nationwide that are on the front 
lines of public health and environmental protection. NACWA has 
advocated for greater federal investment in clean water infrastructure 
for over 50 years, and while I am here today to share my experiences 
from Buffalo, many of the challenges facing my city are shared by other 
utilities and communities nationwide.
    Buffalo is a northeastern city that has seen its share of both ups 
and downs. It is a city with a proud record of innovation, individual 
fortitude, and perseverance; while also having a pretty good football 
team as of late. These characteristics make Buffalo feel special to me, 
but I am confident that if you asked any resident, of almost any city 
in the country, they would have almost the same exact feeling about 
their hometowns. That mutual feeling of shared experience also extends 
to the challenges water system managers are facing across the nation.
    Historically, cities like Buffalo had a partner in the federal 
government when it came to building critical infrastructure like water 
and sewer systems. That partnership was vital to helping Buffalo, and 
other communities around the United States, develop their economies, 
provide working class families the opportunity to have a good home in a 
stable neighborhood, and sustain a healthy pace of development.
    However, over the last several decades, the nature of that 
partnership has changed as the federal government's investment grew 
smaller--now estimated below 5 percent of total water and wastewater 
infrastructure \i\--and localities had to take on a greater share of 
infrastructure costs, in addition to operations and maintenance. That 
shift to a greater local cost share had an unintended, but especially 
pernicious, consequence because it came at a time when local 
governments were losing their ability to raise revenues sufficient to 
cover the high-cost of these types of capital projects.
---------------------------------------------------------------------------
    \i\ Congressional Budget Office, https://www.cbo.gov/publication/
54539
---------------------------------------------------------------------------
    Beginning in the early nineteen sixties, Buffalo's tax-base, like 
that of other medium and small-sized cities, changed rapidly. Suburban 
development, which relied on the utilities infrastructure that had 
already been built to support their region's actual urban cores, drew a 
greater number of middle-class homeowners away. This began to deprive 
Buffalo of the solid economic base it had relied on to fund services, 
maintain property values, and attract employers with.
    The residents who remained were often lower-income Black people who 
had faced various types of housing and employment discrimination, or 
others who were still committed to enjoying the benefits of city-living 
but did not have incomes sufficiently large enough to cover the gaps 
created by suburban migration. These migration patterns, along with a 
significant drop over time in federal infrastructure support, in many 
ways helped lay the foundation for the current environmental justice 
challenges facing our urban areas today around delivery of water and 
sewer services.
    As a result, our drinking water and wastewater infrastructure 
deteriorated, with the work being done on it relegated to mostly 
maintenance, repairs, and necessary replacements. This has proven to be 
an unsustainable approach. The costs of this work are being borne by a 
segment of rate payers who cannot afford to pay it while at the same 
time the funding required for even this bare minimum approach is still 
growing, creating a situation where rate payers are being forced to pay 
more for less relative service.
    The key to ending this cycle and restoring a sense of equity to our 
water utility system is having a re-engaged federal partner that is 
willing to help fund the infrastructure work that will allow cities to 
modernize their systems, employ innovative technologies that reduce 
maintenance costs, build systems that will be more resilient against 
the effects of global climate change, and then pass those savings on to 
ratepayers in a restorative way.
    The recent commitment by Congress of six-hundred and thirty-eight 
million dollars towards Low Income Drinking Water and Wastewater 
Assistance is a critical stop-gap policy that can help meet the 
immediate needs of residents for whom water is becoming increasingly 
inaccessible. However, only long-term and sustained infrastructure 
investment by and partnership with the federal government will ever 
achieve the kind of water affordability that we all want to see become 
a reality. This can be accomplished through significant increased 
funding to existing programs like the Clean Water SRF, the WIFIA loan 
program, the Water Workforce grant program and the Sewer Overflow/
Stormwater grant program. This can also be accomplished by establishing 
a permanent federal Low Income Water Assistance Program as well as 
through a strong jobs and infrastructure-based stimulus package with a 
significant water component. NACWA is pleased to strongly support all 
of these approaches through our new Affordable Water, Resilient Cities 
campaign, and you can learn more about our efforts online at 
www.affordableh2o.org.
    Water is not only a requisite for life, but also an important 
contributor to our economic development, green infrastructure planning, 
protecting our public health, and the revitalization of our 
neighborhoods. That is why any federal investment will be leveraged to 
increase the return on investment. We are not asking for just an 
infusion of funding but instead for a recommitment to the idea that 
people who live in cities like Buffalo have a future where they can 
raise a family, find a good job, and live a healthier life.
    Finally, it is important that local policymakers have the 
flexibility necessary to use any federal funds in the manner that will 
result in the greatest good for the greatest number of people in their 
jurisdiction. In Buffalo, we are committed to balancing the imperative 
calls for racial equity, environmental justice, climate change, and 
economic development in every policy and program we develop and 
undertake. That same commitment applies to improvements we are making 
to our water infrastructure.
    Any solutions developed in accordance with these principles must be 
dynamic if they are going to be successfully implemented. And while 
every community working on these problems likely shares these goals, 
they will also have to be able to adapt to their own set of changing 
circumstances. Every city across this country has different water 
infrastructure needs; in Buffalo we are not looking to just replace our 
existing waterlines but to modernize our water quality monitoring 
systems, use predictive technologies to improve maintenance, keep our 
water clean and reduce costs to our customers in a way that is 
restorative, environmentally sensitive, and development friendly.
    Accomplishing this will require creativity, flexibility, and a 
commitment to the principles I have already outlined above. I hope that 
the subcommittee will consider these factors as it continues its work 
to develop legislation that will help improve water infrastructure 
system funding in Buffalo and other cities and communities across the 
nation.
    I would like to thank the members of the subcommittee for their 
time and the opportunity to present my thoughts on the present need for 
increased federal investment in water infrastructure. I would be happy 
to answer any questions you may have.

    Mrs. Napolitano. Thank you, Mr. McFoy. That is very kind of 
you.
    And we will proceed with Mr. Teske. Mr. Teske, you may go.
    Mr. Teske. Good morning. My name is Tom Teske, and I am 
vice president and general manager of EJ Americas, formerly 
known as East Jordan Ironworks. EJ is a global leader in the 
design, manufacture, and distribution of products critical to 
our Nation's water and wastewater infrastructure such as fire 
hydrants, valves, valve boxes, access covers and frames, curb 
inlets and frames, and drainage grates. These products are all 
made from recycled scrap metals that are melted, poured, 
finished, machined, coated, and assembled in the United States.
    EJ is a family-owned company that has a long history of 
investing in American workers and communities. The EJ legacy 
dates back five generations to 1883, when our first 
manufacturing facility was built in East Jordan, Michigan. 
While we are now a global enterprise, we remain dedicated to 
the U.S. marketplace. U.S. employees remain the heart and soul 
of our company.
    Today I would like to make three points. Robust, long-term 
investments in our Nation's water infrastructure are absolutely 
necessary, and when coupled with a strong ``Buy American'' 
policy, can help drive our economic recovery. Increased funding 
is crucial. Congress must also ensure that such public 
investments have the maximum possible impact on the American 
economy, creating and preserving U.S. manufacturing jobs.
    These investments are maximized when they are tied to ``Buy 
American'' preferences for U.S.-produced products such as the 
American Iron and Steel preference policy applicable to the 
Clean Water State Revolving Fund projects. When these laws 
apply, there is increased demand for EJ's products and a 
corresponding increase in demand of our suppliers and service 
providers.
    As for our hourly team workers, this means more take-home 
pay to support their families and spend in their communities.
    The absence of ``Buy American'' laws applied to Federal-aid 
infrastructure spending diminishes the effectiveness of U.S. 
regulatory policy. We must compete against foreign, state-
owned, or subsidized foundries that regularly flout 
international trade laws, have no regard for worker safety, the 
environment, or public health, and are not required to operate 
by comparable regulatory standards.
    This creates a significant competitive disadvantage for 
American producers that has led to lost sales, closed plants, 
lost tax revenues, and lost jobs. The American foundries that 
have survived utilize state-of-the-art, energy-efficient 
processes and pollution control systems. As a result, our 
plants are among the safest and most environmentally sound in 
the world.
    American companies deserve a commonsense preference for 
meeting, not avoiding, these standards, and for keeping jobs 
here in the U.S. ``Buy America'' incentivizes companies like EJ 
to make long-term investments in communities and workers across 
the United States.
    In the last two decades, EJ has made a number of 
acquisitions and significant capital investments to reinvest in 
our business and modernize our manufacturing capabilities. 
Among our three largest capital investments in the U.S. are two 
brandnew foundries.
    In 2001, we commenced operations in the Ardmore, Oklahoma, 
foundry. The $70 million greenfield investment was constructed 
on a former U.S. military site and features state-of-the-art 
environmental control technologies.
    In 2019, we made another significant capital investment 
when we constructed a new fabrication facility in Schroeppel, 
New York. The $11 million facility was constructed using steel 
produced by Nucor in New York State, and was built a short 
distance from the site of a fabrication facility we acquired in 
2012, allowing for the retention of all its skilled workforce.
    After 135 years at its original location, in 2018, EJ 
started operations at a new flagship foundry in East Jordan, 
Michigan. A $140 million capital investment, the new foundry 
features four electric melt furnaces, two molding lines, and 
advanced automation and technology, and significantly reduced 
our carbon footprint.
    The existence of ``Buy America'' applied to Federal-aid 
infrastructure spending was an important factor in our 
decisions to proceed with these capital investments. I am here 
to tell you that ``Buy America'' policies work, and EJ 
investments in its U.S. manufacturing capacity are demonstrable 
proof.
    Thank you very much again for having me, giving me the 
opportunity to testify today.
    [Mr. Teske's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Tom Teske, Vice President and General Manager, EJ 
                                Americas
    Chairman DeFazio, Ranking Member Graves, Chairwoman Napolitano, 
Ranking Member Rouzer and members of the subcommittee:
    Thank you for the opportunity to testify about an issue vital to 
our nation's health, economy and security. As we work to rebuild from 
the COVID-19 pandemic, we must make long-overdue investments to 
modernize and repair our nation's clean water infrastructure. If done 
right, such investments can provide a much needed stimulus for the 
American economy, truly building back better to the benefit of U.S. 
workers, U.S. manufacturers and their supply chains, and communities 
across the country.
    My name is Tom Teske and I am Vice President and General Manager at 
EJ Americas. EJ is the global leader in the design, manufacture, and 
distribution of access solutions for the world's growing 
infrastructure. Municipal castings produced by EJ Americas include 
products critical to our nation's water and wastewater infrastructure, 
such as hydrants, valves, manhole covers, ring and frames, curb inlets 
and frames, and drainage gates. These products are all made from 
recycled scrap metals that are melted, poured, finished, machined, 
coated, and assembled exclusively in the United States.
    EJ is a family owned company that has a long history of investing 
in American workers and communities. The EJ legacy dates back five 
generations to 1883 when our first manufacturing facility was built in 
East Jordan, Michigan. Decades later, we are now a global enterprise 
that spans six continents--promoting innovation, quality, and a 
commitment to customer service. While our operations span the globe, we 
remain dedicated to the U.S. market, and our U.S. employees remain the 
heart and soul of our company. Notably, over the past two decades, EJ 
has built three new manufacturing facilities in the United States, 
including two modern iron foundries. These investments are major 
commitments to our workers and communities that will endure for 
generations to come. We are particularly proud of our new state-of-the-
art Syracuse Fabrication facility in Congressman Katko's district.
    I would also like to highlight our employees' dedication during the 
ongoing public health emergency. As an essential business, our 
facilities have continued to produce and distribute products that are 
critical to the infrastructure of our country, working closely with 
public works departments nationwide to keep our water and sewer systems 
running during this difficult time. We look forward to turning the 
corner in the months ahead.
    Today, as we discuss the importance of making long overdue 
investments in our nation's water infrastructure, I will make three 
main points:
    1.  Robust and long-term investments in our nation's water 
infrastructure are absolutely necessary and, when coupled with a strong 
Buy America policy, can help drive our economic recovery.
    2.  In addition to supporting our economy, Buy America helps ensure 
that the products used in our nation's infrastructure are produced in 
the safest and most environmentally-sound facilities in the world; in 
short, it reaffirms our nation's commitment to public health, safety 
and environmental safeguards.
    3.  A strong Buy America preference applied to our nation's 
infrastructure policy incentivizes companies like EJ to undertake major 
and long-term capital investments in communities across the United 
States; major R&D investments that drive the development state-of-the-
art manufacturing technology, processes and facilities; and major human 
capital investments for generations to come.
     Strong Buy America Policies Maximize the Economic Effects of 
                       Infrastructure Investments
    At the outset, I'd like to commend the Committee for proposing a 
robust and long-term reauthorization of the Clean Water State Revolving 
Fund (CWSRF) in its discussion draft of the Water Quality Protection 
and Job Creation Act of 2021. In addition to addressing the tremendous 
backlog of water infrastructure needs nationwide, enactment of a multi-
year bill will have a targeted economic stimulus impact, informing 
manufacturers' forecasted demand, triggering investments in 
manufacturing capacity, and spurring production and increased labor 
hours. Building water infrastructure requires manufacturing capacity, 
and manufacturers need market and funding certainty to support new 
investments. These investments, in turn, create and preserve the good, 
high-wage, family-supporting jobs necessary to manufacture these 
products.
    While increased funding is crucial, Congress should also seek to 
ensure that these investments have the maximum possible impact on the 
American economy, and that the hard-earned tax dollars paid by American 
workers support the creation and preservation of American jobs. 
Specifically, the economic impact of these investments in our nation's 
clean water infrastructure is maximized when they are tied to 
procurement preferences for U.S.-produced waterworks products. Such Buy 
America policies include the ``American Iron and Steel'' preference 
policy applicable to projects financed with capitalization grants 
awarded through the CWSRF. These policies afford a commonsense 
preference in taxpayer-financed procurements for iron and steel 
products produced in the United States by U.S. workers.
    But these Buy America policies are not universal. In fact, they are 
limited to specific programs, like the CWSRF and to a limited scope of 
waterworks infrastructure products, which in the case of the American 
Iron and Steel policy, is a finite list of primarily iron or steel 
products and construction materials, a mere fraction of the products 
and materials incorporated into the nation's clean water 
infrastructure. Where these laws are not expressly applied, foreign 
suppliers have unfettered access to U.S. taxpayer spending and are able 
to leverage their state subsidies, low labor costs, and unfair trading 
practices to seize ever-greater shares of the U.S. market.
    Unfortunately, such is the case for a number of programs proposed 
to be reauthorized at significantly increased spending levels in the 
Committee's discussion draft of the Water Quality Protection and Job 
Creation Act. Under current law and the discussion draft, a project 
receiving a federal grant from EPA to decouple a municipality's 
combined stormwater and waste water system has no obligation to procure 
U.S. produced waterworks products or even to consider them. Likewise, a 
municipality receiving a grant for an alternative water source project 
or a project to make their system more resilient need not comply with 
any Buy America policies. EJ and other U.S. manufacturers are 
disappointed that the Committee did not include in the discussion draft 
the critical Buy America policy measures included in the version of the 
bill reported by the Committee in the last Congress.
    U.S. manufacturers and workers are accustomed to hearing broad 
support for Buy America policies from policymakers. In fact, the policy 
has figured prominently in each of the last two presidential campaigns. 
In his pledge to ``Build Back Better,'' President Biden made ``Buy 
America'' a core component of his economic recovery and revitalization 
plan, stating that ``when we spend taxpayer money, we should buy 
American products and support American jobs.'' President Biden recently 
issued Executive Order 14005, Ensuring the Future is Made In All of 
America by All of America's Workforce (Jan. 25, 2021), affirming his 
administration's policy to ``use terms and conditions of Federal 
financial assistance awards . . . to maximize the use of goods, 
products, and materials produced in, and services offered in, the 
United States,'' contemplating the manner in which Buy America 
requirements are applied to federal assistance infrastructure spending 
such as the programs proposed for reauthorized in the Committee's 
discussion draft.
    Likewise, the prior administration issued three executive orders 
communicating support for and encouraging the application of Buy 
America preferences in taxpayer spending on infrastructure, including 
federal assistance infrastructure awards.
    Yet for all of the public support from our policymakers, U.S. 
manufacturers and workers are routinely forced to advocate for the 
inclusion of ad hoc Buy America policies each and every time Congress 
authorizes a new infrastructure program or reauthorizes one of the 
litany of existing programs to which no domestic procurement preference 
applies. Given their overwhelming support with policymakers and U.S. 
voters, Buy America policies should be applied to federal assistance 
infrastructure spending without exception, not as the exception. 
Unfortunately, that is not the case. We look forward to working with 
the Committee to ensure that the billions of U.S. tax dollars 
authorized for these programs is expended prudently.
    Government Procurement Policy Should Reflect Regulatory Policies
    In the context of clean water infrastructure investments, the 
absence of Buy America laws applied to federal-aid infrastructure 
spending diminishes the effectiveness of U.S. regulatory policy, 
particularly our environmental safeguards.
    As discussed, Buy America laws create demand for domestically 
produced goods, helping to sustain and grow domestic manufacturing and 
the millions of jobs it supports. Significantly, domestic preference 
programs also protect the environment. American foundries like EJ make 
their products with state-of-the-art, energy-efficient processes and 
pollution control systems. They invest significantly, at great cost, to 
meet U.S. regulatory requirements. In meeting, and in many cases 
exceeding, arguably the world's most exacting and effective 
environmental, health and safety regulatory standards, our plants are 
among the safest and most environmentally sound in the world.
    By contrast, every day, U.S. producers must compete against foreign 
foundries that do not comply with environmental protection laws 
comparable to those with which U.S. manufacturers must comply. In fact, 
the foreign-origin producers with whom U.S. foundries most often 
compete are also the most polluting. Past analyses have found that a 
typical foundry in China emits more than 20 times the particulate (9.4 
lbs per ton versus 0.4 lbs per ton) and nearly 35 times the carbon 
monoxide (149.4 lbs per ton versus 4.4 lbs per ton) than are emitted by 
a typical U.S. foundry.
    Further, China is the largest source of both sulfur dioxide (SO2) 
and carbon dioxide (CO2) in the world. According to the Union of 
Concerned Scientists, China accounts for more than a quarter of the 
world's CO2 emissions.\1\ China's iron and steel industry now accounts 
for as much CO2 emissions as the rest of the global iron and steel 
industry combined. Each ton of iron castings produced in a Chinese 
foundry generates two to three times more GHGs than a U.S. iron 
foundry, and probably four to five times more if the additional GHG 
impacts of producing iron from iron ore are considered. China's 
pollution is so severe that it can affect communities thousands of 
miles away. As one example, on smoggy days as much as 25% of the 
particulate matter in the air over Los Angeles can be traced back to 
China.
---------------------------------------------------------------------------
    \1\ https://www.ucsusa.org/resources/each-countrys-share-co2-
emissions.
---------------------------------------------------------------------------
    Notably, the iron foundry industry is one of the largest recyclers 
in North America. Approximately 85 percent of all materials used in 
iron foundries is recycled. Annually, U.S. foundries melt millions of 
tons of post-consumer scrap metal to make new, high-quality and long-
lasting finished castings. Moreover, ferrous scrap can be recovered 
repeatedly--so in addition to containing as much as 98 percent recycled 
content, the products themselves are 100 percent recyclable at the end 
of their extensive useful lives.
    In addition to the sustainability benefits of utilizing recycled 
ferrous scrap, the U.S. foundry industry's modern and efficient 
production processes result in dramatically lower greenhouse gas 
emissions per ton when compared to many of our foreign competitors. For 
instance, many ferrous foundries in other producing countries still use 
pig iron as their primary raw material, resulting in up to 200% higher 
greenhouse gas emissions per ton than castings produced using recycled 
scrap metal.
    Further, even when they do utilize recycled scrap, foundries in 
countries such as China and India often use labor-intensive production 
methods that result in higher scrap rates compared to U.S. plants. 
Scrap rates measure the amount of cast product that is unsuitable for 
market and destined for recycling as ferrous scrap feedstock to foundry 
melting operations. Higher scrap rates translate to wasted energy and 
increased emissions as production facilities must re-melt unused scrap. 
With scrap rates as much as two-times higher, these foreign foundries 
may emit 5% more greenhouse gases per ton than domestic foundries.
    We must compete every day against foreign, state-owned or 
subsidized foundries that regularly flout international trade laws, 
have no regard for worker safety (or even age), the environment, or 
public health, and are not required to operate by comparable regulatory 
standards. This creates a significant cost and competitive disadvantage 
for American producers, that has led to lost sales, closed plants, lost 
tax revenues, and lost jobs.
    U.S. environmental protection laws do not have extraterritorial 
application. It does not further the intent of these laws to encourage 
the off-shoring of manufacturing to the world's most polluting nations. 
Strong domestic preference policies, on the other hand, can help reduce 
the pollution associated with the manufacture of products necessary for 
U.S. infrastructure projects and can ensure taxpayer dollars are 
reinvested in America's companies and workers. American companies have 
invested significantly to modernize their U.S. operations to meet 
federal environmental and worker safety regulations. They deserve a 
commonsense preference for meeting--not avoiding--these standards and 
for keeping jobs here in the United States.
            BA Laws Should Require a Strong Origin Standard
    Buy America laws encourage capital investment, research and 
development, and job retention and creation in the United States. These 
benefits are maximized when strong standards are set for determining a 
product's origin. When Buy American laws apply to upstream inputs they 
ensures that the economic benefits of government spending are reaped by 
an entire supply chain, not merely at the final stage of manufacturing.
    In recent years, opponents of Buy America policies have sought, 
where these laws apply, to weaken their origin standards, urging a 
standard based on the final state of processing. Such standards 
eviscerate the benefits of Buy America laws for upstream domestic 
material inputs and the manufacturers and workers that produce them. 
They also would rob the communities in which these business operate of 
the indirect economic impact of the taxpayer finance spending on public 
works.
    To synthesize the value of Buy America laws with robust origin 
standards consider: When these laws apply EJ must source all of its 
inputs from U.S. manufacturers, be it EJ itself, another iron foundry 
or a steel mill. When there is increased demand for EJ's products, 
there is a corresponding increase in demand of our suppliers and 
service providers. As our productivity increases, so too does our 
capacity utilization, meaning, among other things, that we consume more 
labor hours.
    And for EJ's hourly team members, that means more take home pay to 
support their families and spend in their communities.
    Weakened or simply no Buy American origin requirements miss the 
multiplier effect of taxpayer-financed spending, resulting in lost 
opportunity and forsaken economic return.
            The EJ Story: A Commitment to the United States
    In the last two decades, EJ has made a number of acquisitions and, 
importantly, significant capital investments, to reinvest in our 
business and modernize our manufacturing capabilities. Among our three 
largest capital investments in the United States during that time, two 
were brand new foundries.
    In 2001, EJ commenced operations at its Ardmore, Oklahoma foundry. 
The $70,000,000 greenfield investment was constructed on a former 
military site and features state-of-the-art environmental control 
technology. Its 190,000 square feet of manufacturing space is dedicated 
to the production of EJ's municipal castings.
    After acquiring the assets of Syracuse Castings in 2012, EJ made 
another significant capital investment when it constructed a wholly new 
fabrication facility in Schroeppel, New York, which opened 2019. The 
new fabrication facility, an $11 million capital investment, was 
constructed utilizing steel produced by Nucor in New York State which 
it also uses as the feedstock for its fabricated products, such as 
access hatches. The new facility was constructed a short distance from 
the original Syracuse Castings operation, allowing for the retention of 
all of its skilled workforce.
    After 135 years at its original location, in 2018 EJ commenced 
operations at its new flagship foundry in Northern Michigan. The new 
state-of-the-art foundry spans more than 7.5 acres under one roof and 
sits on a 200 acres site. A capital investment in excess of $140 
million dollars, the new foundry features four electric melt furnaces, 
two molding lines, and advanced automation and technology. Constructed 
a mere 14 miles from EJ's original East Jordan, Michigan location, the 
proximity of the new foundry allowed EJ to retain all of its employees 
and its commitment to manufacturing in Northern Michigan.
    As members of the Committee contemplate the reauthorization of the 
clean water programs, it is important you understand that the existence 
of ``Buy America'' applied to federal-aid infrastructure spending was 
an important factor in EJ's decisions to proceed with these capital 
investments in the United States. I'm here to tell you that Buy America 
policies work and EJ's investments in its U.S. manufacturing capacity 
is demonstrable proof.
    On behalf of EJ and our employees, thank you for giving me the 
opportunity to testify today and thank you for your continued 
commitment to the U.S. manufacturing sector.

    Mrs. Napolitano. Thank you very much, Mr. Teske, for your 
testimony.
    We will proceed on to Ms. Coley. You may proceed.
    Ms. Coley. Thank you, Madam Chair Napolitano and the 
ranking members and Chairman DeFazio for inviting me to testify 
to this committee. My name is Brenda Coley, and I am the co-
executive director of Milwaukee Water Commons, a cross-city 
network that fosters connection, collaboration, and broad 
community leadership on behalf of our common waters. We promote 
stewardship of equitable access to and shared decisionmaking 
regarding water.
    In our view, people will value water infrastructure when 
they do not have to think about it. But for many Milwaukeeans, 
water infrastructure comes to their attention when it poses 
risks to their health and environment. There is an urgent need 
for infrastructure investments across the Nation and for 
Federal leadership to equitably fund the repair of water 
infrastructure. Our delay in addressing the need to replace 
aging water infrastructure contributes to ongoing economic, 
environmental, and public health crises.
    Milwaukee's Kinnickinnic River watershed is an example 
where historic approaches on managing water have fostered 
community vulnerability. In Milwaukee's South Side, a 
predominately Latinx community, historical decisions to move 
stormwater out of dense, low-lying neighborhoods have resulted 
in land cover that is mostly impervious, including large 
sections of the river that flow through underground tunnels or 
concrete channels.
    Infiltration between wastewater and stormwater systems in 
the KK River watershed leaks human sewage directly into the 
river and ultimately into the Great Lakes. The removal of 
concrete, river naturalization, and installation of green 
infrastructure could benefit public health by reducing the 
urban heat island effect, preventing neighborhood flooding and 
flash floods, restoring natural ecosystems, and filtering water 
where it falls to reduce the load of bacteria and other 
contaminants in the river. Despite this urgent need and local 
expertise to develop these solutions, the cost of concrete 
removal is so great that it is unrealistic to expect locally 
funded action to remediate this blatant environment injustice.
    Racial and economic inequities are embedded in the history 
of how we funded water infrastructure in this country. Let me 
trace a portion of that history for you.
    Drinking water, wastewater, and stormwater systems were 
built in major cities like Milwaukee during the early to mid-
1900s. Over the latter half of the 20th century, there was a 
massive buildout of water infrastructure into the suburbs. This 
was paid for by, number one, substantial Federal funding via 
grants and urban water ratepayers.
    At the same time that the expansion of water infrastructure 
supported the flight of White residents to the suburbs, 
redlining and other racist housing policies limited where Black 
families could live. Living-wage jobs spread to the suburbs as 
well.
    Today the water infrastructure for Metropolitan Milwaukee 
is built on a backbone of Milwaukee's water systems. 
Milwaukee's water purification system provides drinkable water 
for the suburbs, and its water treatment plants process their 
wastewater.
    But the pipes and other infrastructure connecting these 
systems is newer in the suburbs and older in the city. In the 
city, our water systems are 50 to 100 years old. Following 
these demographics and economic shifts, the system for 
financing water infrastructure changed, too.
    The share of infrastructure needs covered by Federal 
funding has gone way down, from 63 percent in 1977 to 9 percent 
in 2014. Most of the Federal funds provided today are as loans, 
and the money to repay these loans comes from water ratepayers. 
Because water utilities are reluctant to raise rates to 
unaffordable levels, infrastructure needs go unmet.
    It is not enough to write a check funding water 
infrastructure challenges, but should also hold recipients to 
be intentional about workforce equity and community benefits. 
In 2018, Milwaukee Water Commons facilitated one of seven water 
equity task force groups piloted by the U.S. Water Alliance 
across the country. In Milwaukee, the task force is a cross-
section of the partnership between water utilities, 
environmental nonprofits, and educational and workforce 
development organizations.
    Based on that process, we recommend that legislation to 
fund water infrastructure investments should require recipients 
to track and report on the diversity of the workforce and of 
contractors and subcontractors, report on policies and 
practices aimed at workforce equity, and report how funded 
programs address environmental justice.
    We also recommend Federal investments in water 
infrastructure should include procurement preferences and 
projects with an additional commitment to establishing 
community benefits.
    In closing, your legislation appropriation funding for 
water should achieve three things: shift away from loans 
towards Federal grants, restore the amount of Federal funding 
for water infrastructure to levels provided in the mid-20th 
century, and prioritize grant funding for utilities serving 
racially and economically segregated urban communities to 
redress racial and economic inequalities embedded in the 
history.
    Lastly, my hope, from a community perspective, is that 
public water systems be understood as a public good and service 
that assures safe, clean, affordable water for all; protects 
our natural waters; and protects us against the threats from 
climate change, and that they must be paid for accordingly as a 
shared public good. Thank you very much.
    [Ms. Coley's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Brenda Coley, Co-Executive Director, Milwaukee 
                             Water Commons
    Milwaukee Water Commons is a cross-city network that fosters 
connection, collaboration and broad community leadership on behalf of 
our common waters. We promote stewardship of, equitable access to and 
shared decision-making for our common waters. We advocate on 
environmental justice, climate justice, economic justice and social 
justice locally in Milwaukee, in Wisconsin and the Great Lakes region, 
and nationally. Milwaukee Water Commons works under four organizing 
frameworks: collective impact, the commons, environmental justice, and 
community engagement. We believe environmental work--and, more broadly, 
work to support healthy communities--has the greatest impact when it 
adopts an intersectional approach. By that we mean that we must 
inclusively consider the connections between social and environmental 
systems, recognizing that vulnerability is often experienced as 
multiple compounding challenges that cannot be separated. To arrive at 
justice these challenges must be addressed simultaneously.
         Water Infrastructure is an Environmental Justice Issue
    ``Milwaukee'' is a settler variation of the Anishinaabemowin word 
minowaki, which means ``good land.'' The city of Milwaukee sits at the 
confluence of the Milwaukee, Menomonee, and Kinnickinnic rivers and 
along the shores of Lake Michigan. Water is foundational to the city, 
and the lives of the many people who have lived here have been rooted 
in water. Indeed, Milwaukee is globally recognized as a water-centric 
city.
    Milwaukee also has the unwanted reputation of being America's most 
segregated city, and one of the worst places to live as an African 
American. In Milwaukee we suffer from compounding systemic disparities 
in incarceration, educational attainment, income and employment, public 
health, access to transportation, and access to a healthy environment. 
Segregation is a prominent part of Milwaukee's history and, through 
systemic marginalization, segregation actively produces barriers that 
prevent vulnerable communities from fully accessing and enjoying the 
opportunities Milwaukee has to offer, including in relation to its 
waters and its water sector.
    The US Water Alliance defines vulnerable communities as communities 
that face, ``historical and/or contemporary barriers to economic and 
social opportunities and a healthy environment, with some key factors 
being income, race or ethnicity, age, language ability, and geographic 
location. Vulnerable communities may include low-income persons, 
certain communities of color, immigrants, seniors, children, persons 
with disabilities, persons living in public housing, and currently or 
formerly incarcerated persons.
    Often it is Milwaukee's vulnerable communities that bear the brunt 
of environmental risks through no fault of their own. Rather, these 
risks are rooted in compounding systemic disparities that have 
marginalized these communities from the benefits of a healthy 
environment. Environmental Justice is an outcome, where a healthy 
environment and wellness are respected as a human right for all people 
and future generations regardless of identity. Ethical issues of 
justice arise when people, communities, or regions are subject to 
greater environmental degradation, excluded from a healthy environment, 
or disconnected from the process of shaping their environment. 
Environmental justice links environmental sustainability with social 
justice, to ensure that no population, community, or individual is 
subjected to bear a disproportionate burden of environmental risks. 
Milwaukee Water Commons describes environmental justice as having two 
parts: (1) creating access to the benefits of the environment and (2) 
overcoming the risks associated with an unhealthy environment.
    People value water infrastructure when they don't have to think 
about water infrastructure. But for many Milwaukeeans, water 
infrastructure comes to their attention when it poses risks to their 
health and environment. For example, despite historical efforts to 
manage stormwater, many Milwaukeeans associate major storm events with 
basement backups and combined sewage overflows that dump wastewater 
into Lake Michigan. Due to Milwaukee's extreme segregation, and a 
legacy of negative water experiences connected to drinking water, storm 
water, waste water, and public water spaces it is not uncommon for 
residents in this ``water-centric city'' to have a negative 
relationship or no relationship with Milwaukee's three rivers or Lake 
Michigan.
    Milwaukee Water Commons offers the following written testimony to 
the House Transportation and Infrastructure Subcommittee on Water 
Resources and Environment to bring an environmental justice lens to the 
water infrastructure funding decisions being considered for in relation 
to the Water Quality Protection and Job Creation Act of 2021. These 
comments are deeply rooted in our experience in Milwaukee over the past 
nine years working closely with community-based organizations 
representing vulnerable communities as well as with institutions and 
organizations focused on workforce development, other environmental and 
equity advocates, local water utilities, and state and local 
policymakers and community leaders.
    In the sections that follow, we describe the urgent need for 
federal funding for water infrastructure; trace the history of how 
water infrastructure has been funded over past decades, and the racial 
and economic inequities embedded in this history and consequent 
inequitable burdens placed on vulnerable urban communities in dire need 
of extensive repair and upgrades to aging wastewater and stormwater 
management systems to protect their health and their environment. We 
call for a substantial shift away from funding through loans that would 
ultimately need to be repaid by residential water ratepayers in these 
communities towards a return to the levels of federal grant support for 
water infrastructure provided during the mid-20th century. Federal 
grant funds should be prioritized for vulnerable communities to redress 
historic inequities in how the burden of financing water infrastructure 
has been distributed. We also point to inequities in the water sector 
workforce, and suggest concrete ways in which federal leadership can 
spur local actions to ensure that the living-wage jobs generated by 
federal investments in water infrastructure are equitably distributed.
    Equitable Investment in Water Infrastructure is Urgently Needed
    Across the nation there is an urgent need for federal leadership to 
equitably fund the repair and enhancement of water infrastructure. Our 
delay in addressing the need to replace aging water infrastructure with 
more adaptive and resilient water management contributes to ongoing 
economic and public health crises around our nation. In Wisconsin, the 
climate crisis has been hard hitting: major storms have washed out 
bridges cutting off transportation around the Chequamegon Bay, caused 
floods and basement backups on Milwaukee's northwest side, and all 
around the state have led to major sewage overflows into the Great 
Lakes (the source of drinking water for millions of Americans). 
According to the Governor's Task Force on Climate Change, between the 
year 2000 and 2020 there were 19 severe storms along with two flood-
related and six drought-related disasters resulting in around $100 
billion in impacts. Water infrastructure repair and enhancement is 
getting more expensive by the day, and the cost for communities is 
immeasurable.
    Utilities and institutions in Wisconsin are struggling to 
adaptively manage water infrastructure in the face of the climate 
crisis and new emerging contaminants such as PFAS. These challenges 
require consistent modeling and monitoring of existing infrastructure, 
transitions to more sustainable green infrastructure, and investments 
in innovative technologies and training to prepare workers to manage 
emerging threats to public and environmental health.
    Milwaukee's deteriorating grey stormwater and wastewater 
infrastructure have a direct impact on water quality and community 
health. For example, it has been verified that infiltration between 
leaks in these systems results in human sewage entering our river 
systems at a majority of stormwater outfalls in the Kinnickinnic and 
Menomonee River Watersheds. These infiltrations along with sewage 
overflows caused during major rain events, can make days on the river 
or beach unappealing, and make swimming in Milwaukee's water ways an 
unheard of extreme. Though Milwaukeeans used to frequently swim in 
Milwaukee's rivers before the 1930's, due to legacy contamination, 
swimming in the Milwaukee river was unheard of until Milwaukee Water 
Commons piloted the Cream City Classic in 2018, an open water swim 
event that advocates for safe water spaces for all of Milwaukee's 
residents. Despite generations of investments put into river 
restoration, with remarkable impact, safely swimming in the Milwaukee 
River requires at least two full weeks of no precipitation, constant 
water quality monitoring, and a swimming location near the mouth of the 
river that is diluted by water from Lake Michigan.
    On Milwaukee's south side, a predominately Latinx community, 
historical decisions to move stormwater out of dense, low-lying 
neighborhoods have resulted in land cover that is mostly impervious, 
including large sections of the Kinnickinnic River that flow through 
underground tunnels or concrete channels. During low flow, the river 
has almost no current, no habitat for natural ecosystems, and extremely 
high levels of fecal coliform. During large storms, the river moves 
faster than whitewater rapids, resulting in multiple drownings and near 
drownings over the years. Green infrastructure could have profound 
benefits on neighborhood health, stormwater retention and flooding. 
Because of the required concrete removal, however, the re-
naturalization of Milwaukee's channelized Kinnickinnic River has a high 
price tag.
    Investments in green infrastructure can yield community benefits 
that are multidimensional. For example, stormwater trees are a unique 
infrastructure that can be utilized in smaller green spaces to manage 
precipitation where it falls over a large area. When strategically 
planted and maintained, trees can also contribute to other economic and 
public health priorities. Trees impact respiratory and cardiovascular 
health, can eliminate urban heat islands, create access to fresh food, 
create habitat for wildlife, reduce energy costs, and their maintenance 
can create long term employment opportunities. In addition, tree 
planting and other green infrastructure implementation can support 
local environmental priorities while also fostering neighborhood 
placemaking. These needs and benefits are analyzed and documented in 
the Branch Out Milwaukee Master Plan, which also outlines the steps 
needed for a broad campaign to equitably replenish Milwaukee's tree 
canopy, led by Milwaukee Water Commons together with a partnership of 
30+ municipal and community organizations. The inequitable distribution 
of tree canopy in urban areas, and the lack of resources to manage 
trees and other green infrastructure, is an often-overlooked 
environmental justice crisis.
    Water has a profound potential to connect communities around 
Milwaukee, and equitable investments in addressing water challenges 
provide substantial, valuable impacts. We have seen this play out 
through federal grant programs like the Great Lakes Restoration 
Initiative which has bipartisan support in communities throughout 
Wisconsin and the Great Lakes region. In Milwaukee, these funding 
opportunities don't only produce environmental benefits; when done well 
they build relationships across communities, benefit public health, and 
generate employment opportunities.
The story of water infrastructure funding reflects broader patterns of 
        racial and socioeconomic inequity that must be recognized and 
        remedied.
    During the mid-20th century, a period of substantial development 
and expansion of water infrastructure systems in the United States, 
federal grants provided the major source of funding for water 
infrastructure. In 1977, federal funding provided 63 percent of funding 
for water infrastructure; by 2014 this had fallen to nine percent. To 
the extent that federal taxpayers still pay for wastewater and 
stormwater infrastructure, a major portion of these funds flow through 
the Clean Water State Revolving Loan Fund (CWSRF) program created in 
1987.
    Federal funding for state CWSRFs provides only a very small portion 
of the investment needed to address the country's water infrastructure 
needs, however. For example, according to the U.S. Environmental 
Protection Agency's latest Clean Water Needs Survey, the EPA estimated 
that Wisconsin needed approximately $316.5 million per year over the 
next 20 years to meet the state's clean water infrastructure needs, but 
Congressional appropriations to Wisconsin's CWSRF have averaged around 
$39.5 million per year during 2013-2020--about 12.5 percent of 
Wisconsin's assessed need. Nevertheless, SRFs are currently one of the 
primary tools available for financing water infrastructure.
    Because the vast majority of these funds are provided to local 
communities as loans rather than grants, local water ratepayers 
ultimately bear the burden of repaying these loans. Raising rates to 
levels required to repay all of the funds necessary to address existing 
water infrastructure needs would render water rates unaffordable. 
Reluctant to raise water rates and without other funding options, 
utilities instead postpone making urgent water infrastructure repairs 
and upgrades. As noted above, however, continued failure to repair and 
enhance failing and outdated water infrastructure strains the public 
health of our communities as well as the environmental health of our 
waterways and ultimately leads to compounding problems resulting in 
even greater expense. This is particularly true for vulnerable 
communities that typically face the most urgent infrastructure needs 
but have the least ability to bear their cost. One example is in the 
Kinnickinnic River Watershed, as referenced earlier, where the removal 
of concrete, river naturalization, and installation of green 
infrastructure could benefit public health by reducing the urban heat 
island effect, preventing neighborhood flooding and flash floods, 
restoring natural ecosystems, and filtering water where it falls to 
reduce the loading of bacteria and other contaminants cited in Total 
Maximum Daily Load requirements of the Wisconsin Department of Natural 
Resources. Despite the urgent need, and local expertise, to develop 
these solutions, the cost of concrete removal is so great that it is 
unrealistic to expect urgent changes or locally funded action to 
remediate this blatant environmental injustice.
    The inequities of current water infrastructure funding and 
financing mechanisms become even more apparent when we look more 
closely at the history of how water infrastructure has been funded--and 
how the costs of funding water infrastructure have been distributed--
over the past century. During the 20th century, small and large cities 
and towns benefited from extensive federal investments in public water 
systems. The late 20th century push for disinvestment in urban centers 
in support of suburban sprawl (later extended to exurban sprawl), and 
the tendency to construe collectively created problems as the fault of 
individuals and communities who are, in fact, victims rather than 
perpetrators of structural problems, are central to understanding the 
current water infrastructure funding crisis. This scapegoating is a 
hallmark of how power obscures the structures through which it serves 
and perpetuates itself, and it is the rhetorical and political linchpin 
that hampers broad public understanding of this decades-long crisis.
    The fiscal pressures created by deindustrialization, regressive tax 
policy, and federal disinvestment, risky debt financing, mass 
incarceration, and drastic cuts to revenue sharing at the state level 
shifted the financial burden of maintaining aging water systems in 
major urban centers to the water ratepayers that remained in these 
centers following the white flight facilitated by systemically racist 
housing and employment factors. These factors include the racial 
inequality of labor unions and racially disparate federal financial 
support for home mortgages and opportunities to move to areas with 
richer opportunity networks. In short, racial discrimination in hiring 
practices and housing policies locked Black residents into specific 
neighborhoods and cities.
    At the same time as Black and lower-income residents were left 
behind in older parts of cities suffering the devastating economic 
downturn of deindustrialization, city water systems were extended to 
serve the expanding suburbs and exurbs. Not only was this expansion key 
to enabling white flight, but it was paid for not only by federal 
grants for water infrastructure (which remained at high levels through 
the 70s, 80s, and 90s when these economic and demographic shifts 
transpired) but also by the urban water ratepayers who were themselves 
left behind with water systems built several decades earlier and 
increasingly in need of repair and upgrades. Even as these needs grew 
more pressing, however, the mechanisms through which water 
infrastructure is funded and financed also shifted dramatically, from 
federal grants and state cost-sharing to placing responsibility for 
maintaining, repairing, and upgrading water infrastructure on each 
locality's water rate payers. As explained above, even to the extent 
that federal funds were still expended towards water infrastructure, 
this was increasing in the form of loans issued through the state 
revolving funds and ultimately repaid by local ratepayers.
    Thus, urban (largely Black and low-income) water rate payers 
essentially subsidized white flight during an era of cost-sharing 
across states and metropolitan regional water systems, and then were 
subsequently stuck with the bill for upgrading failing, outdated water 
systems that severely threaten their public and environmental health 
and economic security. Detroit provides one of the starkest and best-
documented examples of this narrative, but it is a story that is 
replicated in most major American cities, particularly in the post-
industrial Midwest.
    Although racism may not be the explicitly stated driver of state 
and municipal policies today, racist inequity is baked into the way the 
system functions. Without directly recognizing and remedying these 
lingering legacies, we will continue to see racially and economically 
disparate outcomes.
    Today, it is local ratepayers who, for the most part, bear the 
burden of financing the assessment, operation, and maintenance of water 
infrastructure with far fewer state and federal subsidies. This 
overreliance on ratepayers compounds other existing inequities. The 
inability of vulnerable communities to pay for much-needed 
infrastructure maintenance and upgrades means their needs remain unmet, 
subjecting these already-vulnerable communities to greater risks of 
water insecurity and related health, social, and economic impacts.
    The current approach is also unsustainable for water utilities who 
are forced to increase water rates to pay for water infrastructure 
projects. The COVID 19 crisis and its economic fallout have cast a 
spotlight on the tragic circumstances of households whose water has 
been shut off due to inability to pay soaring water bills. Water rates 
may still be manageable for a majority of ratepayers, including in 
Milwaukee where, thankfully, utility policies do not favor shutting off 
water to vulnerable households. Under a business-as-usual trajectory, 
however, water rates are expected to increase sharply throughout the 
country, driven in large part by the need to maintain and upgrade water 
infrastructure which has fallen into disrepair.
    We rely on water infrastructure--drinking water, wastewater, and 
stormwater management systems--to protect our natural waters and ensure 
access to clean, safe water for drinking, bathing, and recreation. But 
the vulnerability of our aging and outdated infrastructure, compounded 
by additional strains on these systems due to climate change, means 
that even in water-abundant places like the Great Lakes region, 
communities face the threat of water insecurity.
    To address this threat, we need to recalibrate our approach to 
paying for water infrastructure, to ease the burden currently placed on 
residential ratepayers and municipal water utilities. Financing and 
funding wastewater and stormwater management systems must shift from 
primary reliance on overburdened residential ratepayers to an 
integrated approach that includes sources of revenues that are more 
equitable and reliable. As was the case in the mid-20th century, when 
much of the state's water infrastructure systems were built, federal 
grants are needed to support these needs. This transition is essential 
not only to ensure equitable outcomes for vulnerable communities, but 
also to enable public water systems to become financially, 
structurally, and operationally resilient, reliable, and sustainable.
    Solving the complex, challenging, intrinsically connected problems 
of inequity, water insecurity, and water infrastructure funding will 
entail more than throwing more money at the dual problems of 
deteriorating water infrastructure and water affordability. We also 
need to critique and reform how we think about water infrastructure and 
the essential role it plays in supporting our individual and collective 
public health and wellbeing, social coherence and social stability, and 
our shared prosperity. How we pay for water infrastructure should be 
guided by these key principles:
    <bullet>  Public water systems must be understood as a public good 
and service that assures safe, clean, and affordable water for all. 
Water infrastructure is more than an assemblage of pipes, treatment 
plants, bioswales, cisterns, and other physical assets. These assets 
must be understood in terms of the water services they are meant to 
provide, and the communities of people they are meant to serve.
    <bullet>  Inequity, infrastructure funding problems, and the threat 
of water insecurity are intrinsically linked. The failure to adequately 
fund water infrastructure as well as the social, health, environmental, 
and economic inequities experienced by vulnerable communities' stem 
from the decoupling of water infrastructure and equity values.
    <bullet>  Public Trust principles provide a framework to reorient 
our understanding of human-built water systems, and how we should pay 
for them, by recoupling water infrastructure and equity. Water is a 
public commons. Our drinking water, wastewater, and stormwater 
management systems exist to protect and deliver safe, clean water for 
hydration, sustenance, bathing, and health--the same uses that are 
protected under the deeply rooted principles of Wisconsin common law 
and the common law of all the States, as well as the common nature of 
water under the public trust doctrine that underpins our water 
governance. We should understand that our human-built water 
infrastructure exists to fulfill the public trust in water by making 
water available for our needs in our 21st century context--in other 
words, a modern-day iteration of the classic, public-trust duty to 
safely steward waters for the benefit of communities' sustenance, 
health, and livelihoods.

    In line with these principles and the need to recognize and redress 
the inequities demonstrated by current water infrastructure funding 
mechanisms, we recommend that federal funding for water infrastructure 
be dramatically increased to approximate the levels of federal grant 
funding provided in the mid-20th century and, moreover, that federal 
funding shift away from the provision of rate-payer reimbursed loans 
toward greater provision of grants, particularly for vulnerable 
communities.
Federal Leadership Can Spur Local Partnerships to Address Inequities in 
                       the Water Sector Workforce
    In 2018 Milwaukee Water Commons began facilitating one of seven 
Water Equity Task Force groups piloted by the US Water Alliance in 
cities across the country. In Milwaukee, the Water Equity Task Force is 
a cross-sector partnership between water utilities, environmental 
nonprofits and community-based organizations, educational institutions, 
and workforce development organizations. The Task Force focused on 
establishing greater access to living wage employment in Milwaukee's 
water sector, recognizing that even with fewer requirements for 
advanced degrees and the promise of jobs, Milwaukee's water sector did 
not represent the diversity of our city despite Milwaukee's employment 
disparities. The outcomes of our work lead to the production of two 
reports: (1) the UWM Center for Economic Development's, Water Needs 
Assessment: Pathways to Employment in a Water Centric City, which 
assessed the employment in Milwaukee's existing water sector and 
barriers/pathways to employment for Milwaukee residents and (2) the 
Milwaukee Water Equity Roadmap, which makes recommendations on how 
stakeholders from around Milwaukee can lean into establishing a more 
equitable water workforce.
    In a 2018 report, Renewing the Water Workforce, the Brookings 
Institute determined that in 2016 around 1.7 million workers in 212 
different occupations were directly involved in designing, 
constructing, operating and governing US water infrastructure. We 
generally think of the water sector--including stormwater, wastewater, 
natural, and drinking water infrastructure--as a catalyst for 
supporting our country's water economy, which includes a larger set of 
industries such as tourism, service, recreation, and fishing. All of 
these industries rely on benefits from sustainably managed water 
systems and stewardship of our communities' relationships with water. 
Notably, the Healing Our Waters Coalition projected that for every 
dollar spent on Great Lakes restoration there is a three-dollar 
economic return in the Great Lakes region.
    Water jobs are also more likely to be living-wage jobs, relative to 
the economy as a whole. The Brookings Institute also determined that 
water occupations around the country pay more on average compared to 
all national occupations, and also pay up to 50 percent more to workers 
at the lower 10th-25th percentile of the income scale. Most employment 
opportunities in Milwaukee's water sector provide living wages and tend 
to have minimal educational barriers to entry because many incorporate 
on-the-job trainings. In Milwaukee in 2017, average wages for entry-
level positions across the water sector were $22,140 but could range as 
high as $51,220. Median wages for all occupations averaged at $38,670, 
but could range as high as $81,700 for specific professions.
    Investments in resilient and sustainable water infrastructure also 
have profound benefits for public and environmental health, in addition 
to spurring employment opportunities and developing more economically 
sustainable communities. In particular, the need or skilled maintenance 
of green infrastructure to address stormwater concerns establishes 
long-term employment opportunities as a critical component of resilient 
water management, trades such as green infrastructure construction and 
maintenance should demand larger wages.
    Milwaukee's Water Equity Task Force found that water sector 
employers around the Greater Milwaukee Area expressed growing concern 
about the age of the water workforce and looming retirements, technical 
training needs associated with increasing technology in water-related 
occupations, and decreases in federal funding for infrastructure. Water 
sector employers and members of the Milwaukee Water Equity Task Force 
also expressed concerns about the lack of visibility for water sector 
employment, and a lack of diversity in water sector professions. These 
concerns are echoed nationally in the Brookings Institute's 2018 study 
which found that on average water workers are older than the national 
median, and that in 2016 nearly 85% of water workers were male and two-
thirds were white. In some cases, in Milwaukee and surrounding 
counties, among professions associated with Milwaukee's Water Sector 
such as pipelayers, plumbers, pipefitters, and steamfitters, 85-100% 
dominated by white males.
    At the same time, in Milwaukee the unemployment rate for African 
Americans is more than three times that of white residents. The average 
household income in Milwaukee was approximately $28,000 for African 
American residents, $34,000 for Latinx residents, and $53,000 for white 
residents in 2019. Barriers to employment such as transportation 
challenges disproportionately impact communities of color, 27 percent 
of African American household's lack access to a car, compared with 11 
percent of white households. In Milwaukee, slightly more than one-fifth 
of Latinx households are considered ``limited English speaking.'' In 
2020, 38 percent of jobs in the city of Milwaukee require at least a 
high school diploma, 62 percent require some level of training after 
high school, and 39 percent require an associate degree or higher. 
Among Milwaukee residents aged 25 or older, 18 percent have less than a 
high school diploma, but their distribution is not uniform across 
racial and ethnic groups. In 2015, six percent of the city's white 
population had less than a high school diploma, as compared to 18 
percent of the African American population, 28 percent of the Latinx 
US-born population, and 55 percent of the Latinx immigrant population. 
Residents with some level of training after high school comprised 67 
percent of the city's white population, 48 percent of the African 
American population, 42 percent of the Latinx US-born population, and 
15 percent of the Latinx immigrant population.
    The challenges creating vulnerability in Milwaukee's communities 
are systemic, and require intention to decipher and dismantle. It is 
not enough to advertise employment opportunities to a more diverse 
group of individuals recognizing that communities of color in Milwaukee 
do not have the same access to education and training, to reliable 
transportation, and to other services that make these jobs accessible 
to white residents. Through collaboration, and with time, the Milwaukee 
Water Equity Task Force was able to build trust and understanding to 
form recommendations that begin to interrupt these challenges. What we 
learned is that our approaches need to address compounding, complex 
problems experienced by vulnerable communities, and they need to be 
informed and supported by community leadership. Folks living in 
neighborhoods around Milwaukee understood these challenges before we 
measured the employment statistics, and it is likely that many 
solutions to community vulnerability around the country will be found 
through collaboration between water sector employers and local 
communities.
    Funding to address water infrastructure challenges should hold 
recipients accountable to forge positive change, and to be intentional 
about workforce equity and community benefits. It is important that the 
decision makers leading on infrastructure repair in our communities are 
considering the impact of their existing workplace policies and 
practices, and financing community benefits through their procurements 
with contractors. These elements should not be construed as add-ons to 
infrastructure financing. Rather, they must be understood as 
investments in overcoming nationwide segregation and marginalization 
from wealth building, environmental health, and public health. Urging 
this approach at a federal level will influence innovation among water 
sector employers, and change the way that our communities relate with 
the water sector.
    We recommend that legislation to fund water infrastructure 
investments should require recipients to track and report the impact 
that this funding is having on vulnerable communities around the 
nation. This means tracking and reporting on workforce diversity and 
the diversity of contractors/subcontractors, policies and practices 
aimed at fostering workforce equity, and how funded programs address 
environmental injustice. This reporting could be done through the 
Environmental Protection Agency's Office of Environmental Justice and 
should show measured contributions to both federal and local plans to 
address environmental and economic justice concerns. To establish more 
institutional accountability and coordination, the Milwaukee Water 
Equity Roadmap has made specific recommendations regarding the 
importance of tracking water jobs under a singular employment sector 
recognized by regional workforce centers. To the extent that tracking 
employment statistics for water infrastructure investments might aid in 
developing an understanding of positions that fall within our nation's 
water sector, and ways to leverage additional programs to increase the 
economic impact of investing in the growth of this sector, we recommend 
that the US EPA should work with the Bureau of Labor Statistics to 
establish specific tracking of America's water sector.
    We recommend that guidance on federal infrastructure funding 
strongly advocate for local cross-sector coalition building, especially 
with neighborhood organizations, nonprofit organizations, workforce 
development organizations, and community resource organizations. 
Overcoming the barriers of segregation to ensure equitable impact of 
these funds will require intersectional analysis and cross-sector 
leadership. Further leveraging work happening locally and across 
sectors to address compounding systemic challenges, will deepen the 
impact of these funds on our nation's most vulnerable communities.
    We also recommend that federal investments in water infrastructure 
should include procurement preferences for projects with an additional 
commitment to establishing community benefits agreements. Community 
benefits models have been piloted with great success by utilities 
around the country such as in Louisville KY and San Francisco CA. 
Community benefit agreements deepen relationships between water 
utilities and the communities they serve, while also bolstering the 
impact that infrastructure investments have on priorities at a 
neighborhood level. Community benefits could take the form of 
investments in wrap around services, working with community resource 
organizations and workforce development organizations to leverage 
existing federal, state and local programs to support job seekers that 
face additional barriers to employment. Other possibilities include 
support for transitional jobs programs and young/emerging entrepreneurs 
without the wealth or experience to navigate existing procurement 
policies or set-aside financing to support the development of community 
spaces establishing access to a healthy environment and building on the 
social determinants of health in neighborhoods struggling to overcome 
legacy pollution.
    The examples and recommendations in this report are meant to make a 
case for the urgent need for federal infrastructure funding, and the 
key role that infrastructure financing must play in addressing 
environmental justice concerns around the country. Though many 
communities, including those in Milwaukee, are increasingly dealing 
with vulnerability caused by outdated infrastructure, there is a lack 
of urgency and equity demonstrated by both the insufficient levels of 
federal funding appropriated and how federal funding has been used to 
alleviate this vulnerability. Here we offer three key takeaways on how 
increased federal funding for the Clean Water State Revolving Fund 
could have an impact on these issues:
    1.  Funding for water infrastructure must prioritize and greatly 
increase the amounts of infrastructure funding that is received as 
grant funding and prioritize water infrastructure grants for vulnerable 
communities.
    2.  To stimulate equitable economic impacts from these investments, 
there is a need for more equitable workforce policies and practices. 
Improved policies and practices should be encouraged by federal 
guidelines for tracking workforce diversity, strategies for developing 
a more equitable workforce, and how dollars are contributing to 
alleviating environmental injustice.
    3.  To spur local collaboration and maximize impacts, federal 
investments in water infrastructure should be tied to procurement 
requirements that include community benefits agreements.

    Thank you for the opportunity to provide testimony.

    Mrs. Napolitano. Thank you, Ms. Coley.
    And now we will proceed to Mr. Mallino. Mr. Mallino, you 
may go.
    Mr. Mallino. Thank you, Chairwoman Napolitano, Ranking 
Member Rouzer, and members of the committee for inviting me to 
testify before you today. My name is David Mallino, and I am 
here on behalf of the Laborers' International Union of North 
America, LIUNA.
    LIUNA members are engaged daily in efforts to build and 
maintain our Nation's vital physical infrastructure, the things 
that we use so often that we do not pay any attention to them 
until something fails--a bridge, a tunnel, the electricity 
grid, water systems. The programs under this committee's 
jurisdiction provide family-sustaining work for LIUNA members, 
who are actually building the infrastructure systems that make 
our daily lives possible and keep the wheels of commerce 
moving.
    The topic of today's hearing is both timely and important. 
Properly constructed and maintained wastewater treatment 
systems are the most basic and critical infrastructure systems 
for protecting public health and the environment. According to 
EPA's most recent needs survey, which was released nearly 10 
years ago, communities have documented at least $271 billion of 
investment over the next 20 years to bring their systems to a 
state of good repair. I imagine the current need is likely 
higher.
    Existing infrastructure is aging, and critical failures are 
increasing at a rapid rate, and in desperate need of repair and 
replacement. Wastewater infrastructure must also become more 
resilient to the impacts of climate change, including sea level 
rise, stronger and more frequent storms, and flooding. Much of 
our Nation's water infrastructure piping was put in the ground 
over 50 years ago, and many communities have failing pipes that 
are over 100 years old.
    Additional funding dedicated specifically to the 
replacement of failing wastewater and drinking water pipes 
should be authorized. LIUNA supports increasing the 
authorization levels for the Clean Water SRF to help ensure a 
stable funding source, particularly for wastewater 
infrastructure needs.
    Unfortunately, America's infrastructure needs 
disproportionately impact economically disadvantaged 
communities across the Nation. More than 2 million people do 
not have access to high-quality drinking water and wastewater 
services. According to the Indian Health Service, whose workers 
LIUNA proudly represents, sanitation deficiencies on Tribal 
lands include more than 1,800 projects with an estimated cost 
of $2.78 billion. Federal legislation is urgently needed.
    Last Congress the committee unanimously reported H.R. 1497, 
the Water Quality Protection and Job Creation Act of 2019, 
which sought to authorize Federal appropriations for major 
Clean Water Act infrastructure programs, including the Clean 
Water SRF.
    The legislation being considered should build on that 
bipartisan effort and increase the authorization levels for 
clean water. The fund is the primary source of Federal support 
for wastewater infrastructure and has proven to be one of the 
most effective environmental infrastructure funding tools in 
our Nation's history.
    Thousands of wastewater treatment facilities and stormwater 
management projects have been constructed with SRF dollars over 
the past 30 years, contributing directly to improved water 
quality in lakes, rivers, and estuaries across the Nation. 
Congress must renew the Federal commitment to clean water 
infrastructure and set authorization levels at the appropriate 
level to address the documented project backlog and provide 
funds for critical resiliency upgrades and other future needs.
    LIUNA and our partners in the Water Infrastructure Network, 
an organization that includes other unions, contractors, 
elected officials, drinking and wastewater service providers, 
and engineers, are pleased to continue to support the current 
effort.
    We commend the committee's bipartisanship on these issues 
and we support increasing authorization levels to support the 
adequate investment into wastewater infrastructure. The need is 
there, the workforce is available, and the benefits 
unquestionable.
    Water infrastructure investments have interrelated benefits 
that are so broadly shared that failure to make them is 
unreasonable, bordering on the absurd: direct job creation for 
LIUNA members, indirect job creation that results from those 
workers having money in their pockets, improved public safety, 
and improved environmental health, which in and of itself 
creates another stream of job creation and economic benefits.
    Few, if any, Federal investments have such a beneficial 
impact on the American people it is incomprehensible that we 
delay in making them. Estimates vary a bit, but it is projected 
that every $1 billion invested in our Nation's water 
infrastructure creates over 20,000 jobs in communities across 
America while improving public health and the environment at 
the same time.
    By including domestic and local sourcing of labor and 
material requirements, Congress can spread the benefit of these 
investments across wider segments of the economy and help local 
communities reap even greater economic benefits.
    I will wrap up and just say I am happy to take any 
questions, and we look forward to working with the members of 
the committee to enact this important legislation. Thank you 
for the time, and I look forward to taking any questions.
    [Mr. Mallino's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of David Mallino, Legislative Director, Laborers' 
                  International Union of North America
    Thank you Chairman Napolitano, Ranking Member Rouzer, and members 
of the Committee for inviting me to testify before you today. My name 
is David Mallino and I am here of behalf of the Laborers' International 
Union of North America, LIUNA.
    LIUNA members are engaged daily in efforts to build and maintain 
our Nation's vital physical infrastructure, the things that most 
Americans use so often that we do not pay any attention to them until 
something fails . . . a bridge, a tunnel, the electricity grid, water 
systems. This subcommittee and the full Transportation and 
Infrastructure Committee are job creators for the plurality, if not the 
majority, of our union's members. Many of the programs under your 
jurisdiction provide family sustaining work for LIUNA members who are 
actually building the infrastructure systems that make our daily lives 
possible and keep the wheels of commerce moving.
    The topic of today's hearing: ``Building Back Better: The Urgent 
Need for Investment in America's Wastewater Infrastructure'' is both 
timely and important. Our friends at the American Society of Civil 
Engineers have most recently given the Nation's wastewater 
infrastructure a grade of D+ . . . which is woefully inadequate and 
something that Congress should urgently address. Properly constructed 
and maintained wastewater treatment systems are the most basic and 
critical infrastructure systems for protecting public health and the 
environment.
                                The Need
    An estimated 10 trillion gallons of untreated runoff flows into 
America's streams and rivers annually, and combined sewage overflows 
discharge 850 billion tons of raw sewage and storm runoff into nearby 
bodies of water each year. Additionally, it is projected that more than 
56 million new users will be connected to centralized treatment systems 
over the next two decades. According to EPA's most recent needs survey, 
which was released nearly 10 years ago, communities have documented at 
least $271 billion of investment over the next 20 years to bring their 
systems to a state of good repair. I imagine the current need is likely 
higher.
    Communities face growing challenges in managing the water resources 
necessary to support growing and shifting populations coupled with 
complex affordability challenges. Some are forced to contend with 
diminishing rate bases, while others contend with growing populations, 
often with consumers unable to afford the rising costs of clean water. 
Drought, floods, and pollution contamination require the creation of 
multi-benefit projects such as water recycling, storm-water management, 
and groundwater replenishment.
    Nationwide, water utilities and communities of all sizes seek to 
ensure clean, safe, accessible, and affordable water, all the while 
dealing with the challenges of extreme weather events and mounting 
concerns regarding water quality and quantity. Existing infrastructure 
is aging and critical failures are increasing at a rapid rate and 
desperately needed repair and replacement and wastewater infrastructure 
must also become more resilient to the impacts of climate change, 
including sea level rise, stronger and more frequent storms, and 
flooding.
    Communities across our nation now face the daunting challenge of 
replacing thousands of miles of water and wastewater pipes that pose 
growing threats to public health and the environment. Much of our 
nation's water infrastructure piping was put in the ground over 50 
years ago and many communities have failing pipes that are over 100 
years old. As we look to make historic investments in our nation's 
water infrastructure, we should consider providing additional funding 
dedicated specifically to the replacement of failing wastewater and 
drinking water pipes.
    As a result of the Covid-19 pandemic, many households and 
communities across the nation are under financial strain. Accordingly, 
wastewater utilities are facing a decrease in revenue. While there is 
state and local relief contained in the current Covid relief package 
being considered by Congress, LIUNA supports increasing the 
authorization levels as a part of the Water Quality Protection and Job 
Creation Act as a means to help insure a stable funding source, 
particularly for wastewater infrastructure needs.
    There are also additional costs to communities to come into 
compliance with the Clean Water Act. In a 2017 report, the National 
Academy of Public Administration examined the challenges local 
communities face in providing affordable water and wastewater services. 
This report concluded that the governmental responsibility to assure 
clean water that is also affordable to both communities and individuals 
has become an increasing challenge.
    It is an unfortunate fact that America's infrastructure needs 
disproportionately impact economically disadvantaged communities across 
the country. While the majority of people living in the United States 
have access to high-quality drinking water and wastewater services, 
more than two million do not have access to adequate drinking water and 
sanitation. According to the Indian Health Service, whose workers LIUNA 
proudly represents, sanitation deficiencies on tribal lands include 
more than 1,800 projects with a total estimated cost of $2.78 billion.
    Federal legislative action is urgently needed.
    Last Congress, the Transportation and Infrastructure Committee 
unanimously reported H.R. 1497--the Water Quality Protection and Job 
Creation Act of 2019, which sought to authorize Federal appropriations 
for major Clean Water Act infrastructure programs administered by the 
U.S. Environmental Protection Agency (EPA), including the Clean Water 
State Revolving Fund (SRF). The fund is the primary source of Federal 
support for wastewater infrastructure, and was last reauthorized by 
Congress in 1987, and its authorization expired in 1994. The CWA SRF 
has proven to be one of the most effective environmental infrastructure 
funding tools in our Nation's history. Thousands of wastewater 
treatment facilities and storm water management projects have been 
constructed with SRF dollars over the past 30 years, contributing 
directly to improved water quality in lakes, rivers and estuaries 
across the nation. However, these critical water quality improvements 
will be lost if we fail to make needed investments in America's 
wastewater and storm water infrastructure.
    Despite widespread support, the authorization levels for the Clean 
Water SRF have not been adjusted since their enactment over 30 years 
ago. Congress must renew the Federal commitment to clean water 
infrastructure and set authorization levels at the appropriate level to 
address the documented project backlog and provide funds for critical 
resiliency upgrades and other future needs. Legislation being 
considered now should build on that bipartisan effort and increase the 
Authorization levels for the Clean Water SRF.
    LIUNA and our partners in the Water Infrastructure Network (WIN), 
an organization that includes other unions, contractors, elected 
officials, drinking water and wastewater service providers and 
engineers, are pleased to continue our support for the current effort.
    Through our partnership with WIN, LIUNA and our allies have worked 
collaboratively to try and address the Nation's critical water 
infrastructure deficit, including important investments to meet local 
community's wastewater need. We commend the committee's bipartisanship 
on these issues, and we support increasing the authorization levels to 
support adequate investment into wastewater infrastructure. The need is 
there . . . the workforce is available . . . and the benefits 
unquestionable.
    Water infrastructure investments have interrelated benefits that 
are so broadly shared that failure to make them is unreasonable . . . 
bordering on absurd: direct job creation for LIUNA members and others, 
indirect job creation that results from those workers having money in 
their pockets, improved public safety, and improved environmental 
health, which in itself creates another stream of job-creation and 
economic benefits.
    Few if any federal investments have such a beneficial impact on the 
American people that it is incomprehensible we delay making them.
                   Job Creation and economic activity
    Investing in clean water creates thousands of domestic jobs in the 
construction industry and has additional induced economic benefits. 
According to US Department of Commerce's Bureau of Economic Analysis 
(BEA) estimates, for every dollar spent on water infrastructure, 
approximately $2.62 is generated in the private economy, and for every 
job added in the water workforce, the BEA estimates 3.68 jobs are added 
to the national economy. Estimates can vary a bit, but it is projected 
that every $1 billion invested in our Nation's water infrastructure 
creates or sustains over 20,000 jobs in communities across America 
while improving public health and the environment at the same time.
    Wastewater infrastructure improvements also support healthy 
economies. Construction projects create good-paying jobs, and, where 
new facilities are built, workers are needed to operate and maintain 
them. Upgraded infrastructure results in cleaner water, which is 
essential for many businesses and sectors of the economy.
    Clean water infrastructure helps prevent contamination of our 
Nation's waters that are relied upon by the recreational industry. 
People spend approximately $70 billion per year on recreational boating 
and fishing; that industry employs more than 150,000 people.
    By including domestic and local sourcing of labor and materials 
requirements, Congress can spread the benefit of these investments 
across wider segments of the economy and help local communities reap 
even greater economic benefits. Utilization of project labor agreements 
(PLAs), community benefit agreements, local hire, and other provisions 
and practices that prioritize improving training, working conditions, 
and project benefits, including respect for collective bargaining 
agreements and workers' organizing rights, will help ensure that the 
jobs created provide good wages and benefits. This will also enhance 
workforce training and development programs to expand the number of 
skilled workers in disadvantaged populations.
                               Conclusion
    It is time for Congress to renew the Federal commitment to invest 
in our Nation's wastewater infrastructure and, in doing so, ensure that 
affordable assistance is available to all communities, regardless of 
location, demographics, or economic situation. Investing in our 
Nation's wastewater and storm water infrastructure makes eminent near-
term and long-term economic sense.
    LIUNA stands fully committed to working with the bipartisan 
leadership of the Transportation and Infrastructure Committee to enact 
the Water Quality Protection and Job Creation Act as soon as possible.

    Mrs. Napolitano. Thank you, Mr. Mallino. And all the 
testimony is very, very enlightening to a lot of us. Thank you.
    We will now proceed to our question period, and again, we 
will use the timer to allow 5 minutes for questions from each 
Member. If there are additional questions, we may have a second 
round, maybe. I will begin the questioning by allowing Mr. 
DeFazio to proceed. Mr. DeFazio.
    Mr. DeFazio. Thank you, Madam Chair. I appreciate the 
opportunity to ask questions first.
    Mr. Mallino, you just said over 20,000 jobs. So you are in 
substantial agreement with the utility contractors; they said 
28,000 jobs created per $1 billion invested in wastewater. So 
it is somewhere between 20,000 and 28,000 would you say?
    Mr. Mallino. I have seen the numbers range between 23,000 
and 28,000 and I like to hedge my bets. So I went broad.
    Mr. DeFazio. OK. And you said--you repeated, which I think 
reinforced Mr. Teske, that domestic sourcing is critical 
because that also creates more jobs in the United States. Is 
that correct?
    Mr. Mallino. Absolutely. The laborers support ``Buy 
America'' strongly as well as a host of other labor standards 
to make sure the job creation is quality job creation.
    Mr. DeFazio. Right. Mr. Teske, you talked about expanding 
your plants in the U.S. That was impressive. What if the 
Federal Government was making more investment? How are we going 
to source--and we have a strong ``Buy America.'' What is going 
to happen? Do you think you would be building, potentially, 
more plants or otherwise expanding your capacity?
    Mr. Teske. Well, I think first we are going to grow our 
capacity and make sure that our plants are running closer to 
100 percent capacity. And beyond that, I would say we continue 
to look and grow, and then grow manufacturing capacity.
    And I am also involved with the Municipal Casting 
Association, which is a number of different domestic foundries 
who are all committed to growth and meeting demand. We look 
forward to the opportunity, sir.
    Mr. DeFazio. So if the investment were made in the near 
future, you're pretty confident at least by expanding, perhaps, 
your shifts or other things within the capacity of your plants, 
you could meet demand, an increased demand short term?
    Mr. Teske. Yes, sir. I am very confident that we can.
    Mr. DeFazio. OK. Great.
    To anyone: The SRF was created back in the Reagan era 
instead of direct grants to municipalities or counties or sewer 
districts.
    This puts the State in the driver's seat. Are there issues 
with the fact that the State chooses the priorities? I know 
that this has been a particular problem with Tribes in the 
past, and that's why I did a Tribal self-determination on 
transportation a number of years ago.
    But it also seems to me it could be creating issues for 
local districts or communities. Some State governments or 
agencies tend to favor certain areas of the State and neglect 
others, I think.
    Anybody have thoughts on if there are problems at that 
level, and how we can deal with them?
    [No response.]
    Mr. DeFazio. Well, it's a thought. You can get back to me 
later.
    OK, Madam Chair, with that, I would yield back, but I would 
urge people to think about the role of the States here, and how 
they prioritize things and whether or not we need to be more 
directive. We're proposing to be more directive, in terms of 
funds to low-income communities with forgivable loans with a 
certain percentage and to Tribal Governments and other 
underserved areas. I'd just like to see people get back to us 
later if they have further thoughts.
    Thanks, Madam Chair.
    Mrs. Napolitano. Thanks, Mr. Chair.
    I would ask all witnesses to consider, and respond in 
writing to the committee. Thank you very much.
    Next we have Ranking Member Rouzer.
    Mr. Rouzer, you may proceed.
    Mr. Rouzer. Thank you, Madam Chair, and I greatly 
appreciate the benefit of the testimony of our witnesses today.
    There is no question there is a tremendous amount of need. 
The question is what we can afford and how can we pay for it, 
and what I really want to focus on is how do we get the most 
value for the taxpayer dollar. How do we get the biggest bang 
for the buck?
    You know, Mayor Berger, you had focused in on and had 
specifically mentioned that we need to have a change in how we 
handle mandates. Would you mind expanding on that a little bit?
    And as a followup to that, how can regulations be smarter 
and implemented more efficiently to reduce that regulatory 
burden in those unfunded mandates and yet still provide the 
environmental protection that we need?
    Mr. Berger. Thank you, Congressman.
    My sense about this is that we continuously see mandates 
kind of rolling down the hill at us all the time, and 
consequently, it was very welcome news to, as I mentioned in my 
testimony, to understand that this authorization bill that you 
are considering has no additional mandates.
    So I think the first issue is not to act on additional 
mandates for local government unless and until there really are 
resources made available on the scale that can address the 
mandates that are being given to us.
    What our sense is is that the affordability for local 
communities is truly pricing water and wastewater beyond the 
households of the poor and the middle income, and as a result, 
that simply will over time force people off of our systems, 
force them to consider options that perhaps are not healthy, 
and consequently, I think they become self-defeating.
    So my first option is not to invent additional mandates, 
again, without a scale of resources that allows us to deal with 
that.
    And certainly, you know, we could point to recent action on 
the lead and copper rule. We could point to the kinds of 
concerns that obviously are there around phosphorus and 
nitrogen levels. All of those kinds of things have real dollar 
impacts that we need resources from the Federal Government to 
help us address, if we are going to be expected to address 
them.
    Mr. Rouzer. You also talk a lot about integrated planning. 
There are some that believe that integrated planning uses 
affordability as an excuse to roll back Clean Water Act 
protections.
    In your opinion, does integrated planning weaken water 
quality protections under the Clean Water Act?
    Mr. Berger. I absolutely believe it does not. We were the 
first community in the Nation to actually base our long-term 
control plan on integrated planning and to get it approved 
through both the Federal Government and our State government, 
and that was in 2014.
    That process worked for us because we were able to get, as 
a result of the involvement with the various stakeholders, 
consideration of an extended term. We did not get relief on 
what the objective is. We got a term of 27 years for our 
consent decree.
    That was the longest period allowed to a community to 
address these issues. So on the front end of that process, we 
had what were called early action projects, which committed us 
to spending about $60 million out of a $150 million commitment.
    After we are done with those early action projects, which 
we are beginning to wrap up now, we will have a period where we 
get to pay down debt that we have taken on in order to deal 
with prior projects, but also with some of the early action 
projects.
    And by virtue of that pay-down period, we then positioned 
ourselves in the next phase, for the balance of the projects 
that we commit to, to be able to afford those with additional 
future debt.
    We are not being relieved of any of the Clean Water Act 
responsibilities that we have under the law, but we are being 
given time to be able to structure the way in which those 
projects are done and thereby keep the rates more affordable 
than would have otherwise been possible if everything had been 
expected as when this process began. It was all supposed to be 
done in 10 to 12 years.
    That would have bankrupted us, and so integrated planning 
is not about relief from the obligations for clean water. 
Instead it is about how do we get it done in an affordable way.
    Mr. Rouzer. Madam Chair, my time has expired.
    Mrs. Napolitano. Thank you, Mr. Rouzer. I appreciate that.
    The next question period will be mine, and I am addressing 
to Mr. Sterud.
    Besides providing more Federal investment to the Tribal 
lands, what can come [interruption to audio] and insofar as the 
discussion draft for the Clean Water State Revolving Fund, what 
did we get right?
    What issue should we address as we move this through the 
committee process?
    And what can Congress do to make sure individual households 
can pay their water bills if rates increase due to 
improvements?
    And I will go ahead and let you answer, sir.
    Mr. Sterud. I am sorry. You cut out halfway through and 
then you came back on for the----
    Mrs. Napolitano. Beyond providing more Federal investment 
in Clean Water SRF, what can we do to help troubled communities 
to ensure they have adequate water infrastructure and 
sanitation services?
    And what can we get right? What issue should we address?
    And then what can we do to make the individual household 
make it more affordable in case the rates are increased because 
of improvements?
    Mr. Sterud. Well, that covers a large area, but I can 
safely say that Indian Country in a lot of ways is like Third 
World conditions. Across the country, all Native communities 
are sometimes isolated, are the last on the list to get Federal 
or State funding, and they need to work together to help us 
out.
    And for these Tribal communities, being able to speak on 
this subject is very important.
    The impacts on our health and our environment, we just need 
more funding. Speaking for resources must be a priority. We 
have a treaty that allows us to catch salmon, that allows us to 
go [interruption to audio] diving, shellfish harvesting, and 
those are all impacted by wastewater, and they are dying.
    Water sanitation infrastructure is a big cause. We have 
lived on these foods since time immemorial. We need to protect 
them. They are our health food. They are our medicine.
    Mrs. Napolitano. All right, sir. Well, given the list of 
infrastructure needs, we rank water infrastructure the most 
important. What does investment in water infrastructure mean to 
the Native American community?
    Mr. Sterud. Well, it means living a healthier lifestyle. It 
means growing good, growing in a good way. It means our treaty-
protected resources are protected, and that is our lifeblood.
    And we need help. And we are doing the best that we can. 
And we are also working with our State people, our local 
governments.
    You know, it is a big issue that we all have to put our 
hands around.
    Mrs. Napolitano. Well, are your local agents prepared to 
provide the operations and maintenance on the improvements?
    Mr. Sterud. I would say yes. You know, we have a good 
working relationship with the different governments.
    But we are kind of left out of the argument.
    Mrs. Napolitano. [Inaudible] inclusion?
    Mr. Sterud. Yes.
    Mrs. Napolitano. Understood. Well, sir, thank you very much 
for your time.
    And I will proceed to the next witness. I mean to the next 
question. Representative Johnson, you are on.
    Ms. Johnson of Texas. Well, thank you very much.
    And let me thank all of our witnesses.
    Let me just preface any questions I might have by calling 
your attention to the major situation we find ourselves in in 
Texas. I represent Dallas, Texas, and I listened very closely 
to Mr. McFoy.
    Mr. McFoy, if you were in Texas at this time, how would you 
advise us on the infrastructure services that we need to look 
at?
    Because what has happened there and what is going on there 
is likely to happen anywhere. With the climate change, we get 
predictions about weather changes and things that are going to 
happen.
    In general, and I do not want to put too much of a burden 
on you to know about what is going on in other places, but what 
do we need to do in this country to be more prepared for what 
we are obviously looking forward to doing?
    Because we are not going to be able to do whatever it takes 
to completely address climate change in any time that I can 
foresee in the future. We can work on it a little at a time, 
but I suspect that most major cities can be caught off guard 
when we have incidents like we are going through in Texas right 
now.
    What do you see as we go forward that we need to do in this 
country, especially with our water systems, to be somewhat a 
step ahead?
    Mr. McFoy. That is an excellent question.
    One of the things that we are focusing in here in Buffalo 
is just having a resilient system, and that goes around with 
everything that we do.
    So whether that is capital improvements or our operation 
and management of our facilities, it is critical that you look 
at the risks associated with climate. So here in Buffalo we are 
on the shores of Lake Erie, and what we have been seeing is 
high water, and that has had an effect on where we have our 
facilities located. So that is our issue.
    Of course, you know, it snows here all the time. So we are 
used to this snow end of it, but other places have to see with 
climate change what are the different aspects that are coming 
their way, and then focus in on the resiliency of all of their 
platforms.
    So while I do not have specifics on what is going down in 
Dallas and in the Texas area, that would be my advice to all of 
our peers, is that we really focus in on the resiliency 
especially in the face of these climate realities.
    Ms. Johnson of Texas. Well, thank you very much.
    Are there any other witnesses who would like to comment on 
that?
    [No response.]
    Ms. Johnson of Texas. I can certainly understand why.
    What then can we--and I guess this is basically to Mr. 
Mallino.
    You outlined the need for investment in America's 
wastewater infrastructure, and you note that an estimated 10 
trillion gallons of untreated runoff flow into America's 
streams and rivers annually, and that it is projected that more 
than 56 million new users will be connected to centralized 
treatment systems over the next two decades.
    Every major city, of course, needs to be thinking of this.
    What do you believe would be the best general policy that 
would allow for immediate action in providing for these changes 
that we need to start to address?
    Mr. Mallino. First and foremost, more money. I mean this 
was a problem of lack of resources. And we need a renewed 
Federal commitment to additional resources to allow communities 
and States across the country to build out their infrastructure 
needs.
    You know, one of my colleagues once said it is not a 
problem if money can solve it. This is a lack of resources 
issue and getting money to actually do infrastructure projects 
is the best way to improve people's lives.
    Ms. Johnson of Texas. Thank you, Madam Chair. I yield back.
    Mrs. Napolitano. Thank you, Ms. Johnson.
    And because I skipped over our Republican colleagues, I 
will call on Mr. Babin, followed by Mr. Weber.
    Mr. Babin, proceed.
    Dr. Babin. Thank you, Madam Chair. I appreciate you. Thank 
you, Ranking Member Rouzer.
    We also thank our witnesses for being here with us today.
    I represent southeast Texas, which is home to many rural 
constituents that often find themselves lacking easy access to 
municipal infrastructure that most urban areas do already 
provide.
    I, a former mayor myself, along with countless other 
neighbors of mine, rely on onsite decentralized wastewater 
systems, also known as septic tanks. And now according to the 
State Onsite Regulators Alliance, or SORA, roughly 25 percent 
of the population, or about 85 million Americans, rely on 
decentralized systems to handle their wastewater.
    The National Association of Home Builders estimates that 30 
percent of all new residential construction will utilize 
decentralized systems going forward. However, less than 1 
percent of all Clean Water State Revolving Funds allocated over 
the last 40 years has actually gone towards these decentralized 
systems.
    And to me these numbers just simply do not add up when 
millions of Americans, including Texans, rely on these systems.
    So, Mayor Berger, or any other witness who might want to 
address this, what role do you see decentralized systems 
playing in your wastewater infrastructure needs going forward? 
Mayor.
    Mr. Berger. Congressman, actually for us the city and the 
townships that are connected to us, the entire city is sewer 
and a good portion of the contiguous townships. So I personally 
have no expertise relative to the approach of decentralized 
systems.
    I do know that the State of Ohio has begun to more 
intensively regulate that approach because the failure of 
systems seems to be increasing, and so inspection regimes, as 
well as the amount of acreage that home builders are required 
to take to install systems.
    All of that, I think, is going to continue to happen in 
order to adequately treat those wastewater concerns.
    Dr. Babin. OK. Thank you very much.
    Is there anyone else on the panel that would like to 
address this septic tank question I have?
    There are millions of Americans that have to utilize these.
    [No response.]
    Dr. Babin. OK. One other question then, Mayor Berger. How 
can the Environmental Protection Agency or any other Federal 
agency, for that matter, better serve these systems and the 
people that rely on them?
    And hopefully I have got enough time for someone else to 
answer that and take a shot at it as well.
    Thank you.
    Mr. Berger. Again, sir, I have no personal experience with 
the systems, and I would hesitate to offer some advice.
    Dr. Babin. OK. Is there anyone here on this panel who might 
want to address this?
    Less than 1 percent of all of our Clean Water State 
Revolving Funds have been allocated over a 40-year period to 
these decentralized systems, when millions, 85 million 
Americans rely on these septic tanks.
    Does anyone else want to take a stab at that?
    [No response.]
    Dr. Babin. Madam Chair, I will yield back then.
    Mrs. Napolitano. Well, thank you, Mr. Babin.
    I think some might have input later. I would suggest that 
you write those comments back to the committee so that we may 
review them.
    Next we have Mr. Weber. Mr. Weber, you may proceed.
    Mr. Weber. Well, thank you, Madam Chair.
    I am not going to have any questions at this time, but I am 
staying tuned if you want to check with me a little later.
    Mrs. Napolitano. All right, sir. Thank you very much.
    We will proceed to Mr. Garamendi. Mr. Garamendi, you are 
on.
    May I ask that everybody who is not scheduled to speak 
mute?
    Mr. Garamendi?
    [No response.]
    Mrs. Napolitano. Is he available?
    If not, we will skip to Mr. Lowenthal.
    Mr. Lowenthal. Thank you, Chair.
    This subcommittee on, you know, wastewater infrastructure 
and the needs and the importance of especially the SRF and the 
clean water is so, so important.
    But one of the things that stuck me, and I do not know if 
any of you can help me out, when I was doing my reading to plan 
for the subcommittee and my questions, and that is, you know, 
we talk about antiquated systems that need to be done, but I am 
also concerned about systems that were not prepared or should 
not be prepared, were not planned for what has been put into 
them.
    For example, I was just struck with the flushing of 
nonflushable wipes that have had tremendous impacts upon 
systems. People flush these down, and then it impacts our sewer 
pipes and our treatment facility.
    And I am most concerned about a sentence that I read, and I 
am not sure that any of you can help me, and that is that they 
contain microplastics that do not break down. So we are now 
talking about microplastics, and those clog the system.
    I am also concerned about the public health crisis. We are 
ingesting all of those microplastics.
    Have your systems had problems? I guess I will ask Mr. 
McFoy about nonflushable wipes.
    What should we be doing about it?
    And has anybody studied or seen the impact of these 
microplastics that clog the system? But they also clog the 
human body, too. So I am very, very concerned about that issue 
of microplastics that get into us and get into our systems and 
clog the systems themselves.
    So should we be doing something about that?
    You know, it is not just old systems. It is the fact that 
these systems were never designed to deal with some of these 
issues. So I am wondering if anybody has had to deal with any 
of those issues.
    Maybe Mr. McFoy?
    Mr. McFoy. Congressman, I can take that one.
    As far as the first one, which we talked about, flushable 
wipes, you know, to many of us in the utility industry, that is 
a misnomer.
    What we have found is in most cases, they are not meant to 
go down into our systems because they simply do not break down 
by the time that they reach our treatment facility and hence, 
they cause havoc not only in our sewer systems but when they 
reach our treatment facilities, as with our screening 
facilities and things of that nature.
    And microplastics here in western New York, we typically 
have a microplastics ban in place because of the health 
concerns with many of those microplastics making their way.
    What we have been pushing for from a State level here and 
nationally has really been to push that back onto the 
manufacturers of these microplastics to make sure that they 
deal with their waste, and the same way with the flushable 
wipes.
    That responsibility is placed on them before it becomes a 
problem in our systems and for our residents and customers.
    Mr. Lowenthal. You know, I have a bill, which is very 
similar, in a little different concept but very similar to what 
you are saying, is to push it back to the producers. I have a 
bill on plastics in general, and instead of asking the cities 
and counties to do all the work in terms of recycling and 
cleaning up of plastics, to put it back on the extended 
responsibility on the producers of the plastics.
    So I agree with you that really it is the producer. They 
should not be putting these microplastics in, and it really 
should be their responsibility to help clean up or to prevent 
all this from happening, and they are not being responsible.
    My bill is called Break Free from Plastic Pollution Act, 
and in the Senate, Senator Merkley and myself are reintroducing 
that bill this year.
    But it really deals with the same concept as you are 
saying, it is the producers of the plastic that really have to 
deal with this issue, and they are not.
    Thank you, and I yield back.
    Mrs. Napolitano. Thank you, Mr. Lowenthal.
    It is very interesting to note those ideas. We also must 
consider all the contaminants in the water because of COVID and 
what are the future contaminants that we have to deal with in 
our water? We have to clean that water.
    We move on to Mr. Mast. Mr. Mast, you may proceed.
    Mr. Mast. Thank you, Madam Chair.
    And I want to thank all of the witnesses for being here to 
discuss how wastewater treatment infrastructure has impacted 
the economy, how it has impacted the environment, how it has 
impacted the public health of our communities.
    And I want to talk about this issue that is incredibly 
personal to me and a solution that is readily available.
    Now, first, I would be hopeful that we could all agree that 
everybody, no matter how much money they have, where they live, 
or anything else, that something that the Government should be 
tasked with providing above everything is access to clean 
environment, clean air to breathe, clean water to drink, clean 
water to swim in, clean land to live on, to work and play on, 
and I am going to circle this back to a problem in my 
community.
    We have been plagued not just by dirty water. That word 
does not do justice to it, but by toxic, literally toxic water, 
labeled that way by the EPA, by the U.S. Army Corps of 
Engineers, toxic, too toxic for human beings to touch, 
according to the EPA. Water testing as much as 495 times more 
toxic than what the EPA has said human beings should come in 
contact with.
    This happens regularly, decimating ecosystems, as many of 
my colleagues have spoken about, public health, the economy, 
and this happens, as I said, in my community basically every 
year, every summer.
    Now, in my opinion, nobody should be forced to live like 
this, especially when the solution is so readily apparent, and 
I want to talk about just one part of that today.
    It was mentioned in many of the comments that were given 
here, many of the written testimonies, the Clean Water State 
Revolving Fund. It is due for an upgrade to reflect the needs 
that States are facing due to aging infrastructure and also due 
to population changes. That has to be taken into account as 
well.
    So while changes to how the fund's money is disbursed have 
been mentioned, I think we need to discuss and focus to some 
degree on the need for adjusting the allotment formula, which 
has not been changed since 1987.
    So in Florida, my State, as an example, since 1987 our 
population has approximately doubled, making us the third 
largest State in the country. However, with the current 
allotment formula, we rank 10th in the amount of funding that 
we are receiving.
    Madam Chair, Madam Napolitano, your State is the most 
populous State in the U.S. Yet under the current formula, your 
allotment does not reflect the growth of your State's 
population since 1987 relative to what other States have seen.
    Mr. Ranking Member, Mr. Rouzer, the same is true for your 
State. North Carolina is the 9th most populous State, yet it is 
16th in allotment for the Revolving Fund.
    So the Clean Water State Revolving Fund gives States the 
flexibility to address the really diverse water infrastructure 
needs that we see across the country, but it is not keeping up 
with the way different States are changing.
    So as I have said, in Florida, the fund has been used for 
some great projects, to assist with, as my last colleague spoke 
about, converting aging septic systems to more sound sewer 
water systems; addressing nonpoint source pollution that is 
hurting our State's water quality. It has been used for a lot 
of different things, but that calculus needs to change.
    I do have here a letter. I ask unanimous consent to submit 
this for the record. It is from the Florida Department of 
Environmental Protection and their secretary, Noah Valenstein, 
that states reforms that could be used for exactly these 
purposes.
    I ask unanimous consent to submit that, Madam Chair.
    Mrs. Napolitano. So ordered.
    [The information follows:]

                                 <F-dash>
 Letter of February 22, 2021, from Noah Valenstein, Secretary, Florida 
  Department of Environmental Protection, Submitted for the Record by 
                           Hon. Brian J. Mast
    Florida Department of Environmental Protection,
                         Marjory Stoneman Douglas Building,
                               3900 Commonwealth Boulevard,
                          Tallahassee, FL 32399, February 22, 2021.
Hon. Grace Napolitano,
Chairwoman,
Subcommittee on Water Resources and Environment, Committee on 
        Transportation and Infrastructure, U.S. House of 
        Representatives, 2251 Rayburn House Office Building, 
        Washington, DC.
Hon. David Rouzer,
Ranking Member,
Subcommittee on Water Resources and Environment, Committee on 
        Transportation and Infrastructure, U.S. House of 
        Representatives, 2164 Rayburn House Office Building, 
        Washington, DC.
    Dear Chairwoman Napolitano and Ranking Member Rouzer:
    In considering ``The Urgent Need for Investment in America's 
Wastewater Infrastructure,'' I urge you to extend your attention to 
important reforms that can increase the reach, efficacy, and impact of 
much-needed federal investments in the Clean Water State Revolving Fund 
(CWSRF) program. Specifically, the Subcommittee should seek to 
concurrently modernize the Clean Watershed Needs Survey and the CWSRF 
allotment to ensure that federal investments that support state and 
local efforts to build, replace, or enhance wastewater infrastructure 
are delivered where they are most needed.
    As identified in the Environmental Protection Agency's 2016 Report 
to Congress: Review of the Allotment of the Clean Water State Revolving 
Fund, the true wastewater infrastructure need across the nation may be 
underreported by states. The Florida Department of Environmental 
Protection supports the recommendations of the Council of 
Infrastructure Financing Authorities to modernize the Clean Watersheds 
Needs Survey in a way that yields an accurate assessment of needs 
within the scope of the Clean Water Act and without overly burdening 
limited state and municipal resources. Efforts to fix chronic problems 
associated with the Clean Watershed Needs Survey must also be 
accompanied by the modernization of the CWSRF allotment.
    The 2016 Report to Congress demonstrates that the current CWSRF 
allotment misallocates federal investments based on decades-old 
assumptions that no longer apply. To better illustrate the flaws in the 
current allotment, consider that in 2020 the fourth-most populous state 
in the nation (New York) was awarded more CWSRF funding than the 
combined sum received by the first- and third-most populous states 
(California and Florida).
    Florida, in particular, is home to some of the nation's most 
economically and environmentally valuable watersheds, yet our state's 
per capita CWSRF funding has shrunk to one of the lowest in the nation 
even as the state's impressive population growth has generated 
unprecedented demand for new and improved wastewater infrastructure. 
The Florida Department of Environmental Protection endorses the 
bipartisan efforts of Senators Rubio and Scott, Congressman Waltz, and 
Transportation and Infrastructure Committee members Brown, Mast, and 
Webster to address these disparities by passing the Clean Water 
Allotment Modernization Act.
    To best identify and fulfill the urgent wastewater infrastructure 
needs around the country now and into the future, it is imperative that 
Congress links the provision of new federal investments in wastewater 
infrastructure to a modernized Clean Watershed Needs Survey and Clean 
Water State Revolving Fund allotment.
        Sincerely,
                                           Noah Valenstein,
                                                         Secretary.

cc:  Florida's congressional delegation

    Mr. Mast. Thank you, Madam Chair.
    And in that I would urge the committee to look at updating 
how this revolving fund is being disbursed so that it is 
disbursed in a more equitable way based upon a State's 
population and its needs accordingly.
    With that, Madam Chair, I yield back.
    Mrs. Napolitano. Thank you, Mr. Mast.
    That is a great point, and we will look at it further.
    Mr. Pappas, you are recognized. You may proceed.
    Mr. Pappas. Well, thank you very much, Madam Chair.
    And I want to echo the comments of Mr. Mast and so many 
other colleagues who are calling for reauthorization and 
modernization of the Clean Water State Revolving Fund, and that 
is something I hope we can accomplish in a bipartisan fashion 
in this Congress.
    Today I want to focus my comments on an issue that is so 
critical to the public health concerns in my district, to our 
environment, to the availability of clean water, and that is 
the issue of these toxic ``forever chemicals'' known as PFAS 
and the need to regulate them under the Clean Water Act.
    Ms. Coley, I thought you offered some powerful testimony 
about the downshifting we have seen of the financial burden 
from the Federal level to local ratepayers to deal with water 
infrastructure needs and as this pertains to emerging 
contaminants that you are seeing in Wisconsin and the need to 
adapt our water infrastructure to address issues such as PFAS.
    I wonder if you could comment on the financial and 
operational strain that is placed on local utilities in meeting 
this growing and urgent health crisis [inaudible].
    Ms. Coley. Thank you for the question.
    You know, PFAS is a host of contaminants. It is more than 
one that is affecting our water, and in many ways, we do not 
know exactly what they are. So we really need to have some 
money to research to find out what is exactly in water.
    And our waste treatment facilities need to have systems in 
place where they can filter these PFASs out, which means really 
where did they come from. They really came from corporations 
knowingly or unknowingly polluting our water, dumping 
contaminants and poisons, toxins in our water.
    And so we have to form a partnership really with these 
corporations to have some responsibility to mediate the harm 
that they gave to the environment.
    So we need resources to really do research on this PFAS, to 
find out what they are, where they are, and how we can get rid 
of them, and then to give waste treatment facilities the 
resources to be able to ferret them out, to be able to look for 
them.
    And this is part of it. We do better when we know better, 
right? And so we have to find out what we need to do.
    It is the same thing really with these wipes that are 
unflushable. We have to first tell the community, educate the 
community on these issues, but also hold these corporations 
responsible for this.
    Because these are issues and problems that only the 
Government and only really the corporations can deal with. 
Individuals or communities cannot deal with this kind of thing.
    So it is really more of a partnership between wastewater 
management, between education and research, and then the 
corporations and the States really looking at this issue 
holistically.
    Mr. Pappas. Well, I appreciate those comments, and I know 
that your counterparts in my district feel the same way. I 
think our States need additional Federal support to understand 
the problem, to test for it, and to ensure that contaminants 
like PFAS do not get out into the environment where they 
persist for decades and centuries.
    That is why a bill that passed the House in the last 
session that I am really looking forward to reintroducing it 
this term; it is the Clean Water Standards for PFAS Act, and it 
would require EPA to review PFAS discharges under the Clean 
Water Act and issue regulations to address harmful discharges 
into our Nation's waterways and into the environment.
    This is important because it would allow EPA to hold these 
corporations, to hold polluters accountable in ensuring that 
they are not just sending these harmful PFAS chemicals directly 
to publicly owned treatment works and passing along the burden 
to our local ratepayers.
    Additionally, this bill would also authorize a grant 
program to assist these publicly owned treatment works to make 
sure that they can comply and that ultimately we are not just 
perpetuating this type of contamination.
    So I really look forward to building some support in a 
bipartisan fashion for that legislation. I hope it can be taken 
up as part of reauthorization, and I think this could really 
help a lot of our water treatment facilities around the country 
deal with this persistent issue.
    Ms. Coley. Congressman.
    Mr. Pappas. Go ahead, Ms. Coley. I just have a few seconds 
left.
    Ms. Coley. I would just we say really need to work with the 
EPA as well, to really give them the robust resources they need 
to provide oversight.
    Mr. Pappas. Absolutely.
    I yield back my time, Madam Chair.
    Mrs. Napolitano. Thank you, Mr. Pappas. That is a good 
point you have made.
    We turn now to Miss Gonzalez-Colon. You may proceed.
    Miss Gonzalez-Colon? Are you on?
    We will come back to her later.
    Ms. Wilson, you are own. Frederica Wilson?
    Ms. Wilson of Florida. I am on. Thank you, Chairman. Thank 
you.
    Can you hear me?
    Mrs. Napolitano. Yes, ma'am. You may proceed.
    Ms. Wilson of Florida. OK. Great. Thank you, Chairman 
Napolitano and Ranking Member Rouzer, for calling this very 
important hearing.
    As the Representative of a district on the front lines of 
climate change, this is an all Miami-Dade economics fight, 
critical infrastructure needs. This hearing literally hits 
home.
    The Federal Government's decreasing support over the past 
few decades has left our local communities in a dangerous and 
precarious position, which has disproportionately affected 
communities of color like mine.
    After we recover from this coronavirus pandemic, we must 
support our local governments and invest in the Nation's 
wastewater infrastructure to increase much needed jobs, bring 
equitable change to ignored and underserved communities, and 
upgrade and fortify our systems to coexist within the 
inevitable impacts of climate change.
    With Congress and the administration's focus on significant 
infrastructure investment, I am hopeful we can effectively 
address these challenges.
    With that I have a few questions. Mr. David Mallino, 
legislative and political. I want to thank you for your 
testimony. You highlighted the tens of thousands of jobs 
infrastructure investments would create, including expanding 
the number of skilled workers among disadvantaged populations.
    In your opinion, what should Congress do to ensure that 
disadvantaged populations get the training they need to fill 
these jobs?
    Mr. Mallino. There is no one easy answer for that. You 
know, our union, as well as many of the unions, well, all of 
the unions in the building construction trades, have 
apprenticeship programs and training programs, outreach to 
local communities.
    But really it starts with creating the jobs. Without the 
investment into the job creation, there are no jobs to train 
for.
    So it is a holistic approach. We can work with union 
groups, local groups to establish training programs, to bring 
people from the community into our apprenticeship programs, 
train them for the work, and then refer them out not just to 
the job as it is going on, but then they have a career pathway 
to go forward into other construction jobs once the water 
project or whatever they are working on ends.
    Community workforce agreements--project labor agreements we 
also call them--can establish training and local hire numbers 
where we can fold in with the developer or the contractor 
targets to reach into the community and bring people from the 
community into the training programs and put those in those 
jobs.
    So again, we have a lot of different sorts of--I refer to 
them as labor standards--a number of different programs 
designed to outreach and train local community partners.
    Ms. Wilson of Florida. Thank you.
    Yesterday we mourned the loss of half a million COVID 
lives, and Congress has to work to protect essential workers. 
Do you consider major infrastructure investments in the age of 
COVID and what else can we do to protect our frontline workers 
other than the vaccine and [interruption to audio]?
    Mr. Mallino. You broke up part of the way through there, 
Congresswoman. So I assume that is still directed to me.
    You know, the construction industry can expand to bring in 
displaced workers into the industry, and with the overwhelming 
infrastructure need that there is, we are expandable, only 
limited by the lack of resources.
    The construction economy has continued through COVID. We 
have seen some local and regional job displacements, but many 
projects have continued forward. We really think of ourselves 
as a way to solve the underemployment issues that are 
exacerbated by COVID.
    And, again, it is resources. We can build out a workforce, 
but we need investment into the projects to create those jobs.
    Ms. Wilson of Florida. Well, thank you so much.
    Ms. Coley----
    Mrs. Napolitano. Ms. Wilson, your time is up.
    Ms. Wilson of Florida. Oh, I yield back.
    Mrs. Napolitano. Thank you, ma'am.
    We seem to be having a little bit of feedback on Mr. 
Mallino's and Ms. Wilson's line. Hopefully that will not happen 
on the next one.
    Mr. Carbajal, you are next. Proceed.
    Mr. Carbajal. Thank you, Madam Chair.
    Mr. McFoy, thank you for participating today and coming 
here. We know that the climate crisis is here and has been 
negatively impacting our communities, particularly in terms of 
access to clean water.
    We are seeing it in Texas now, and we have seen it in 
countless other disasters as well. Unfortunately, these 
disasters are becoming all too common.
    I sponsored legislation, the Clean Water Infrastructure 
Resilience and Sustainability Act, last Congress to establish a 
grant program within the EPA to ensure that our Nation's water 
infrastructure can withstand the threats posed by extreme 
weather events.
    Can you talk about how additional resources from the 
Federal Government can help local communities provide access to 
clean water for their residents?
    And would legislation like my legislation help in these 
efforts?
    Mr. McFoy. Thank you very much, Congressman.
    While I have not fully read your legislation, I will do 
that. But any legislation that focuses in on funding of 
capital, which is what we need to more readily make our system 
as resilient as they can be, especially in the face of climate 
change.
    That is one of the things that we are focusing in on here 
in Buffalo, as well as many of the other States. So with us 
being right here on the shores of Lake Erie, every piece of 
legislation that focuses in on developing climate resiliency 
plans, on developing hardened infrastructure that will allow us 
to make sure that we can stand up against these storms that are 
coming our way and more and more frequently; so anything like 
that we would definitely be in favor of.
    Mr. Carbajal. Thank you, Mr. McFoy.
    Mr. Mallino, I found your testimony very compelling as you 
discussed the challenge of maintaining access to water at an 
affordable rate while dealing with the unpredictability of 
extreme weather events.
    As you discuss, we have a backlog of water infrastructure 
needs, and I know this question is similar to the one that was 
asked before, but you came across with a lot of feedback. So I 
am going to ask the essence of that question again.
    Can you elaborate how this backlog is impacting 
disadvantaged communities?
    And as infrastructure is, in essence, a jobs bill, how will 
investing in water infrastructure help create more jobs and how 
can we make sure these are good-paying jobs?
    Mr. Mallino. I am going to hope that my microphone problem 
is fixed. If not, I will have to log out and log back in.
    Again, there are a suite of labor standards that help 
assure that these jobs created are high-rate jobs. We do not 
want to see Federal investment be used to drive down wages and 
labor standards.
    Things like Davis-Bacon protections against community 
workforce or project labor agreements, local hire requirements 
can all be built into projects to help spread the benefits 
across a broad segment of the population.
    And, again, this is an issue that can be solved by more 
investment. What we need first and foremost is more money into 
projects, a big infrastructure bill, across-the-board 
investments into roads, bridges, water systems, the grid, you 
name it. We can expand the workforce to fill that need.
    Does that answer your question, Congressman? I am not sure 
I----
    Mr. Carbajal. Thank you very much, Mr. Mallino. It 
certainly did. I appreciate you being here, and I appreciate 
your answer.
    So thank you very much.
    Madam Chair, I yield back.
    Mrs. Napolitano. Thank you, Mr. Carbajal.
    And I will take the prerogative of the chair to recognize 
Mr. Rouzer for one more statement.
    Mr. Rouzer.
    Mr. Rouzer. Thank you, Madam Chair.
    And I have a copy of a document here from the city of 
Pleasantville, and I ask unanimous consent to insert in the 
record on behalf of Representative Van Drew, who sits on the 
full committee, the ``City of Pleasantville Sanitary Sewer 
System Evaluation,'' if you do not mind.
    Mrs. Napolitano. So ordered.
    [The information follows:]

                                 <F-dash>
  Report, ``City of Pleasantville Sanitary Sewer System Evaluation,'' 
April 22, 2019, Prepared by CME Associates, Submitted for the Record by 
         Hon. David Rouzer on behalf of Hon. Jefferson Van Drew
    [Editor's note: The introduction to the report follows. The 39-page 
report is retained in committee files in its entirety.]
                            1. Introduction
    CME Associates has been contracted to evaluate and provide an 
assessment of the sanitary sewer system owned and maintained by the 
City of Pleasantville. In order to prepare an accurate evaluation of 
the system, a thorough understanding of the collection system and 
related appurtenances was required. In general, although the City has 
undergone some upgrades to the infrastructure, the overall system is 
aging and specific areas are in need of rehabilitation or replacement 
to prevent interruption of service due to potential pipe and 
infrastructure failure.
    The City of Pleasantville owns, operates, and maintains its own 
sanitary sewerage collection system. The total population served by 
this system is approximately 20,250 people, which equates to 
approximately 4,650 users. The boundary of the collection system is 
generally defined by the municipal limits of the City. A sanitary sewer 
infrastructure map of the system is enclosed and provided as Figure 2 
of this report. In general, the system consists of gravity sewer mains, 
laterals, manholes, pump stations, and force mains. Sewage flows from 
individual properties through lateral pipes into the mainline pipes, 
through pump stations, force mains, and finally to large diameter 
trunkline sewer pipes, that discharge to the Atlantic County Utilities 
Authority (ACUA) pump station located along Old Turnpike. Wastewater is 
then ultimately pumped to the ACUA Wastewater Treatment Plant located 
in Atlantic City.
    The City's collection system contains approximately 57 miles of 
gravity sanitary sewer, as well as more than 2 miles of force mains. 
The collection system is comprised of asbestos cement, vitrified clay, 
cast iron, and polyvinyl chloride pipes, primarily ranging in size from 
8 inches to 12 inches in diameter. The largest sewer pipes in the 
collection system are 42 inch diameter, whereas the largest force main 
is a 20 inch force main transmitting wastewater from Northfield towards 
the ACUA treatment plant.
    Wastewater flows via gravity through the Pleasantville collection 
system until the depth of the gravity sewer mains were cost prohibitive 
and pump stations were installed to lift and transmit the sewage via 
force main to higher gravity mains. Currently, the City owns and 
maintains twelve pump stations which are located at various low lying 
areas throughout the City.
    The intent of this report is to perform a limited evaluation and 
inventory assessment of the referenced sanitary sewer collection 
system, as well as the pumping stations. The inventory assessment will 
quantify the age, size, and composition of the collection system, as 
well as include details associated with each of the pump stations. The 
evaluation will include recommendations concerning improvements to the 
sanitary sewer collection system, and its pump stations, as well as 
quantify approximate costs of same.

    Mr. Rouzer. Thank you much.
    I have a quick followup, if I can, for Mayor Berger and 
also Mr. McFoy if he has any thoughts on this.
    But I wanted to get your thoughts on changes to permitting. 
What benefits would local communities have with changing the 
current Clean Water Act law to allow cities to have a 10-year, 
for example, rather than a 5-year treatment works permit?
    I just wanted to get your thoughts on that and drill down a 
little bit.
    Mr. Berger. Well, thank you, Congressman.
    I guess I have two reactions to that. One is the fact that 
a 10-year permit would give more predictability to a community. 
I think it would be really important for the long-range 
planning for a local system.
    I also think that there are real economies that result and 
savings that result for permits that are 10 years in length 
rather than a local team having to gear up every 5 years in 
order to negotiate, and that team can be multiple outside 
attorneys, multiple outside engineering firms, along with the 
internal staff.
    That marshalling of human resources to deal with a 5-year 
permit cycle is expensive.
    So, again, I think that the two benefits are savings that 
would result from that expense, but also the predictability of 
a 10-year permit allows, particularly for the kinds of 
improvements that are required by consent decrees and other 
orders. A 10-year permit lines up much more for achieving that 
long-term set of objectives.
    Mr. Rouzer. Mr. McFoy, do you have any opinion based on 
your experience?
    Mr. McFoy. Congressman, I would love to simply piggyback on 
what Mayor Berger has said.
    The stability that a long-term permit provides is 
wonderful. It allows us really to plan out our capital 
investment, to reduce those human resources that we do every 
time it is time for permit review, and it really allows us to 
right our ship in the direction that needs to happen for 
everything that we must do as utilities.
    Mr. Rouzer. Thank you.
    Madam Chair, I yield back.
    Mrs. Napolitano. Well, thank you.
    Mr. Rouzer. Thank you, again.
    Mrs. Napolitano. Thank you very much.
    Madam Norton, Representative Norton.
    Ms. Norton. Thank you.
    I hope you can hear me.
    Mrs. Napolitano. Yes, we can.
    Ms. Norton. Thank you very much.
    I want to thank you for this hearing on America's 
wastewater infrastructure because it occurs to me that we can 
deal with some of this even during a pandemic because of the 
distancing that construction usually involves.
    I want to begin with Mr. Teske because he emphasizes the 
need to ``Buy America.'' You would think we would need that, 
particularly at a time of job loss here.
    So what do you see as the biggest benefit of including 
``Buy America'' provisions in our infrastructure projects, Mr. 
Teske?
    Mr. Teske. Well, I think the biggest benefit is the 
increase of manufacturing jobs here in the U.S. I think we need 
to refocus on manufacturing jobs.
    You know, for years we promoted the service economy. I 
think that a return to manufacturing jobs is also a return to 
better paying jobs.
    And if I could just respond to one thing. I think education 
is necessary, in response to a question earlier. I think as a 
group it would be good to include funds to increase people's 
knowledge of the need for clean water.
    And one thing, too, unfunded mandates----
    Ms. Norton. Thank you very much, but I have not got a lot 
of time.
    Mr. Teske. OK.
    Ms. Norton. So I need to go on.
    Mr. Teske. Sorry. I apologize.
    Ms. Norton. Mr. Mallino of LIUNA, I was intrigued by your 
testimony because of the loss of jobs we have had in the United 
States during a pandemic.
    And I know that there are estimates that $1 billion could 
be invested. At least your testimony was that for every $1 
billion invested, 20,000 jobs in communities are created.
    So I would like you to elaborate on that at a time of job 
loss and can't this be done with distancing among workers?
    Mr. Mallino. Congresswoman, I understand my technology 
might be failing. So I apologize.
    Yes, those estimates, the chairman corrected me. His 
estimates are 28,000 jobs per $1 billion. I have seen between 
23,000 and 28,000, so I just try to err on the side of safety.
    We have had challenges in the construction industry, but a 
lot of the construction that the laborers do is done outside. 
When you have a union and a collective bargaining agreement 
that has safety and health experience and protocols that we 
have all worked on, we have worked on providing our members, 
well, the contractors, providing our members with handwashing 
stations and personal protective equipment.
    When possible we socially distance. We cannot always do 
that on a construction project, but we believe that creating 
the correct safety and health protocols can clearly be done in 
the time of the pandemic, and we have been rather pleased that 
our industry has been able to continue to work through the 
pandemic with these safety and health protocols.
    Ms. Norton. Yes, that is why your industry is so important 
for our economy.
    Mr. Berger of the United States Conference of Mayors, 
climate change is one of my great priority issues. So I would 
like to know what effect do you think climate change has had on 
the infrastructure?
    Do you think we need to build more resiliency into the 
system because of climate change?
    Mr. Berger. Congresswoman, yes. The short answer is 
absolutely. Climate change represents an enormous challenge.
    I can just speak for my community. When we modeled for our 
consent decree and we based our planning on a $150 million 
investment over the next 27 years, that was done with the 
expectation that we were going to be able to have a certain 
number of 100-year and 500-year storms, and the capacity of our 
system would be X amount of gallons of material.
    Well, in the year following the consent decree, we had 
three of those storms, 100-year storms. Well, when you do long-
range planning for infrastructure and it changes on you that 
quickly, it means you have either underspent or you have to 
redesign.
    So I think climate change represents enormous problems for 
communities for that reason. The unpredictability is enormous.
    Ms. Norton. Thank you for that testimony.
    And, Madam Chair, that testimony concerning climate change 
should be of utmost importance to our own subcommittee, and I 
very much thank you for allowing me the time to get answers to 
my questions.
    Mrs. Napolitano. Thank you, Ms. Norton. You make quite a 
point. I agree with you.
    Next we have Mr. Stanton.
    Mr. Stanton, you are on the line.
    Mr. Stanton. Thank you so much, Madam Chair.
    Before I begin my comments, let me just say to my friend, 
Mayor Berger, who I served with in the U.S. Conference of 
Mayors, congratulations on 32 years of service. The citizens of 
Lima have been well served.
    Mayor Berger taught the rest of the mayors around the 
country more about wastewater than any other source during my 
time, and so, Mayor Berger, congratulations, and if you do get 
bored in retirement, you can always run for Congress.
    Mr. Berger. Thank you.
    [Laughter.]
    Mr. Stanton. As a new member of this subcommittee, I 
appreciate our immediate focus on renewing the Federal 
commitment to this vital infrastructure that supports our urban 
and rural communities and Tribal nations, and that is 
wastewater infrastructure investment.
    The Southwest is rapidly changing and growing, and Arizona 
is no exception. We are the fastest growing State in the 
country. Since 1970, Arizona's population has ballooned from 
1.8 million residents now to over 7.5 million people, a 315-
percent increase, 115,000 new Arizonans per year, 300 per day.
    In 2019, Arizona ranked third in population, a growth of 
many of our communities growing faster and faster than the 
national average.
    To sustainably welcome and provide for the millions of 
people who will call our region and our great State home in the 
years to come, we must invest in our infrastructure and secure 
our water future.
    Last year, the Arizona section of the American Society of 
Civil Engineers released its 2020 infrastructure report card, 
which reflected the condition of our infrastructure across 
Arizona. We received a C-minus for drinking water and 
wastewater.
    This requires immediate attention. In fact, over the next 5 
years, we will have a shortfall of almost $1.5 billion in 
wastewater alone in the State of Arizona.
    As the former mayor of Phoenix, I know firsthand that local 
leaders must be innovative when it comes to addressing our 
aging infrastructure and planning for our water future, and 
frankly, we cannot afford the alternative.
    We know the future of our residents and of our economy 
depends on how well we anticipate, plan, and respond to our 
water-related challenges. Investing and supporting our State's 
water growth goes hand in hand with taking care of our most 
precious resource.
    We have to make sure that Federal dollars flow to areas 
throughout the State of Arizona, like those provided through 
the Clean Water State Revolving Fund, so that we can continue 
addressing these needs in our communities across the State, 
whether rural, Tribal, or urban.
    I have questions for Mr. Mallino of LIUNA and OJ McFoy.
    Mr. McFoy, in the interest of providing the Federal 
investment necessary to meet these infrastructure needs, we 
also must make sure that we have a trained workforce necessary 
to operate these facilities today and well into the future.
    The GAO projects that 30 to 50 percent of the municipal 
water workforce will be retiring just in the next decade, 
taking with them decades of experience and knowledge. As we 
witnessed through the pandemic, the women and men working in 
municipal drinking water, wastewater, and stormwater are 
essential workers who provide public health and provide 
community economic stability.
    Last Congress I proposed language that was included as part 
of the reauthorization of the Clean Water SRF to allow States 
to reserve up to 1 percent of the funds they are allocated each 
fiscal year for workforce development and training.
    This could equal tens of millions of dollars a year for 
local water workforce development efforts.
    Mr. Mallino and Mr. McFoy, can you talk about how dedicated 
funding like this assistance would be helpful in addressing 
workforce needs and how it might benefit small and rural 
communities, in particular?
    Mr. McFoy. Congressman Stanton, I would like to say thank 
you. There are many Buffalonians that now call themselves 
Arizonans.
    But when we look at the workforce end of this, that is a 
critical piece that we need in our utilities. As you had 
mentioned, our workforce has completely changed over the years, 
and when you look at the report ``Renewing the Water 
Workforce'' that was done in recent years, it focuses in on how 
that workforce is going to look going forward.
    Our workforce needs to reflect the communities in which we 
come from. We really are focusing in here on the water side in 
Buffalo on equity. We really need our workforce to better 
reflect our communities and also to make sure that they receive 
all of the training and development needs that they have to get 
these good-paying jobs that we are here to offer going forward.
    Mr. Stanton. That is great.
    And then how about Mr. Mallino representing our friends at 
LIUNA?
    Mr. Mallino. Well, Congressman, first and foremost, the 
laborers have and have for generations had a very mature 
training program. Our members do not pay for their training. 
The training is provided through joint labor-management 
committees, through contributions that go into our training 
programs as a result of the hours worked by every member.
    That money is pooled, and the training is, again, provided 
to our members free of charge, and that can go for basic 
skills, skills upgrades, and continued professional development 
into our sector.
    As a rule of thumb, we would prefer to not see a lot of 
Federal money be thrown out to the nonunion, low-road 
construction contracting community who are not making those 
investments that our contractors do.
    Again, I understand that there is need out there, and not 
every community is the same, but we would prefer to see 
resources go into actual projects that create the jobs that 
create the demand that allows us to train for those.
    Mr. Stanton. Thank you so much; I yield back.
    Mrs. Napolitano. Mr. Stanton, thank you. Thank you, Mr. 
Stanton.
    I would like to go to Mr. Garamendi next.
    Mr. Garamendi, you may proceed.
    Mr. Garamendi. Thank you, Madam Chair.
    I appreciate this hearing. It is an extremely important 
hearing, and one of the advantages of being last is I have 
learned a lot about issues.
    I am going to really limit my questions. The EPA Clean 
Water State Revolving Fund, the WIFIA Fund, the Drinking Water 
State Revolving Fund, all of these programs require that 
American steel and iron be used, but there is a lot more that 
goes into projects than just steel and iron. Mr. Teske spoke to 
the issue of the other things.
    So what I am really looking at here is whether we should or 
should not include in any legislation, Tammy Baldwin's and my 
legislation from last year, that would require ``Buy America'' 
provisions be written into the programs that we are discussing 
today, the Clean Water State Revolving Fund specifically, and 
then also WIFIA, as well as the Safe Drinking Water State 
Revolving Fund.
    So my question goes to, first of all Mr. Teske. Thank you 
so very much for your testimony where you spoke directly to 
this.
    Why do you not take another 30, 40 seconds and hit this 
theme one more time?
    Mr. Teske. Thank you, sir.
    Yes, I think it is very important that all of the products 
that are used be made in America. These are major capital 
expenditures that all of these facilities need, and it is best 
if they are made in the USA. They employ U.S. workers, and they 
have a ripple effect throughout the economy and throughout the 
supply chain where the products are made.
    So thank you.
    Mr. Garamendi. I really appreciate your testimony where you 
spoke to the capital investment that your company has made in 
anticipation of ``Buy America'' provisions in the upcoming 
legislation.
    I know, Mr. Mallino, you are well on this. We have worked 
with you last year on these issues--not just last year, but the 
last decade--and we continue to work on these issues.
    So I am going to move to a different subject here in my 
remaining 2 minutes.
    Mr. Rouzer raised this issue in his last question, and that 
is what are we going to do about the discharge requirements. 
The national pollution discharge elimination systems, the NPDES 
requirement is presently 5 years. By the time an agency knows 
that it has a problem, figures out what to do about it, deals 
with all of the litigation, 5 years is gone.
    And so the move to a 10-year period of time is, in my view, 
very, very important, and that is why last year we introduced a 
bipartisan piece of legislation, H.R. 1764.
    I just had a discussion with Mr. Rouzer about this. Perhaps 
we will reintroduce that bill, taking advantage of his ranking 
membership on this committee, and get the job done this year.
    With that I have covered most of my issues that were 
covered by other Members, and I am going to yield back my 
remaining 1 minute and 40 seconds in just a second as I drive 
home once again the need for make it in America, ``Buy 
America'' legislation.
    It does us little good to spend billions and billions of 
dollars and then see that money go offshore to manufacturing 
facilities in China or other places around the world, where 
American dollars, American taxpayer dollars are being used to 
support other economies and not our own.
    So with that, Madam Chair, thank you so very much for an 
extraordinarily important hearing. I look forward to working 
with you and the other members of the committee to make all of 
this happen so that we can have a Build Back Better legislation 
that includes clean water.
    Thank you so very much.
    Mrs. Napolitano. Thank you, Mr. Garamendi. You make some 
great points, and you know I support your ``Buy America'' 
totally.
    Miss Gonzalez-Colon, you may proceed.
    Miss Gonzalez-Colon. Thank you. Thank you, Madam 
Chairwoman. I am happy to be here, and thank you for putting me 
in this hearing.
    I think it is an important matter, and in the case of 
Puerto Rico, actually we've got hurricanes, and the issue of 
the safety and the future of economic recovery of our 
communities was impacted as well as the foundation of public 
health, and actually that is wastewater.
    And there is no community that can grow without managing 
wastewater, and that infrastructure is one of the critical 
services as defined by the Stafford Act, and that is the reason 
during the last Congress we actually submitted a bill to manage 
those definitions.
    I think that it should be a priority in any kind of 
disaster recovery.
    In the case of Puerto Rico, and just to share with the 
panelists here, our main water utility, PRASA, in the aftermath 
of the disasters, the wastewater suffered more than $600 
million in immediate damage under FEMA emergency categories.
    An additional $3.7 billion allocation for all water and 
wastewater operations has been announced by FEMA early this 
year, and as we can see the legislation on water 
infrastructure, the securing of proper priorities of funding of 
the wastewater sector, especially for those economically 
disadvantaged areas, needs the attention of this committee.
    And especially any proposal must consider those communities 
that may not have the cash or the resources to match grants, 
either financially or in kind, and provide the means for these 
communities to be able to benefit from any infrastructure to 
rebuild initiative. And we can attest to that.
    In our disaster relief bills in the past two Congresses, we 
included provisions to allow what Mr. Garamendi just said, 
Build Back Better process. This must be part of any program, 
since by building to improve the standards, we can have an 
infrastructure that is more resilient and that can handle 
emerging situations better.
    So I look forward to having hearings with EPA, the Corps of 
Engineers, and other agencies that oversee this important 
infrastructure.
    So having said that, having the panel here, I think I have 
got a question to Mayor Berger.
    First, what are the greatest challenges in terms of those 
matching funds?
    You suggest in your testimony increasing the current total 
funding commitments. Do you find that the commitments have 
failed to keep up with the real cost increases?
    In your suggestion for funding for Army Corps authority for 
water and wastewater works, does the organization have a 
suggestion to the types of infrastructure that should be a 
priority to have in their attention?
    Mr. Berger. Well, every community is facing different 
challenges. For us it was a combined sewer system and sanitary 
sewer.
    Communities in California, for example, are facing enormous 
TMDL requirements, stormwater related.
    I mean there truly is a massive set of expectations and 
demands, and geology; the rivers, the streams, the lakes that 
make up a place all have differing requirements for protection.
    So I do think the resources need to be at a scale that 
matters, and then there has to be flexibility to be able to 
address the unique needs that every community has because of 
the environment that it occupies.
    Miss Gonzalez-Colon. A question to you and to Mr. McFoy. Do 
you both consider that stormwater management should be included 
along with wastewater under the definition of critical 
infrastructure for the Stafford Act purposes after disasters?
    Mr. McFoy. Yes.
    Mayor Berger?
    Mr. Berger. Go ahead.
    Mr. McFoy. Just an emphatic yes. It is critical. That is 
the situation here in Buffalo. It is our stormwater challenge 
in dealing with that, and that is we count that as critical 
infrastructure.
    Miss Gonzalez-Colon. Thank you.
    Mr. Berger. The other thing that I would add is that 
integrated planning as it has currently been codified only 
deals with wastewater and stormwater. It does not yet include 
drinking water issues.
    And I think that one change that the Congress should also 
be teeing up is the opportunity to actually break down the 
silos for communities so they can create integrated planning 
for all their water-related needs.
    They can then establish priorities, and with those 
priorities, long-range plans for being able to ultimately 
afford those over time.
    Miss Gonzalez-Colon. Thank you.
    I yield back, Madam Chair.
    Mrs. Napolitano. Thank you, Miss Gonzalez-Colon.
    I understand that Mr. Katko has arrived. We will proceed to 
let him speak.
    Mr. Katko, you may proceed.
    Mr. Katko. Thank you, Chairwoman Napolitano. It is good to 
see you again, my friend.
    I literally just got back in the office, and I wanted to be 
able to have an opportunity to speak on this important issue.
    The community that I represent in central New York, 
Syracuse and the central New York area, understands the 
importance of clean water infrastructure all too well. Whether 
our community is working to replace aging pipes in Syracuse or 
responding to harmful algae blooms on Owasco Lake or the other 
tributaries, the need for further investment is clear.
    Here's why Federal support is essential to help State and 
local governments finance essential drinking water and 
wastewater projects: Ensuring the affordability of clean water 
for all of our communities is critical in supporting innovative 
research that will expand the availability of modernized water 
infrastructure systems.
    I look forward to working towards these goals with my 
colleagues on this subcommittee and to discussing these efforts 
with today's witnesses.
    I have got a question for Mr. McFoy. In your testimony you 
touch upon the importance of employing innovative clean water 
technologies. Last year the House passed as part of the Moving 
Forward Act a program that this committee supported to help 
clean water agencies adopt innovative technology solutions to 
address water treatment improvements.
    Do you support an innovative technology adoption program 
that help modernize our Nation's water infrastructure to 
address water quality needs and to help bridge a funding gap?
    Mr. McFoy. Congressman Katko, absolutely. We know just 
being on the Route 90 from each other. Cost effective, 
innovative technologies are truly key to how we are going to 
bridge the gap not only in funding, but in the efforts that we 
have to do in respect to climate change.
    So we are a big supporter of that, and in fact, here in 
Buffalo, we have been able to focus in on our smart sewers, 
which have saved us to date, as far as our plan is concerned, 
over $145 million, and that is by utilizing artificial 
intelligence and simply sensors to make sure that we can manage 
our stormwater challenge most effectively.
    Mr. Katko. Well, look. I appreciate that. I was going to 
ask you about some of the technologies.
    Are there any other technologies that you are employing 
other than what you just mentioned in the Buffalo area?
    Mr. McFoy. Yes, sir. Everything that we can get our hands 
on, that is what we are trying. From our treatment facility, 
you know, where we are working on our DL probes and 
establishing things that will allow us to better manage our 
energy concerns to out in our collection systems, we are always 
focused in on that innovative, cost effective technology.
    Mr. Katko. So what policies and resources can we in the 
Federal Government provide to become a more engaged partner in 
advancing the use of this technology and increasing the 
potential long-term cost savings in utilities?
    Mr. McFoy. One of the major things that the Federal 
Government can definitely provide is really having allocations 
that are focused in on new technologies and smart water, and I 
know that that has been out there, and that has been kind of 
pushed through.
    But in advanced research projects as well, those are very 
critical to how we are going to accomplish the next 21st-
century utility.
    Mr. Katko. OK. Very well. I thank you very much.
    Listen. I went to college right up the road at Niagara 
University. So I know Buffalo well, and it is good to see the 
renaissance it is undergoing, and the renaissance will be 
complete when the Bills win the Super Bowl.
    Mr. McFoy. Absolutely, sir, absolutely.
    Mr. Katko. I yield back, Madam Chair.
    Mrs. Napolitano. Thank you, Mr. Katko. I appreciate your 
coming on.
    I tell you that there are many facets to water. From 
climate change to training, manufacturing, ``Buy America'', 
education; the list goes on.
    We must ensure as the money goes to the States that the 
States use it for the intended purpose, number one.
    And I certainly want to thank all of the witnesses. You 
were fabulous, and most of you on time, not really bad, and 
thank you very much for being with us.
    You may have given us food for thought with your insights. 
Thank you very much for all of your testimony.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing.
    And I ask unanimous consent that the record remain open for 
15 days for any additional comments and information submitted 
by Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    I would like to thank our witnesses again very much. You 
have been great, the witnesses, and I thank you very much.
    If no other Members have anything to add, the committee 
stands adjourned.
    [Whereupon, at 1:17 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Napolitano, for holding this important hearing.
    Since this is our first hearing for the Subcommittee I want to 
congratulate and recognize our new Ranking Member--David Rouzer from 
North Carolina.
    This Subcommittee is known for getting bipartisan legislation not 
just passed, but signed in to law every Congress.
    I know the Ranking Member is up to the task and I look forward to 
working with him along with the Full Committee and Subcommittee Chairs 
to get things done to improve our water infrastructure in this country.
    As for our hearing topic today, clean and reliable water and 
wastewater infrastructure is essential to protecting the public health, 
growing local economies, and conserving the environment.
    However, our water infrastructure is aging and in need of repair.
    In Missouri alone, the total documented needs are over 9 billion 
dollars.
    Communities across my district from St. Joseph to Hannibal, 
Missouri face many wastewater infrastructure issues.
    I am acutely aware of the stress placed on local governments, 
especially those serving rural communities, to meet the water needs of 
their constituents.
    And they have to do so in a responsible and reasonable way that 
doesn't financially cripple the people they serve.
    If we want our communities to thrive, especially our rural 
communities, then we must address this critical part of our 
infrastructure in a timely and cost-effective manner.
    There is a Federal role in water infrastructure, and this Committee 
has supported and passed legislation demonstrating our bipartisan 
commitment to this issue.
    At the same time, the Federal government must avoid placing 
unfunded mandates and burdensome regulations that drive up the costs 
for communities to provide clean water to their constituents.
    I'm confident we can continue to work together on these important 
issues.
    I look forward to hearing some of the challenges and solutions our 
witnesses have in improving our water infrastructure.

                                 <F-dash>
 Prepared Statement of Hon. Eddie Bernice Johnson, a Representative in 
                    Congress from the State of Texas
    I would like to thank Chairwoman Napolitano and my fellow 
colleagues on the House Transportation and Infrastructure Committee for 
their diligent work to address the urgent need for immediate investment 
in our wastewater infrastructure. Everyone is the U.S. is impacted by 
the need for wastewater improvements and clean water.
    The Dallas area falls within the Southwestern Division of the Army 
Corps of Engineers. Flooding and flood control continue to be issues 
that are ever-present on the minds of residents along the Trinity 
River. I have held several meetings on flooding in the Dallas area to 
address this issue and hope to continue to work with the Corp to combat 
flooding in Dallas as well as making our wastewater systems more 
resilient.
    Our recent weather in Texas has highlighted the immediate need for 
municipal water and sewer infrastructure investments and 
weatherization. We must not allow the mistakes of the past to continue 
to impact us in the future.
    Within my district, The City of Dallas is appreciative to the U.S. 
Army Corps of Engineers (Corps) for their funding of the Dallas 
Floodway, Dallas Floodway Extension flood risk management projects and 
Lewisville Dam repairs and their continued efforts to complete these 
projects quickly. The projects addressing pump stations and levy 
heights in Dallas, along with bridge projects in Ft. Worth would not be 
where they are today without the work of the Corps and our commitment 
to our residents in Dallas.
    Madam Chair, the Clean Water State Revolving Fund (SRF) has not 
been reauthorized since 1987. This is the primary source for federal 
funding for domestic wastewater and storm water infrastructure. The 
Dallas-Fort Worth metroplex is growing at a quite rapid pace and this 
updated legislation will help to provide adequate water and wastewater 
infrastructure to meet the demands, given the rapid pace of growth and 
development in our area.
    Furthermore, updating the SRF will help in addressing maintenance 
needs, replacing aging infrastructure, and help in accounting for human 
behavior in all aspects of our water system--from sewer overflows, to 
promoting water conservation through drought tolerant outdoor 
landscaping, and making our wastewater systems more resilient.
    Madam Chair, I will continue to work to address the many water 
needs of the residents of the City of Dallas and the U.S. Every 
American is impacted by the need for clean water and our investments in 
wastewater infrastructure.

                                 <F-dash>
  Letter of February 24, 2021, from Adam D. Link, Executive Director, 
California Association of Sanitation Agencies, Submitted for the Record 
                      by Hon. Grace F. Napolitano
     California Association of Sanitation Agencies,
                                1225 8th Street, Suite 595,
                           Sacramento, CA 95814, February 24, 2021.
Hon. Grace F. Napolitano,
Chairwoman,
Subcommittee on Water Resources and Environment, Committee on 
        Transportation and Infrastructure, U.S. House of 
        Representatives Washington, DC.
    Dear Chairwoman Napolitano:
    On behalf of the California Association of Sanitation Agencies 
(CASA), I write in support of the Subcommittee on Water Resources and 
Environment's ongoing efforts to address the vital need for clean water 
infrastructure investments. CASA supports the draft proposal entitled 
Water Quality Protection and Job Creation Act of 2021 and requests that 
this letter be included in the formal record of the subcommittee 
hearing held February 23, 2021.
    CASA represents more than 125 local public agencies engaged in the 
collection, treatment and recycling of wastewater to protect public 
health and the environment. Our mission is to provide trusted 
information and advocacy on behalf of California clean water agencies, 
and to be a leader in sustainability and utilization of renewable 
resources. We believe the draft's provisions to address the well 
documented funding needs of our nation's wastewater infrastructure 
depend upon a robust federal partnership with local clean water 
agencies. CASA is encouraged that the subcommittee is building upon the 
progress of last Congress's efforts embodied by the Moving Forward Act 
(H.R. 2). As this legislation progresses, we also encourage the 
subcommittee to include specific funding for disadvantaged communities, 
innovative monitoring and treatment technologies that could reduce 
treatment costs, and alternative financing tools to help stretch 
limited resources.
    The reality of our clean water infrastructure being systematically 
underfunded is not new. In the 2012 Clean Water Needs Survey, the U.S. 
Environmental Protection Agency (USEPA) estimated that $271 billion is 
required to support the nation's wastewater infrastructure. This 
estimation is now a decade old and does not account for the severe 
economic impacts on state and local governments and individual 
utilities as a result of the pandemic. As we grapple with the pandemic 
and the importance of safe and reliable water supplies, the need to 
redouble our commitment to improving water quality and modernizing the 
nation's clean water infrastructure could not be clearer. We appreciate 
the opportunity to provide our comments to the subcommittee on the 
discussion draft.
                  Section 3. Watershed Pilot Projects
    CASA supports the authorization of $200,000,000 for each of the 
fiscal years 2022-2026 to support watershed pilot projects. This 
investment will help support healthier watersheds by funding innovative 
approaches to address water quality impairments. Watershed protection 
efforts that address impacts originating within a watershed are a vital 
approach to achieving significant water quality improvements. The use 
of integrated partnerships between municipalities and property owners, 
establishing best practices for stormwater and wastewater management, 
and enhancing resiliency of treatment works facilities can deliver 
improvements through a watershed approach, and the funding provided in 
this section will help to advance such programs.
     Section 4. Pilot Program for Alternative Water Source Projects
    We strongly support the authorization of $1,000,000,000 to support 
alternative water source projects. CASA is pleased that the draft 
includes ``wastewater, or stormwater or by treating wastewater or 
stormwater'' in the definition of alternative water source projects. In 
California, and across the West, the security of our water supplies is 
constantly in flux due to extreme weather events as a result of climate 
change, such as drought, wildfires, and reduced snowpack. The need to 
think innovatively to identify alternative water sources that can help 
enhance the resiliency of our water supplies during extreme weather 
events is critical. Section 4 of this draft recognizes this and makes 
the necessary federal investment to help states create resilient water 
supply portfolios.
      Section 6. Grants for the Treatment of Emerging Contaminants
    CASA strongly supports the draft's federal investment to help 
owners and operators of publicly owned treatment works implement future 
pretreatment standards for perfluoroalkyl or polyfluoroalkyl substance 
(PFAS) and other emerging contaminants of concern. Any effort to rely 
upon the wastewater treatment process to monitor and treat for PFAS 
contamination puts additional financial burden on already financially 
stressed utilities. CASA recommends the authorization of federal 
assistance to support clean water agencies implement new measures that 
might be mandated. CASA notes that the presence of such ``forever'' 
chemicals are a function of industrial production and public agencies 
are simply receivers of these wastewater discharges. We should not ask 
our ratepayers to pay the costs of such treatment and monitoring when 
the source of the discharge is known and can be addressed similar to 
other pollution reduction management programs.
        Section 7. State Water Pollution Control Revolving Funds
    CASA strongly supports the authorization of $40 billion over five 
years for the Clean Water State Revolving Loan Fund (CWSRF). The 
authorization addresses two important matters.
    First, it would establish certainty that federal government will 
maintain a strong partnership with states local agencies for years to 
come. According to the American Society of Civil Engineers' 2019 
infrastructure report card, California's clean water agencies have more 
than $26 billion in needs over the next two decades. This type of 
sustained commitment to the Clean Water SRF program, which serves as 
the backbone of clean water infrastructure financing in our state, is 
essential. Second, it reaffirms that the nation needs to address the 
documented funding gap that will only continue to grow as climate 
impacts such as sea level rise, flooding, drought and population 
migrations take a toll on our clean water infrastructure.
    While increased funding is vital to assist in our longterm response 
to improve public health and the environment, we also believe the 
mechanism to allocate funding to states needs to be addressed. CASA 
recognizes that this can be the third rail of clean water funding. 
However, the challenges that our agencies confront have changed 
dramatically since 1987 when the CWSRF allocation formula was last 
updated. USEPA conducted a study on the allocation formula and found 
that the existing approach is fundamentally failing to deliver 
equitable assistance to states based upon needs and other factors. In 
order for the CWSRF to meet the needs of the nation's clean water 
infrastructure, the allocation formula must be updated to reflect 
current and future population and treatment demands.
                        Section 8. Indian Tribes
    CASA supports the draft's provisions of the clean water needs of 
tribal communities. The priority to address communities that lack 
adequate and reliable water quality infrastructure is vividly 
illustrated by such communities. A dedicated $2.5 billion in wastewater 
infrastructure assistance to tribal communities is vital to improving 
the health and economic conditions of some of the most disadvantaged 
regions of the nation.
    Again, thank you for your continued attention to the needs of the 
nation's clean water infrastructure and the desire to provide strong 
federal investment to address the challenges facing our systems and 
create new systems capable of meeting the environmental and public 
health protections of the future. If CASA can be a resource for you or 
the subcommittee in the future, please do not hesitate to contact me.
        Sincerely,
                                              Adam D. Link,
                                                Executive Director.

                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
